<html>
<title> - FINAL REVIEW OF THE COMPREHENSIVE NUCLEAR TEST BAN TREATY (Treaty Doc. 105-28)</title>
<body><pre>[Senate Hearing 106-262]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-262


 
 FINAL REVIEW OF THE COMPREHENSIVE NUCLEAR TEST BAN TREATY (Treaty Doc. 
                                105-28)

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             OCTOBER 7, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                               <snowflake>

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                      U.S. GOVERNMENT PRINTING OFFICE
 61-364 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)


                            C O N T E N T S

                              ----------                              

                            Morning Session

                                                                   Page

Kirkpatrick, Hon. Jeane J., senior fellow, American Enterprise 
  Institute and former U.S. Permanent Representative to the 
  United Nations.................................................     7
    Prepared statement of........................................    12
Ledogar, Hon. Stephen J., former Chief Negotiator of the 
  Comprehensive Test Ban Treaty..................................    15
    Prepared statement of........................................    20
Weinberger, Hon. Caspar W., former Secretary of Defense..........    14

Prominent Individuals and National Groups in support of the CTBT.     3
Former Laboratory Directors oppose the CTBT......................    27
Letter from Physics Nobel Laureates in support of CTBT...........    34

                           Afternoon Session

Albright, Hon. Madeleine K., Secretary of State..................    72
    Prepared statement of........................................    75
Garwin, Dr. Richard L., senior fellow for science and technology, 
  Council on Foreign Relations, New York, NY.....................   112
    Prepared statement of........................................   117
        Nuclear Testing--Summary and Conclusion--JASON report....   131
Kerrey, Hon. J. Robert, U.S. Senator from Nebraska, vice 
  chairman, Select Committee on Intelligence.....................    60
Lehman, Hon. Ronald F., former director, Arms Control and 
  Disarmament Agency, Palto Alto, CA.............................   101
    Prepared statement of........................................   105
Levin, Hon. Carl, U.S. Senator from Minnesota, ranking minority 
  member, Committee on Armed Services............................    58
Shelby, Hon. Richard C., U.S. Senator from Alabama, chairman, 
  Select Committee on Intelligence...............................    54
    Prepared statement of........................................    56
Wade, Troy E., chairman, Nevada Alliance for Defense, Energy and 
  Business, Las Vegas, NV........................................   109
    Prepared statement of........................................   111
Warner, Hon. John W., U.S. Senator from Virginia, chairman, 
  Committee on Armed Services....................................    52
        Letters from six former Secretaries of Defense and Henry 
          Kissinger opposing CTBT................................    63

Senate Consideration of Major Arms Control and Security 
  Treaties--1972-1999............................................    81
Letters from former Ambassadors Wisner and Oakley in support of 
  CTBT...........................................................    82
Article from the Washington Post, Oct. 7, 1999, entitled ``The 
  Next President Will Pay the Price'' by George Perkovich........    87
Response of Secretary Cohen to question asked before the Armed 
  Services Committee on October 6, 1999..........................   134

                                 (iii)


FINAL REVIEW OF THE COMPREHENSIVE NUCLEAR TEST BAN TREATY (Treaty Doc. 
                                105-28)

                              ----------                              


                       THURSDAY, OCTOBER 7, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

                            Morning Session

    The committee met, pursuant to notice, at 10:35 a.m. in 
room SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Hagel, Smith, Thomas, Grams, 
Biden, Kerry, and Boxer.
    The Chairman. The committee will come to order. This is the 
final hearing of the Foreign Relations Committee on the 
Comprehensive Test Ban Treaty. We extend our sincere welcome to 
our first panel, Hon. Caspar Weinberger, former Secretary of 
Defense for President Reagan, Hon. Jeane Kirkpatrick, former 
U.S. Ambassador to the United Nations, and Hon. Stephen 
Ledogar, former chief negotiator of the CTBT.
    I have already welcomed Mr. Ledogar in person, and I 
welcomed Cap Weinberger, and Jeane Kirkpatrick is on her way. I 
am confident in any event following the testimony by these 
distinguished witnesses this morning, the committee will 
convene a second session this afternoon in which we will hear 
from the distinguished chairman of the Armed Services 
Committee, Senator Warner.
    We agreed to go back and forth to try to make our case, and 
also the ranking Democrat on the Armed Services Committee, 
Senator Levin, as well as the chairman of the Intelligence 
Committee, Senator Shelby, and the vice chairman of that 
committee, Bob Kerrey, Senator Kerrey of Nebraska, and we will 
hear from the distinguished Secretary of State, Madeleine 
Albright, and finally from the third panel of arms control 
experts, former acting director Ronald Lehman, chairman of the 
Nevada Alliance for Defense, Energy and Business, Troy Wade, 
and from Dr. Richard Garwin of the Council on Foreign 
Relations.
    So I suggest by the end of the day it will be difficult for 
anyone to credibly contend that the CTBT has not been 
thoroughly discussed and debated.
    Now then, I have a feeling most people know where I stand 
on the treaty, and so I am not going to engage in extended 
oratory this morning except to say this. I sense a clear 
consensus is emerging in the foreign policy community against 
Senate ratification of the CTBT. Here is why.
    Four former Directors of Central Intelligence have weighed 
in against the CTBT, including two of President Clinton's CIA 
Directors, Jim Woolsey and John Derish. Two former chairmen of 
the Joint Chiefs, Admiral Tom Moore and Admiral John Vessey are 
likewise strongly opposed, and yesterday the Senate received a 
letter signed by six--count them, six--distinguished former 
Secretaries of Defense, Cap Weinberger, who is with us today, 
thank the Lord, Frank Carlucci, Dick Cheney, Donald Rumsfeld, 
Jim Schlesinger, and Mel Laird.
    And it occurs to me that such unanimity among the former 
Secretaries of Defense in opposition to an arms control treaty 
is almost without precedent, and I might say that the present 
distinguished Secretary of Defense, whom I admire greatly and 
enjoyed greatly, served in the Senate with him, when he was a 
Senator he strongly opposed this treaty.
    In any case, perhaps we should be reminded that it's not 
the Republicans who asked for this vote. It was forced upon us 
by the President and all 45 Senators on the other side of the 
aisle. They wrote me a letter. I have never had a letter from 
so many distinguished Americans in my life, 45 Senators on the 
other side of the aisle, but the fact remains, if this treaty 
is brought up to a vote next Tuesday, I believe it will be 
defeated.
    Now, there is only one way that the President can call off 
that vote next Tuesday. He must formally request in writing 
that (a) the treaty be withdrawn, and (b) that the CTBT not be 
considered for the duration of his Presidency.
    Now, if the President does that, then the CTBT will be 
effectively dead, just as SALT II was effectively dead after 
President Carter made a similar written request of the Senate, 
and if Mr. Clinton does not submit a written request, we will 
proceed with the vote, and I am confident that the CTBT will be 
defeated, so the President has the choice to make.
    Perhaps your testimony today, Secretary Weinberger, and 
Ambassador Kirkpatrick, will serve to convince the President 
that the time has come to make such a request and a commitment. 
If not, I know your testimony will certainly be informative to 
many Senators as we proceed with the vote next Tuesday.
    Senator Biden.
    Senator Biden. Mr. Chairman, let me begin by saying I love 
you, but I find your characterizations interesting. This is the 
final hearing that is true. I would argue it is the first 
hearing as well as the final hearing, but that is not worth 
getting into right now.
    And as it relates to a clear consensus of the foreign 
policy community, I would ask, rather than take the time now, 
to enter in the record a list of prominent individuals 
including the present and five former chairmen of the Joint 
Chiefs of Staff, as well as 32 Nobel laureates, et cetera, and 
so if we can duel on who supports what, I am confident that 
there are more prominent Americans, particularly scientists, 
who support this than oppose it, but at any rate, I would ask 
unanimous consent that they be put in the record.
    The Chairman. Of course. Without objection.
    [The information referred to follows:]

    Prominent Individuals and National Groups in Support of the CTBT

                          (September 20, 1999)

   current chairman and former chairmen of the joint chiefs of staff
General Hugh Shelton, Chairman of the Joint Chiefs of Staff
General John Shalikashvili, former Chairman of the Joint Chiefs of 
        Staff
General Colin Powell, former Chairman of the Joint Chiefs of Staff
General David Jones, former Chairman of the Joint Chiefs of Staff
Admiral William Crowe, former Chairman of the Joint Chiefs of Staff
                       former members of congress
Senator John C. Danforth
Senator J. James Exon
Senator Nancy Kassebaum Baker
Senator Mark O. Hatfield
Senator John Glenn
Representative Bill Green
Representative Thomas J. Downey
Representative Michael J. Kopetski
Representative Anthony C. Bellenson
Representative Lee H. Hamilton
              directors of the three national laboratories
Dr. John Browne, Director of Los Alamos National Laboratory
Dr. Paul Robinson, Director of Sandia National Laboratory
Dr. Bruce Tarter, Director of Lawrence Livermore National Laboratory
              other prominent national security officials
Ambassador Paul H. Nitze--arms control negotiator, Reagan 
        Administration
Admiral Stansfield Turner--former Director of the Central Intelligence 
        Agency
Charles Curtis--former Deputy Secretary of Energy
                   other prominent military officers
General Eugene Habiger--former Commander-in-Chief of Strategic Command
General John R. Galvin--Supreme Allied Commander, Europe
Admiral Noel Gayler--former Commander, Pacific
General Charles A. Horner--Commander, Coalition Air Forces, Desert 
        Storm, former Commander, U.S. Space Command
General Andrew O'Meara--former Commander U.S. Army Europe
General Bernard W. Rogers--former Chief of Staff, U.S. Army; former 
        NATO Supreme Allied Commander
General William Y. Smith--former Deputy Commander, U.S. Command, Europe
Lt. General Julius Becton
Lt. General John H. Cushman--former Commander, I Corps (ROK/US) Group 
        (Korea)
Lt. General Robert E. Pursley
Vice Admiral William L. Read--former Commander, U.S. Navy Surface 
        Force, Atlantic Command
Vice Admiral John J. Shanahan--former Director, Center for Defense 
        Information
Lt. General George M. Seignious, II--fomer Director Arms Control and 
        Disarmament Agency
Vice Admiral James B. Wilson--former Polaris Submarine Captain
Maj. General William F. Burns--JCS Representative, INF Negotiations, 
        Special Envoy to Russia for Nuclear Dismantlement
Rear Admiral Eugene J. Carroll, Jr.--Deputy Director, Center for 
        Defense Information
Rear Admiral Robert G. James
                        other scientific experts
Dr. Hans Bethe--Nobel Laureate; Emeritus Professor of Physics, Cornell 
        University; Head of the Manhattan Project's theoretical 
        division
Dr. Freeman Dyson--Emeritus Professor of Physics, Institute for 
        Advanced Study, Princeton University
Dr. Richard Garwin--Senior Fellow for Science and Technology, Council 
        on Foreign Relations; consultant to Sandia National Laboratory, 
        former consultant to Los Alamos National Laboratory
Dr. Wolfgang K. H. Panofsky--Director Emeritus, Stanford Linear 
        Accelerator Center, Stanford University
Dr. Jeremiah D. Sullivan--Professor of Physics, University of Illinois 
        at Urbana-Champaign
Dr. Herbert York--Emeritus Professor of Physics, University of 
        California, San Diego; founding director of Lawrence Livermore 
        National Laboratory; former Director of Defense Research and 
        Engineering, Department of Defense
Dr. Sidney D. Drell--Stanford Linear Accelerator Center, Stanford 
        University
                            national groups
Medical and Scientific Organizations
American Association for the Advancement of Science
American Medical Students Association/Foundation
American Physical Society
American Public Health Association
American Medical Association
Public Interest Groups
20/20 Vision National Project
Alliance for Nuclear Accountability
Alliance for Survival
Americans for Democratic Action
Arms Control Association
British American Security Information Council
Business Executives for National Security
Campaign for America's Future
Campaign for U.N. Reform
Center for Defense Information
Center for War/Peace Studies (New York, NY)
Council for a Livable World
Council for a Livable World Education Fund
Council on Economic Priorities
Defenders of Wildlife
Demilitarization for Democracy
Economists Allied for Arms Reduction (ECAAR)
Environmental Defense Fund
Environmental Working Group
Federation of American Scientists
Fourth Freedom Forum
Friends of the Earth
Fund for New Priorities in America
Fund for Peace
Global Greens, USA
Global Resource Action Center for the Environment
Greenpeace, USA
The Henry L. Stimson Center
Institute for Defense and Disarmament Studies (Saugus, MA)
Institute for Science and International Security
International Association of Educators for World Peace (Huntsville, AL)
International Physicians for the Prevention of Nuclear War
International Center
Izaak Walton League of America
Lawyers Alliance for World Security
League of Women Voters of the United States
Manhattan Project II
Maryknoll Justice and Peace Office
National Environmental Coalition of Native Americans (NECONA)
National Environmental Trust
National Commission for Economic Conversion and Disarmament
Natural Resources Defense Council
Nuclear Age Peace Foundation
Nuclear Control Institute
Nuclear Information & Resource Service
OMB Watch
Parliamentarians for Global Action
Peace Action
Peace Action Education Fund
Peace Links
PeacePAC
Physicians for Social Responsibility
Plutonium Challenge
Population Action Institute
Population Action International
Psychologists for Social Responsibility
Public Citizen
Public Education Center
Saferworld
Sierra Club
Union of Concerned Scientists
United States Servas, Inc.
Veterans for Peace
Vietnam Veterans of America Foundation
Volunteers for Peace, Inc.
War and Peace Foundation
War Resistors League
Women Strike for Peace
Women's Action for New Directions
Women's Legislators' Lobby of WAND
Women's International League for Peace and Freedom
World Federalist Association
Zero Population Growth
                            religious groups
African Methodist Episcopal Church
American Baptist Churches, USA
American Baptist Churches, USA, National Ministries
American Friends Service Committee
American Jewish Congress
American Muslim Council
Associate General Secretary for Public Policy, National Council of 
        Churches
Catholic Conference of Major Superiors of Men's Institutes
Church Women United
Coalition for Peace and Justice
Columbian Fathers' Justice and Peace Office
Commission for Women, Evangelical Lutheran Church in America
Covenant of Unitarian Universalist Pagans
Christian Church (Disciples of Christ) in the United States and Canada
Christian Methodist Episcopal Church
Church of the Brethren, General Board
Division for Church in Society, Evangelical Lutheran Church in America
Division for Congregational Ministries, Evangelical Lutheran Church in 
        America
Eastern Archdiocese, Syrian Orthodox Church of Antioch
The Episcopal Church
Episcopal Peace Fellowship, National Executive Council
Evangelicals for Social Action
Evangelical Lutheran Church in America
Fellowship of Reconciliation
Friends Committee on National Legislation
Friends United Meeting
General Board Members, Church of the Brethren
General Board of Church and Society, United Methodist Church
General Conference, Mennonite Church
General Conference of the Seventh Day Adventist Church
Jewish Peace Fellowship
Lutheran Office for Governmental Affairs, Evangelical Lutheran Church 
        in America
Mennonite Central Committee
Mennonite Central Committee, U.S.
Mennonite Church
Methodists United for Peace with Justice
Missionaries of Africa
Mission Investment Fund of the ELCA, Evangelical Lutheran Church in 
        America
Moravian Church, Northern Province
National Council of Churches
National Council of Churches of Christ in the USA
National Council of Catholic Women
National Missionary Baptist Convention of America
NETWORK: A National Catholic Social Justice Lobby
New Call to Peacemaking
Office for Church in Society, United Church of Christ
Orthodox Church in America
Pax Christi
Presbyterian Church (U.S.A.)
Presbyterian Peace Fellowship
Progressive National Baptist Convention, Inc.
Religious Action Center of Reform Judaism
The Shalom Center
Sojourners
Union of American Hebrew Congregations
United Church of Christ
United Methodist Church
United Methodist Council of Bishops
Unitarian Universalist Association
Washington Office, Mennonite Central Committee
Women of the ELCA, Evangelical Lutheran Church in America

    Senator Biden. Mr. Chairman, I welcome the opportunity to 
discuss the test ban treaty. This afternoon, when the Secretary 
of State appears before us, I have a slightly longer statement 
as to why I support the treaty and believe the Senate should 
give its ratification to the treaty.
    This morning I would like to briefly set the stage for the 
debate that is about to commence. Thirty-six years ago last 
month, less than a year after the United States and the Soviet 
Union came to the brink of nuclear war, the U.S. Senate gave 
its advice and consent to the Limited Test Ban Treaty, a pact 
banning nuclear tests in the atmosphere. Only a handful of our 
Senate colleagues were here at that time, long-serving legends 
like Strom Thurmond, and Robert C. Byrd, and Dan Inouye, and 
possibly one or two others.
    But although the geopolitical circumstances have changed, 
as have the names and the faces of the United States Senators, 
in some ways the debate today is very familiar. Then, as now, 
there were questions about our ability to maintain a strong 
nuclear deterrent under the treaty. Then, as now, there were 
questions about whether a country whose capital is Moscow would 
cheat.
    Then, as now, there were concerns about the ability of the 
United States to effectively verify the treaty. Then, as now, 
there were concerns about American leadership if we failed to 
ratify the treaty. Then, as now, the Joint Chiefs and the 
administration of the day devised safeguards to assure that the 
United States would adhere to the treaty and maintain a strong 
nuclear deterrent force.
    The story since 1963 is one in which those whom I would 
call the realistic optimists were in my view proved right, and 
those who I call the visceral pessimists did not see their 
fears realized.
    Our deterrent posture did not suffer, even though we gave 
up a test that surely gave us more confidence in our weapons 
systems than we could gain through underground tests alone. We 
gained worldwide respect for reining in the nuclear arms race 
which 5 years later translated into the U.S. diplomatic success 
in negotiating a Nuclear Nonproliferation Treaty and the treaty 
banning nuclear weapons in Latin America, treaties that have 
succeeded in constraining our nuclear proliferation, and we 
gave our own people hope that the cold war would not lead to 
the white heat of nuclear holocaust.
    Eight years after the collapse of the Soviet Union, there 
is great disagreement in this country about our foreign policy 
objectives and our role in the world, but surely there should 
be no disagreement that we should still pursue a strategy of 
containment, this time directed not against an ideological foe, 
but against the spread of dangerous weapons and technology.
    The Comprehensive Test Ban Treaty, which prohibits any 
nuclear test explosion, is a key component to that strategy. 
Thirty-six years ago, Senate Republican Leader Everett Dirksen, 
for whom this building is named, reached across the aisle and 
supported a treaty negotiated by President Kennedy.
    In his speech on the Senate floor, Dirksen quoted a famous 
Republican from his home State of Illinois, and I quote, it is 
the true--quoting Abraham Lincoln--``The true role in 
determining to embrace or reject anything is not whether it 
have any evil in it, but whether it have more evil than good. 
There are few things wholly evil or wholly good. Almost 
everything, especially of Government policy, is an inseparable 
compound of the two, so that our best judgment of the 
preponderance between them is continuously demanded.''
    Lincoln's words commend themselves to us now. This treaty 
is a good treaty. It is not a perfect treaty. No treaty 
produced by over 100 nations will ever be, but it has a lot of 
good in it. The benefits which I will discuss this afternoon 
and will debate today I believe clearly outweigh the risks, and 
I hope my colleagues will study it closely and come to the same 
conclusion.
    I thank you, Mr. Chairman, and look forward to hearing from 
our witnesses.
    The Chairman. Thank you, Senator Biden. On the theory that 
ladies go first, Ms. Kirkpatrick, if you will present your 
case. Thank you.

STATEMENT OF HON. JEANE J. KIRKPATRICK, SENIOR FELLOW, AMERICAN 
 ENTERPRISE INSTITUTE AND FORMER U.S. PERMANENT REPRESENTATIVE 
                     TO THE UNITED NATIONS

    Ambassador Kirkpatrick. Thank you very much, Mr. Chairman, 
for inviting me to testify before this distinguished committee 
on this vitally important subject.
    I accepted your invitation, Mr. Chairman, because I believe 
it is essential that this Nation's defenses be adequate to cope 
with the growing dangers we face from hostile powers possessing 
weapons of mass destruction and effective means of delivery.
    Mr. Chairman, I have had a good deal of intensive exposure 
to this subject first, a consequence of having served on 
President Reagan's Blue Ribbon Presidential Task Force on 
Nuclear Products in 1985, on the President's Foreign 
Intelligence Advisory Board from 1985 to 1990, on the Defense 
Policy Review Board from 1985 to 1992, and then, after having 
been appointed by Secretary of Defense Dick Cheney in 1991 and 
1992, I chaired the Failsafe and Risk Reduction Committee, 
generally referred to by its acronym as the FARR committee, 
which was charged with reviewing the United States nuclear 
command and control system.
    This experience made a strong impression on me concerning 
the dangers of proliferating nuclear and missile technology. As 
everyone who is interested in these matters knows, a number of 
countries are capable of producing and delivering nuclear 
weapons and other weapons of mass destruction. The number has 
increased, and is increasing as we speak, and it includes 
several of the world's most aggressive, repressive, 
destructive, and dangerous countries, North Korea, Iran, Iraq, 
as well as a Russia less stable than we would prefer, and a 
China less benign.
    We know, moreover, that other regimes with little regard 
for the rule of law or human rights work to acquire weapons of 
mass destruction, and that against these weapons the United 
States can rely only on its nuclear deterrent. We have no other 
defenses against weapons of mass destruction.
    The current dangers have been documented and described in 
the past year with great clarity by the Rumsfeld and the Cox 
Commissions. The Rumsfeld Commission, which had unprecedented--
and I quote now--``unprecedented access to the most sensitive 
and highly classified information,'' concluded that, ``The 
threat to the United States posed by these emerging 
capabilities is broader, more mature, and evolving more rapidly 
than has been reported and that several countries, including 
Iraq, will be able to inflict major damage on the United States 
within about 5 years,'' and that was written in 1998, that is, 
they started counting in 1998.
    The Cox Commission describes the shocking success of China 
in buying and stealing the most advanced U.S. thermonuclear 
missile and space technology, which was quickly made available 
to other governments, enabling China to ``pose a direct threat 
to the United States, our friends and allies, or our forces.''
    We know from the work of the Rumsfeld and the Cox 
Commissions that at least two countries which already have 
nuclear weapons, North Korea and China, have recently engaged 
in intensive successful efforts to upgrade the weapons and the 
missiles which carry them.
    It is disturbing to me, Mr. Chairman, that President 
Clinton has not been mobilized to make the defense of the 
American people against these proliferating threats a top 
priority. Instead, confronted with these dangers, President 
Clinton and his administration have placed one obstacle after 
another in the path of the development of an effective missile 
defense. They have imposed disabling requirements and 
unnecessary delays on the development and deployment of 
effective national and theater missile defenses.
    The President has urged that we give priority to preserving 
an extended, outmoded ABM Treaty interpreted to be maximally 
constraining on us. Now he urges on us the Comprehensive Test 
Ban Treaty, which would commit the U.S. Government to carrying 
out no nuclear tests--ever.
    The United States has already lived through the longest 
ever moratorium on tests. Now, with the CTBT, he proposes to 
extend that moratorium forever. There are several reasons why 
it would be imprudent for the United States to make this 
commitment never to conduct another explosive nuclear test. I 
will summarize briefly those which seem to me most compelling.
    First is the fact that our Government takes its commitments 
seriously. If we were to sign this treaty, we would feel bound 
by its terms. We would not feel free to violate it, as many 
governments will. We would not conduct explosive tests if we 
signed this treaty.
    Second, as everyone knows, the treaty cannot be verified. 
The CIA has recently publicly acknowledged that it cannot 
detect low-yield tests. It bothers me that we will not know 
when and if they are cheating, and some will surely cheat us.
    Third, I learned from my service on the Blue Ribbon and 
FARR committees, Mr. Chairman, that the safety and reliability 
of our nuclear stockpiles cannot be taken for granted, but must 
be monitored. Testing is a vital part of ascertaining and 
maintaining the reliability and safety of our nuclear weapons. 
It is also a necessary step in modernizing our nuclear weapons.
    Testing is vital to maintaining the reliability and 
credibility of our nuclear deterrent and our confidence in it. 
The authors of this treaty understand how important testing is 
to maintaining the viability of nuclear weapons. The preamble 
to the treaty, which I think everyone should read, states, and 
I quote, ``Recognizing that the cessation of all nuclear weapon 
test explosions and all other nuclear explosions by 
constraining the development and qualitative improvement of 
nuclear weapons and ending the development of advanced new 
types of nuclear weapons constitutes an effective measure of 
nuclear disarmament and nonproliferation in all its aspects.''
    That is pretty clear, and a second item in the preamble 
asserts, and I quote, ``Further recognizing that an end to all 
such nuclear explosions will thus constitute a meaningful step 
in the realization of a systematic process to achieve nuclear 
disarmament.'' That preamble makes interesting reading, and I 
recommend to the Senators who will vote on this treaty that 
they should read the treaty and they should read the 
expectations of its authors.
    The fourth reason that I oppose the ratification of the 
treaty, is that our deterrent--that nuclear deterrent which 
will be so weakened by the ratification of the CTBT--is more 
important to the security of Americans today, with rogue States 
developing the capacity to attack our cities and our 
populations, than it ever has been, because Americans and their 
allies are more vulnerable today than we ever have been.
    Mr. Chairman, the threat to Americans, its cities and 
populations, is here and now. It has expanded dramatically, not 
only because of systematic Chinese theft of America's most 
important military secrets, and because of the inadequate 
policies governing the safekeeping and transfer of technology 
of this administration, but also because several countries who 
are signatories to the Nuclear Nonproliferation Treaty [NPT] 
have violated their commitments under the Nuclear 
Nonproliferation Treaty.
    They signed the nonproliferation treaty, served in IAEA 
governing boards, and violated their commitments. They made a 
commitment in signing the Nuclear Nonproliferation Treaty, and 
I quote now, they have already made a commitment quote, ``not 
to transfer or in any way assist, encourage, or induce any 
nonnuclear weapons State to acquire nuclear weapons,'' close 
quote, and also, ``not to receive the transfer of nuclear 
weapons or other explosive devices, not to manufacture or 
otherwise acquire, not to receive assistance in the manufacture 
of nuclear weapons or other nuclear explosive devices.''
    The system resembles an honor system at a university. You 
promise neither to cheat nor to assist anyone else in cheating, 
and to report anyone who does that comes to your attention. 
China is not a signatory of the Nuclear Nonproliferation 
Treaty. Russia is, so are Iran, Iraq, and Libya. These are all 
States that have been seeking and alas, acquiring, nuclear 
capacities. India, North Korea and Pakistan are not 
signatories, but Iran, Iraq, and Libya are. China is not, 
Russia is. All are engaged in proliferation--either by offering 
nuclear technology and weapons, or by seeking it and accepting 
it.
    Obviously, whether or not a government has signed the 
Nuclear Nonproliferation Treaty has little impact on their 
behavior with regard to proliferation. Some who signed it, 
violate it. Some who have not signed it are also engaged in the 
same activities.
    That is, I think, the critical point concerning what I 
think of as the arms control approach to national security. You 
just cannot count on it. We cannot rely on this treaty to 
prevent countries that are actually or potentially hostile to 
us from acquiring and testing and sharing nuclear arsenals and 
ballistic missiles. The evidence is clear. I think it is clear, 
anyway.
    Why, then, does President Clinton, whose decisions have 
diminished, delayed, and denied us development and deployment 
of effective missile defenses, now urge on us a treaty which 
would endanger the reliability of the nuclear deterrent, which 
is our only defense, against a nuclear attack.
    Mr. Chairman, the President and some of the supporters of 
the treaties argue that the action of the Senate in ratifying 
or rejecting this treaty will determine whether the world ends 
nuclear tests and proliferation forever, and I have heard 
several Senators say that in the last 48 hours, and you 
probably have, too. But that is not true, Mr. Chairman.
    China, North Korea, Iran, Iraq, just to name those 
countries at random almost, do not follow our lead. They are 
not waiting urgently to see what we are going to do so that 
they can do likewise. I wish they were. The world would be 
safer if they did.
    Finally, Mr. Chairman, I would like to call the committee's 
attention to the governance of the organization which will 
administer this treaty. This I might say is of particular 
concern to me. I note that all State parties are members, will 
be members of the organization, not simply nuclear powers, but 
all, basically all those countries which signed the treaty, 
which is about 194--I think that is the right figure. That is 
approximately right--will be members. No State party can be 
excluded--under the organizing rules.
    This organization will operate as the United Nations 
General Assembly does on the basis of one country, one vote, 
with an executive council which is based on geographical 
representation. Now, think about this. On that executive 
council, which will be the most important central governing 
body, Africa is allotted 10 seats. I do not think there is yet 
a nuclear power in Africa. I hope there is not.
    But they are allotted 10 seats, Eastern Europe, where there 
have been two or three nuclear powers, are allotted 7 seats. 
Latin America is allotted 9, the Middle East and South Asia, 7 
each, Western Europe and North America, 10, Asia, 8.
    I would like to note that no one is guaranteed a seat on 
this executive council. The United States has the same chance 
of being chosen to sit on the executive council as, shall we 
say, Jamaica.
    Not only will this organization make policies for this 
vitally important issue about whose importance we have heard a 
great deal in the last few days, but the countries making 
policy will not necessarily be world powers, as powers with 
nuclear weapons, or with any experience with nuclear weapons. 
They will simply be member States who have signed on the CTBT.
    Not only that, there will be a technical support group, but 
that technical support group will be chosen by the same 
executive council which I have just described, which is chosen 
by people the overwhelming majority of whom do not themselves 
have any experience or competence with nuclear questions, much 
less nuclear weapons.
    ``Each State party shall have the right to participate in 
the international exchange of data, and to have access to all 
data made available to the International Data Center.'' This is 
a very interesting provision, and it parallels a provision in 
the resolutions establishing the International Atomic Energy 
Agency.
    The International Atomic Energy Agency was itself, 
conceived and founded for the purpose of preventing 
proliferation of nuclear weapons, and it has been, through the 
years, staffed by a good many men of great professional skill 
and of genuine expertise and dedication, but not only has the 
IAEA not been able to stop proliferation, it has more than once 
served itself as a source of proliferation. This is the irony 
of the harm that good men do, and the harm that good 
organizations conceived with the best of intentions do.
    The IAEA has more than once served as a source of 
proliferation, as member States take from it technical 
information and reactors ``for peaceful uses,'' it is always 
said. The fact is, we know that several rogue States have 
managed to take from the IAEA and their membership on the IAEA, 
under the rules of the IAEA, the reactors and the technology 
with which they have launched their own projects for creating 
atoms not for peace, but for weapons.
    I believe that the CTBT organization will also serve as a 
source of technical expertise--in much the same way that the 
IAEA has served as a source of technical expertise, and that 
those who today claim the treaty will end nuclear testing once 
and for all will be greatly shocked, but it should not surprise 
the rest of us.
    I just might remind you, Mr. Chairman, that at the time 
that Iraq was sitting on the governing board of the IAEA--at 
the very same time that it was engaged in massive efforts to 
build its own nuclear capacity and to make war on all of its 
neighbors.
    Mr. Chairman, President Clinton and his administration are 
once again urging Americans to take what amounts to a long step 
toward unilateral nuclear disarmament at a time of 
unprecedented vulnerability for the United States. I believe it 
is enormously important that the Senate reject this treaty.
    Thank you.
    [The prepared statement of Ambassador Kirkpatrick follows:]

            Prepared Statement of Hon. Jeane K. Kirkpatrick

    Thank you, Mr. Chairman, for inviting me to testify before this 
distinguished Committee on this vitally important subject.
    I accepted your invitation, Mr. Chairman, because I believe it is 
essential that this nation's defenses be adequate to cope with the 
growing dangers we face from hostile powers possessing weapons of mass 
destruction and effective means of delivery.
    Mr. Chairman, I encountered this subject and became concerned about 
this issue, as a consequence of having served on President Reagan's 
``Blue Ribbon Presidential Task Force on Nuclear Products'' in 1985; on 
the ``President's Foreign Intelligence Advisory Board (PFIAB)'' from 
1985 to 1990; on the Defense Policy Review Board from 1985 to 1992. 
Then, after being appointed by Secretary of Defense Dick Cheney in 
1991-1992, I chaired the ``Fail Safe and Risk Reduction'' Committee 
(generally referred to by its acronym as the FARR Committee) charged 
with reviewing the United States Nuclear Command and Control System.
    This experience made a strong impression on me concerning the 
dangers of proliferating nuclear and missile technology. As everyone 
who is interested in these matters now knows, the number of countries 
capable of producing and delivering nuclear weapons and other weapons 
of mass destruction, has increased and is increasing as we speak, and 
includes several of the world's most aggressive, repressive, 
destructive countries--North Korea, Iran, Iraq--as well as a Russia 
less stable than we would prefer and a China less benign.
    We know, moreover, that other regimes with little regard for the 
rule of law or human rights work to acquire weapons of mass 
destruction, and that against these weapons the United States can rely 
only on its nuclear deterrent. We have no other defense.
    The current dangers have been documented and described in the past 
year by the Rumsfeld and Cox Commissions. The Rumsfeld Commission, 
which had ``unprecedented access to the most sensitive and highly 
classified information'' concluded:

  <bullet> That, ``the threat to the United States posed by these 
        emerging capabilities is broader, more mature, and evolving 
        more rapidly than has been reported.''
  <bullet> That, ``several countries, including Iraq, will be able to 
        inflict major damage on the United States within about five 
        years.''

    The Cox Commission describes the shocking success of China in 
buying and stealing the most advanced U.S. thermonuclear missile and 
space technology (which they quickly made available to other 
governments) enabling China to: ``Pose a direct threat to the United 
States, our friends, and allies or our forces.''
    We know from the work of the Rumsfeld Commission and the Cox 
Commission that at least two countries which already have nuclear 
weapons--North Korea and China--have recently been engaged in 
intensive, successful efforts to upgrade the weapons, and the missiles 
which carry them.
    It is disturbing to me, Mr. Chairman, that President Clinton has 
not been mobilized to make the defense of the American people against 
these proliferating threats a top priority.
    Instead, confronted with these dangers, President Clinton and his 
Administration have placed one obstacle after another in the path of 
development of an effective missile defense. They have imposed 
disabling requirements and unnecessary delays on the development and 
deployment of effective national and theater missile defenses.
    The President has urged that we give priority to preserving an 
extended, outmoded ABM Treaty interpreted to be maximally constraining. 
Now, he urges on us the Comprehensive Test Ban Treaty which would 
commit the U.S. government to carrying out no nuclear tests--ever.
    The United States has already lived through the longest-ever 
moratorium on nuclear tests. Now with the CTBT he proposes to extend 
the moratorium forever.
    There are several reasons that it would be imprudent for the United 
States to make this commitment never to conduct another explosive 
nuclear test. I will summarize briefly those which seem to me most 
compelling.
    First is the fact that our government takes its commitments 
seriously. If we were to sign this treaty, we would feel bound by its 
terms. We would not feel free to violate it at will as many governments 
will. We would not conduct explosive tests.
    Second, as everyone knows, this treaty cannot be verified. The CIA 
has recently publicly acknowledged that it cannot detect low-yield 
tests. It bothers me that we will not know when they are cheating and 
some will cheat.
    Third, I learned from my service on the Blue Ribbon and FARR 
Committees that the safety and reliability of our nuclear stockpiles 
cannot be taken for granted, but must be monitored. Testing (banned 
forever by this proposed treaty) is a vital part of ascertaining and 
maintaining the reliability and safety of our nuclear weapons. It is 
also a necessary step in modernizing our nuclear weapons.
    Testing is vital to maintaining the reliability and credibility of 
our nuclear deterrent.
    The authors of this treaty understand how important testing is to 
maintaining the viability of nuclear weapons. The Preamble to the 
Treaty states, and I quote:

          Recognizing that the cessation of all nuclear weapon test 
        explosions and all other nuclear explosions, by constraining 
        the development and qualitative improvement of nuclear weapons 
        and ending the development of advanced new types of nuclear 
        weapons, constitutes an effective measure of nuclear 
        disarmament and nonproliferation in all its aspects,
          Further recognizing that an end to all such nuclear 
        explosions will thus constitute a meaningful step in the 
        realization of a systematic process to achieve nuclear 
        disarmament.

    Fourth, that deterrent has never been as important to the security 
of Americans as it is today with rogue states developing the capacity 
to attack our cities and our population. Americans and their allies are 
more vulnerable than we have ever been.
    Mr. Chairman, the threat to Americans, its cities, and populations, 
is here and now. It has expanded dramatically, not only because of 
systematic Chinese theft of America's most important military secrets 
and because of the inadequate U.S. policies governing the safekeeping 
and transfer of technology, but also because several countries who are 
signatories of the Nuclear Nonproliferation Treaty have violated their 
commitments under the Treaty. Specifically, they have violated 
commitments:

          ``not to transfer . . . or in any way assist, encourage, or 
        induce any non-nuclear weapon State to acquire nuclear weapons 
        . . .''[Article I]
          ``not to receive the transfer . . . of nuclear weapons or 
        other nuclear explosive devices . . ., not to manufacture or 
        otherwise acquire . . . not to receive assistance in the 
        manufacture of nuclear weapons or other nuclear explosive 
        devices . . .''[Article II]

    China is not a signatory of the NPT. Russia is. So are Iran, Iraq 
and Libya. North Korea, India, and Pakistan are not signatories. 
Obviously, whether or not a government has signed the NPT has little 
impact on their behavior with regard to proliferation.
    That is the critical point concerning the arms control approach to 
national security. We cannot rely on this treaty to prevent the 
countries that are actually or potentially hostile to us from acquiring 
and testing nuclear arsenals and ballistic missiles. The evidence is 
clear.
    Why then does President Clinton, whose decisions have diminished, 
delayed, and denied us development and deployment of effective missile 
defenses, now urge on us a treaty which would endanger the reliability 
of the nuclear deterrent--which is our only ``defense'' against a 
nuclear attack?
    Mr. Chairman, the President and some other supporters of the 
Treaties argue that the action of the Senate in ratifying or rejecting 
the treaty will determine whether we end nuclear tests and 
proliferation forever. But that is not true. China, North Korea, Iraq, 
Iran do not follow our lead.
    Finally, I should like to call the Committee's attention to the 
governance of the organization which will administer it. I note: ``All 
State Parties are members. No State Party can be excluded.'' It will 
operate on the principle of one state, one vote, with an executive 
council that based on geographical representation, comprising, Africa 
is allotted ten seats; Eastern Europe seven, Latin America nine, the 
Middle East and South Asia seven; Western Europe and North America ten; 
Asia eight.

          ``Each State Party shall have the right to participate in the 
        international exchange of data and to have access to all data 
        made available to the International Data Centre.''

    Mr. Chairman, the International Atomic Energy Agency, conceived to 
prevent proliferation, and staffed with a good many first class 
professionals has not only been unable to stop proliferation, it has 
more than once served as a source of proliferation as member states 
take from it technical information and reactors--for peaceful uses it 
is always said.
    The CTBT organization will also serve as a source of technical 
expertise. Those who today claim the Treaty will end nuclear testing 
once and for all will be greatly shocked. But it should not be a 
surprise to the rest of us.
    Mr. Chairman, President Clinton and his Administration are once 
again urging Americans to take what amounts to a long step toward 
unilateral nuclear disarmament--at a time of unprecedented 
vulnerability. It is enormously important that the Senate reject this 
Treaty.

    The Chairman. A very fine statement, Ambassador 
Kirkpatrick. I appreciate your coming so much.
    Mr. Secretary Weinberger, we are delighted to have you here 
this morning.

  STATEMENT OF HON. CASPAR W. WEINBERGER, FORMER SECRETARY OF 
                            DEFENSE

    Mr. Weinberger. Thank you, Mr. Chairman, members of the 
committee. It is always a privilege for me to testify before a 
committee of such distinction. I am honored to be here. I have 
a very short statement, and would be glad to try to take any 
questions after that.
    Mr. Chairman, the essence of this question seems to me to 
come down to, if we need nuclear weapons, we have to know that 
they work. That is the essence of their deterrence. If there is 
uncertainty about that, the deterrent capability is weakened.
    The only assurance that you have that they will work is to 
test them, and the only way to test them is the most effective 
way to test them, and all of the discussion in other 
committees, and a great deal of the discussion in the public, 
has been an attempt to show that the stockpile stewardship 
program will be an effective way of testing them all, although 
everyone agrees that it is not as effective as testing them in 
the way that we have done in the past with underground 
explosions, with all the precautions to prevent any of the 
escape of the material into the atmosphere.
    You will have all kinds of statements made that the 
stewardship stockpile program will be tested by a computer 
model. We have had some less than reassuring statements that 
the computers that can do this best will be available in 2005, 
or 2008, which is a tacit admission that in the meantime the 
stockpile stewardship program as it is presently constituted is 
not an effective way of testing, and the only way to be sure 
that these weapons will work, and will be able to do their 
unique task, is test them, and test them in the most effective 
way possible.
    The only way to test them is to do it by the means that we 
have used before that we have now eschewed for the time being, 
so basically the question comes down, as Ms. Kirkpatrick said, 
whether we are going to abstain from testing in perpetuity.
    All of this discussion is about lesser means of testing, 
and it is not a question of stopping testing. The treaty does 
not purport to do that, and even when it purports to do that, 
as Ms. Kirkpatrick points out, and I agree fully with her, we 
are not going to be able to rely on many of the rogue countries 
that will do whatever is necessary to acquire this capability.
    Nothing will encourage proliferation more than to tell 
these countries that the big stockpiles in the United States 
have not been tested, or that stockpiles of other countries 
have not been tested effectively, and if they think that is the 
case, they will be encouraged to believe that the deterrent is 
not as effective as it should be, and that they will be 
encouraged to try to acquire the kinds of weapons which, 
through the testing that they can do, whether they promise to 
or not, will make them effective.
    There is an extraordinarily naive editorial, which I have 
to call your attention to, in the New York Times. It says, the 
treaty's main effect would be to halt programs in other 
countries. It adds, that since no new nuclear weapons can be 
reliably developed without testing, ratification of the treaty 
by enough countries would freeze the nuclear weapons race 
worldwide. That to my mind is a degree of naivete that is 
extremely dangerous and is also, incidentally, not very true.
    You have countries that have tested. You have two countries 
in the last year that have tested and demonstrated that they 
had nuclear capability in India and Pakistan. We have a number 
of weapons in our stockpile that have essentially been rebuilt, 
essentially been inspected from time to time, and deterioration 
has been found.
    As is inevitable, the aging process affects weapons also, 
Mr. Chairman, unfortunately, and when a new component is put in 
to replace an old component, you do not know if it is going to 
work. You do not know if they are going to mesh together.
    There is something--I do not know how many, but close to, I 
think it is safe to say, thousands of moving parts in these 
terrible weapons, and you have no way of knowing that all of 
these things are going to mesh by consulting a computer, 
particularly not if you have to wait till 2008 to get the kind 
of computer that will be reasonably reliable. So the question 
really comes down to is the kind of testing that is being done.
    Other countries will test, other countries may be sure, or 
they may not be sure that theirs will work. If they are sure we 
have not received the absolute assurance that ours will work, 
we will not have any idea of being able to stop the 
proliferation of those countries trying. Any uncertainty about 
the effectiveness of our deterrent weakens that deterrent.
    The whole point of a deterrent is the ability to be able to 
let hostile nations know, and let the world know that should an 
attack come, we have the capability of responding. Not a 
pleasant concept, not a good idea, but we do not make the world 
in which we live. We have to rely on the kinds of weapons we 
have to keep the peace.
    And so I think the important thing to bear in mind here, 
Mr. Chairman, is really what the treaty means, and in the 
essence, the treaty means we would be committing ourselves in 
perpetuity, forever, not to use the most effective means of 
being able to assure us and the world that our stockpile works, 
and for that reason I would very much oppose the treaty, and I 
would hope the Senate would, too.
    Thank you, sir.
    The Chairman. Thank you, sir. Mr. Ambassador, we would be 
glad to hear from you.

 STATEMENT OF HON. STEPHEN J. LEDOGAR, FORMER CHIEF NEGOTIATOR 
              OF THE COMPREHENSIVE TEST BAN TREATY

    Ambassador Ledogar. Mr. Chairman, distinguished members of 
the committee. Thank you for this opportunity to speak to you 
about the Comprehensive Test Ban Treaty which is before the 
committee for consideration.
    First, a few things about my background, which I would 
mention only because I think they are relevant to what I'll say 
about the treaty. After 4 years as an active duty Naval aviator 
and 5 years in private industry as a lawyer, I joined the 
Foreign Service and served for 38 years before retiring 2 years 
ago.
    Most of my career I worked in political-military affairs 
and arms control, including stints as deputy chief of mission 
to NATO, press spokesman and member of the delegation to the 
Vietnam Paris peace talks.
    And I'd like to point out that I'm a strong believer in 
nuclear deterrence and I know how central nuclear deterrence is 
to NATO. During my last 10 years of full time service, I was 
privileged to be an ambassador under Presidents Reagan, Bush 
and Clinton, serving in turn as head of several U.S. 
delegations in Vienna and Geneva. I was chief U.S. negotiator 
from start to finish of the CTBT. Currently, I'm a part-time 
consultant to the Department of State on national security 
matters.
    As I understand your invitation, Mr. Chairman, I'm not here 
to give this committee the authoritative administration pitch 
on CTBT. Secretary Albright and others will do that. Rather, 
I'm here primarily as a resource to help recall and detail key 
elements of the treaty as they were fought out in the 
negotiating trenches between 1993 and signature in September 
1996.
    I should say, however, that not surprisingly, I fully 
support the treaty, believing that it is very much in the 
security interests of the United States. It was carefully 
negotiated by me and my multi-agency delegation throughout, 
always acting on fully cleared front channel instructions. And 
I'm prepared to try to explain and defend all of it's key 
provisions and, if my memory serves, to try to give you any 
background you might be interested in having.
    In the short time I have in this opening statement, I'll 
limit my discussion to just three issues that I believe are 
sources of some confusion. Over the course of the last few 
days, I have heard opinions expressed on the question of the 
CTBT's scope, it's verification provisions, and it's entry into 
force provisions. Some of the debate suggests to me that 
aspects of the negotiations have not yet been fully understood. 
I hope that I may help to shed some light on these issues. 
Last, I would like to address the likely international 
repercussions should the Senate fail to give its consent to 
ratification.
    First of all on the scope. Let me address that issue as it 
develops in the negotiation. As the name suggests, the treaty 
imposes a comprehensive ban on all nuclear explosions, of any 
size, in any place. I have heard some critics of the treaty 
seek to cast doubt on whether Russia, in the negotiating and 
signing of the treaty, committed itself under treaty law to a 
truly comprehensive prohibition of any nuclear explosion, 
including an explosion or experiment or event of even the 
slightest nuclear yield. In other words, did Russia agree that 
hydronuclear experiments which do produce a nuclear yield, 
although usually very, very slight, would be banned and that 
hydrodynamic explosions, which have no yield because they do 
not reach criticality, would not be banned.
    The answer is a categoric ``yes.'' The Russians as well as 
the rest of the P-5 did commit themselves. That answer is 
substantiated by the record of the negotiations at almost any 
level of technicality and national security classification that 
is desired and permitted. More importantly, for the current 
debate, it is also substantiated by the public record of 
statements by high level Russian officials as their position on 
the question of thresholds evolved and fell into line with the 
consensus that emerged.
    It is important to recall that each of the five nuclear 
weapons states began the CTBT negotiations desirous of a quiet 
understanding among themselves that some low level of nuclear 
explosions or experiments that did produce nuclear yield would 
be acceptable, at least among themselves, despite the broad 
treaty prohibition of ``any nuclear weapon test explosion or 
any other nuclear explosion.'' Until August 1995, the beginning 
of the final year of negotiations, the U.S. pushed for 
agreement on a very low threshold of nuclear yield.
    Our position was not popular among the P-5. Because of our 
greater test experience and technical capabilities, we could 
conceivably gain useful data from events of almost 
insignificant yield. The other four argued that they needed a 
higher threshold in order to gain any useful data. In some 
cases, the thresholds they pushed for were politically 
impossible to square with the notion of a comprehensive test 
ban. Russia, for example, insisted that if there was going to 
be any threshold among the five, it would have to allow for so-
called experiments with nuclear yields of up to 10 tons of TNT 
equivalent.
    The dispute among the five threatened to halt the 
negotiations, as it became increasingly known to others that 
the five were squabbling with each other about how much wiggle 
room would be left to them when they signed onto a text that 
said simply that nuclear explosions would be banned.
    And as the arcane and jargon filled complexities of the 
nuclear testing communities in Novaya Zemyla, Lop Nor, Mururoa 
and Nevada became more widely understood, the non-nuclear 
states and broad public opinion increasingly insisted that the 
five should be allowed no tolerance, not even for the smallest 
possible nuclear yields. A ban should be a ban. The answer to 
this dilemma should be no threshold for anybody. In other 
words, zero should mean zero.
    On August 11, 1995 President Clinton announced that the 
United States was revising its prior position on the threshold 
question and would henceforth argue to the other four nuclear 
weapons states that no tests that produced a nuclear yield 
should be allowed to anyone under the treaty. The Russians, who 
were miffed at being taken by surprise, climbed down from their 
original positions slowly and painfully. It took until April 
1996 before they signed onto the sweeping categoric prohibition 
that is found in the final text. They never did like the word 
``zero'' which was bandied about in public and actually once 
used by Boris Yeltsin.
    Instead, they announced that they embraced a treaty with no 
thresholds whatsoever. In the confidential negotiations among 
the five nuclear weapons states that went on the entire time 
the broader CTBT negotiations continued, it was clearly 
understood that the boundary line, that is, the zero line, 
between what would be prohibited to all under the treaty and 
what would not be prohibited, would be precisely defined by the 
question of nuclear yield or criticality. If what you did 
produced any nuclear yield whatsoever, it would not be allowed. 
If it didn't, it was allowed.
    Another issue I would like to address is how the treaty's 
verification regime developed and how it benefits the United 
States. I will leave it to others more expert than I to provide 
more precise assessments of U.S. monitoring capabilities. The 
point I would like to stress here is that the U.S. succeeded in 
the negotiations in getting virtually every thing the 
intelligence community and other parts of the government wanted 
from the treaty, wanted and were prepared to pay for, to 
strengthen our ability to detect and deter cheating and to seek 
appropriate redress if cheating did occur.
    At the same time, we succeeded in getting virtually 
everything the Defense Department and others wanted to insure 
the protection of sensitive national security information. Let 
me give you several examples.
    Concerning the use of national technical means, the United 
States fought like mad to win acceptance of a state's rights to 
use evidence acquired through national technical means as it 
saw fit when requesting an onsite inspection. But we did not 
want to be forced to reveal any information we believed would 
be better kept private. Now, this was a ``red line'' issue for 
the United States. Many of our negotiating partners were 
adamantly opposed to giving the U.S. what they considered was a 
clear advantage and a license to spy.
    Yes, it is true that the U.S. has satellite surveillance 
and intercept capabilities that surpass anything others have, 
but is it logical to penalize and ignore the evidence of the 
tall person with good eyesight who can see the crime committed 
across the room? Eventually the U.S. position prevailed and is 
incorporated in the treaty.
    This treaty provides for onsite inspections on request by 
any treaty party with the approval of the executive council. No 
state can refuse an inspection. The U.S. position from the 
start was that onsite inspections were critical to provide us 
with added confidence that we could detect violations. And, if 
inspections were to be effective, they had to be conducted 
absolutely as quickly as possible after a suspicion arose, 
using a range of techniques with as few restrictions as 
possible.
    However, the U.S. also had to be concerned with its 
defensive posture as well as an offensive one. It was necessary 
to insure that sensitive national security information would be 
protected in the event of an inspection on U.S. territory. The 
U.S. crafted a complicated, highly detailed proposal that 
balanced our offensive and defensive needs. There was 
resistance from some of our negotiating partners. However, by 
the time we were through, the treaty read pretty much like the 
original U.S. position paper that had been put together jointly 
by the Departments of Defense, Energy and State, the 
intelligence community and the then existing Arms Control 
Agency.
    I would like to touch on the composition of the 
International Monitoring System, four networks of different 
types of remote sensors encompassing 321 stations. I believe I 
have heard questions about its value added. The intelligence 
community, working through the larger interagency community, 
had a list of requirements. They wanted certain technologies 
and they wanted certain stations that would fill gaps and 
complement existing national monitoring capabilities.
    The U.S. delegation delivered nearly everything requested. 
You have only to look at the coverage that would be established 
if the treaty enters into force, the coverage in Russia, China 
and the Middle East, to see the augmentation of U.S. 
capabilities and the range of technologies to appreciate the 
potential value added of an International Monitoring System.
    Some people have criticized the treaty because it does not 
provide for sanctions against the state, it has violated it. 
This criticism strikes me as ill-informed. Consistent with 
traditional U.S. policy, I was under strict instructions to 
object to the inclusion of sanctions. The U.S. view, which I 
believe this committee strongly endorses, is that we will not 
agree to appoint an international organization to be not just 
the investigator and special prosecutor, but also the judge, 
jury and jailer. The U.S. reserves for itself the authority to 
make judgments about compliance. And, we reserve for a body 
higher than the one established by this treaty, namely, the 
United Nations Security Council, in which we have a veto, the 
authority to levy sanctions or other measures. This is U.S. 
policy and this policy is reflected in the treaty.
    Now a word on the treaty's entry into force requirements. 
These have been the topic of much discussion and have even been 
offered as a reason for why the U.S. should postpone its 
ratification. As you know, the treaty does not enter into force 
until 44 named states have deposited their instruments of 
ratification. The named states are those that have nuclear 
research or power reactors and were at the same time members of 
the Conference on Disarmament.
    It is true that this requirement erects a high barrier. It 
also, in my opinion, reflects a core reality from which there 
is no escape. The treaty would not work without the 
participation of all five nuclear weapons states and the three 
so-called threshold states, India, Pakistan and Israel, who are 
not yet bound by the nonproliferation treaty.
    The U.S. would not foreswear all future testing if China 
and Russia were not similarly bound, and vice versa. China ties 
its adherence to India, India to Pakistan, and so forth. It's 
an interlocking reality--a political reality among the eight. 
Israeli adherence is demanded by all. In my opinion, it did not 
much matter what exact formulation was used. The reality was 
that all eight were required.
    It does not follow that the U.S. can afford to wait until 
the other 43 have ratified the treaty. I have always believed 
that if you want something, you must get out in front. That is 
the American way. We must lead, not follow meekly behind. It is 
our burden and our advantage that other states will follow our 
lead. The day the United States submitted its ratification of 
the Chemical Weapons Convention, China and four other countries 
followed, the same day. Cuba, Iran, Pakistan and Russia 
followed shortly thereafter.
    What if the U.S. chooses not to ratify this treaty? I 
believe my experience in the CTBT negotiations and many years 
of representing the United States in multilateral diplomacy 
render me competent to speculate on the international reaction 
to such a possibility. I am not given to hyperbole, but I 
believe it is not an exaggeration to say that there will be 
jubilation among our foes and despair among our allies and 
friends.
    Iran, Iraq, North Korea and other states that harbor 
nuclear aspirations surely will feel the constraints loosening. 
Our allies and other friends will feel deserted and betrayed. 
The global nuclear nonproliferation regime will be endangered. 
Some isolationists may not believe this regime is worth 
protecting and that the U.S. can take care of the problem 
itself. But we need cooperation in my judgment from states like 
Russia and our European allies, if only to help control exports 
if we are to prevent states from acquiring nuclear weapons. 
France, for example, which has already ratified the CTBT, will 
be even less responsive to U.S. pleas to contain Iraq and Iran 
if the U.S. walks away from this treaty, whose successful 
negotiation the United States led.
    I am not an expert on South Asian policy, but I believe 
that if the U.S. fails to ratify the CTBT, we should brace 
ourselves for more Indian tests. Pakistan, of course, would 
match India test for test.
    The Chairman. Mr. Ambassador, would you forgive me please? 
We have a vote on and I suggest that Senators go cast their 
votes and I will stay here, then it may save time.
    Senator Boxer. Mr. Chairman, I just wondered, when we come 
back, we will have an opportunity to question, is that correct?
    The Chairman. Sure.
    Ambassador Ledogar. I only have about two more sentences.
    China will not ratify the test ban if the U.S. does not. We 
can expect China to put itself in a position to resume testing, 
especially if India tests, and the chain reaction may not end 
there. Japan could face pressure to reconsider its nuclear 
abstinence if China and India buildup their nuclear forces. And 
Russia, of course, remains a wild card.
    I trust you will have questions and I am prepared to 
respond.
    [The prepared statement of Ambassador Ledogar follows:]

             Prepared Statement of Hon. Stephen J. Ledogar

    Mr. Chairman, distinguished members of the committee, thank you for 
this opportunity to speak to you about the Comprehensive Nuclear Test 
Ban Treaty, which is before your committee for consideration.
    First, a few things about my background which I mention only 
because I think they are relevant to what I will say about the Treaty. 
After four years of active duty as a Naval Aviator and five years in 
Private Industry as a lawyer, I joined the Foreign Service and served 
for 38 years before retiring two years ago. Most of my career, I worked 
in Political-Military Affairs and Arms Control including stints as 
Deputy Chief of Mission to NATO, and press spokesman and member of the 
delegation to the Vietnam Peace Talks in Paris. I am a strong believer 
in nuclear deterrence and I know how central it is to NATO. During my 
last ten years of full time service, I was privileged to be an 
Ambassador under Presidents Reagan, Bush and Clinton, serving in turn 
as head of several U.S. delegations in Vienna and Geneva. I was chief 
U.S. negotiator from start to finish of the CTBT. Currently, I'm a 
part-time consultant to the Department of State on national security 
matters.
    As I understand your invitation, Mr. Chairman, I'm not here to give 
this committee the authoritative administration pitch on the CTBT. 
Secretary Albright and others will do that. Rather, I'm here primarily 
as a resource to help recall and detail key elements of the Treaty as 
they were fought out in the negotiating trenches between 1993 and 
signature in September 1996. I should say, however, that, not 
surprisingly, I fully support the Treaty believing that it is very much 
in the security interests of the United States. It was carefully 
negotiated by me and my multiagency delegation throughout, always 
acting on fully cleared front channel instructions. I'm prepared to try 
to explain and defend all its key provisions, and if memory serves to 
try to give you any background you might be interested in having.
    In the short time I have in this opening statement, I will limit my 
discussion to just three issues that I believe are sources of some 
confusion. Over the course of the last few days, I have heard opinions 
expressed on the question of the CTBT's scope, its verification 
provisions, and its entry into force provisions. Some of the debate 
suggests to me that aspects of the negotiations have not yet been fully 
understood. I hope that I may help to shed some light on these issues. 
Lastly, I would like to address the likely international repercussions 
should the Senate fail to give its consent to ratification.
                           scope of the ctbt
    First, let me address the scope of the CTBT. As the name suggests, 
the Treaty imposes a comprehensive ban on all nuclear explosions, of 
any size, in any place.
    I have heard some critics of the Treaty seek to cast doubt on 
whether Russia, in the negotiation and signing of the Treaty, committed 
itself under treaty law to a truly comprehensive prohibition of any 
nuclear explosion, including an explosion/experiment/event of even the 
slightest nuclear yield. In other words, did Russia agree that 
hydronuclear experiments (which do produce a nuclear yield, although 
very, very slight) would be banned, and that hydrodynamic explosions 
(which have no yield because they do not reach criticality) would not 
be banned?
    The answer is a categoric ``yes.'' The Russians, as well as the 
other weapon states, did commit themselves. That answer is 
substantiated by the record of the negotiations at almost any level of 
technicality (and national security classification) that is desired and 
permitted. More importantly for the current debate, it is also 
substantiated by the public record of statements by high level Russian 
officials as their position on the question of thresholds evolved and 
fell into line with the consensus that emerged.
    It is important to recall that each of the five nuclear weapon 
states began the CTBT negotiations desirous of a quiet understanding 
among themselves that some low level nuclear explosions/experiments 
that did produce nuclear yield would be acceptable at least among 
themselves despite the broad treaty prohibition of ``any nuclear weapon 
test explosion or any other nuclear explosion.'' Until August of 1995, 
the beginning of the final year of negotiations, the U.S. pushed for 
agreement on a very low threshold of nuclear yield. Our position was 
not popular among the P-5. Because of our greater test experience and 
technical capabilities, we could conceivably gain useful data from 
events of almost insignificant yield. The other four argued that they 
needed a higher threshold in order to gain any useful data. In some 
cases the thresholds they pushed for were politically impossible to 
square with the notion of a comprehensive test ban. Russia for example 
insisted that if there was going to be any threshold among the five it 
would have to allow for so-called experiments with nuclear yields of up 
to ten tons of TNT equivalent.
    The dispute among the five threatened to halt the negotiations as 
it became increasingly known to others that the five were squabbling 
with each other about how much wiggle room would be left to them when 
they signed onto a text that said simply that nuclear explosions would 
be banned. As the arcane and jargon filled complexities of the nuclear 
testing communities in Novaya Zemyla, Lop Nor, Mururoa, and Nevada 
became more widely understood, the nonnuclear states and broad public 
opinion increasingly insisted that the five should be allowed no 
tolerance--not even for the smallest possible nuclear yields. A ban 
should be a ban. The answer to this dilemma should be no threshold for 
anybody; i.e., zero means zero.
    On August 11, 1995, President Clinton announced that the United 
States was revising its prior position on the threshold question and 
would henceforth argue to the other four nuclear weapon states that no 
tests that produced a nuclear yield should be allowed to anyone under 
the treaty. The Russians, who were miffed at being taken by surprise, 
climbed down from their original position slowly and painfully. It took 
until April of 1996 before they signed onto the sweeping, categoric 
prohibition that is found in the final text. They never did like the 
``zero'' word which was bandied around in public (and actually used 
once by Boris Yeltsin). Instead, they announced that they embraced a 
treaty with no threshold whatsoever. In the confidential negotiations 
among the five nuclear weapon states that went on the entire time the 
broader CTBT negotiations continued, it was clearly understood and that 
the boundary line--the ``zero line'' between what would be prohibited 
to all under the treaty and what would not be prohibited--was precisely 
defined by the question of nuclear yield or criticality. If what you 
did produced any yield whatsoever, it was not allowed. If it didn't, it 
was allowed.
                        ctbt verification regime
    Another issue I would like to address is how the Treaty's 
verification regime developed and how it benefits the U.S. I will leave 
it to others more expert than I to provide precise assessments of U.S. 
monitoring capabilities. The point I would like to stress here is that 
the U.S. succeeded in the negotiations in getting virtually everything 
the intelligence community and other parts of the government wanted 
from the Treaty to strengthen our ability to detect and deter cheating 
and to seek appropriate redress if cheating did occur. At the same 
time, we succeeded in getting virtually everything the Defense 
Department and others wanted to ensure the protection of sensitive 
national security information. Let me give you several examples.
    Concerning the use of National Technical Means, the U.S. fought 
like mad to win acceptance of a state's right to use evidence acquired 
through NTM, as it saw fit, when requesting an on-site inspection. But 
we did not want to be forced to reveal any information we believed 
would be better kept private. This was a ``red line'' position for the 
U.S. Many of our negotiating partners were adamantly opposed to giving 
the U.S. what they considered was a clear advantage and a license to 
spy. Yes, it is true that the U.S. has satellite surveillance and 
intercept capabilities that surpass others', but is it logical to 
penalize and ignore the evidence of the tall person with good eyesight 
who can see the crime committed across the room? The U.S. position 
prevailed.
    This Treaty provides for on-site inspections on request by any 
Treaty party and with the approval of the Executive Council. No state 
can refuse an inspection. The U.S. position from the start was that on-
site inspections were critical to provide us with added confidence that 
we could detect violations. And, if inspections were to be effective, 
they had to be conducted absolutely as quickly as possible after a 
suspicion arose, using a range of techniques with as few restrictions 
as possible. However, the U.S. also had to be concerned with its 
defensive posture, as well as an offensive one. It was necessary to 
ensure that sensitive national security information would be protected 
in the event of an inspection on U.S. territory. The U.S. crafted a 
complicated, highly detailed, proposal that balanced our offensive and 
defensive needs. There was resistance from some of our negotiating 
partners. However, by the time we were through, the Treaty read pretty 
much like the original U.S. paper put together jointly by the 
Departments of Defense, Energy and State, the Intelligence Community, 
and the then-existing Arms Control Agency.
    I would like to touch on the composition of the International 
Monitoring System--four networks of different types of remote sensors 
encompassing 321 stations--because I have heard questions about its 
value added. The intelligence community, working through the larger 
interagency community, had a list of requirements. They wanted certain 
technologies and they wanted certain stations that would fill gaps and 
complement existing national monitoring capabilities. The U.S. 
delegation delivered nearly everything requested. You have only to look 
at the coverage in Russia, China and the Middle East, and the range of 
technologies, to appreciate the potential value added of the IMS.
    Some people have criticized the Treaty because it does not provide 
for sanctions against a state that has violated it. This criticism 
strikes me as ill informed. Consistent with traditional U.S. policy, I 
was under strict instructions to object to the inclusion of sanctions. 
The U.S. view, which I believe this Committee strongly endorses, is 
that we will not agree to appoint an international organization to be 
not just the investigator and special prosecutor, but also the judge, 
jury, and jailer. The U.S. reserves for itself the authority to make 
judgements about compliance. And we reserve for a higher body, the 
United Nations Security Council in which we have a veto, the authority 
to levy sanctions or other measures. This is U.S. policy. This is the 
Treaty's policy.
                     entry into force requirements
    The Treaty's entry into force requirements have been the topic of 
much discussion and even offered as a reason for why the U.S. should 
postpone its ratification. As you know, the Treaty does not enter into 
force until 44 named states have deposited their instruments of 
ratification. The named states are those that have nuclear research or 
reactor reactors and were members of the Conference on Disarmament.
    It is true that this requirement erects a high barrier. It also, in 
my opinion, reflects a core reality from which there was no escape. The 
Treaty would not work without the participation of the five nuclear 
weapon states and the three so-called threshold states, India, Pakistan 
and Israel, who are not yet bound by the NPT. The U.S. would not 
foreswear all future testing if China and Russia were not similarly 
bound. China ties its adherence to India. India to Pakistan. And 
Israeli adherence was demanded by all. In my opinion, it did not much 
matter what the exact formulation was. The reality stood that all eight 
were required.
    It does not follow that the U.S. can afford to wait until the other 
43 have ratified the Treaty. I have always believed that if you want 
something, you must get out in front. This is the American way. We must 
lead, not follow meekly behind. It is our burden and our advantage that 
other states will follow our lead. The day the United States submitted 
its ratification to the Chemical Weapons Convention, China and four 
other countries followed. Cuba, Iran, Pakistan, and Russia followed 
shortly thereafter.
    What if the United States chooses not to ratify this treaty? I 
believe that my experience in the CTBT negotiations and many years of 
representing the U.S. in multilateral diplomacy, render me competent to 
speculate on the international reaction to such a possibility.
    I am not given to hyperbole, but I believe it is not an 
exaggeration to say that there will be jubilation among our foes and 
despair among our friends. Iran, Iraq, North Korea and other states 
that harbor nuclear aspirations surely will feel the constraints 
loosening. Our allies and friends will feel deserted and betrayed. The 
global nuclear nonproliferation regime will be endangered. Some 
isolationists may not believe this regime is worth protecting: that the 
U.S. can take care of the problem itself. But we need cooperation from 
states like Russia and our European allies in controlling exports if we 
are to prevent states from acquiring nuclear weapons. France, for 
example, which has already ratified the CTBT, will be even less 
inclined to heed U.S. pleas to contain Iraq and Iran if the U.S. walks 
away from the Treaty, whose successful negotiations the U.S. led.
    I am not an expert in South Asia policy, but I believe that if the 
U.S. fails to ratify the CTBT we should brace ourselves for more Indian 
tests. Pakistan, of course, would match India test for test. China will 
not ratify the test ban if the U.S. does not. We can expect China to 
ready itself to resume testing, especially if India tests. And the 
chain reaction may not end there. Japan will face pressure to 
reconsider its nuclear abstinence if China and India are developing 
nuclear forces. And Russia, of course, remains a wild card.
    I trust you have questions about the negotiating history or certain 
Treaty elements. I would be pleased to provide whatever information I 
can.

    The Chairman. All right. We are going to hopscotch on this. 
The Senator from Minnesota will take his 5 minutes and then I 
will go and Chuck Hagel has already gone and will come back. We 
have to play a tag game here.
    Senator Grams. Thank you very much. I will not be able to 
come back, so I am going to stay and keep the hearing going 
until some of the others come back so I have the opportunity to 
ask some questions and again, I appreciate your being here and 
your testimony.
    You know the original official negotiating position of the 
Clinton administration in Geneva was to have a treaty which, 
one, had a definite duration, 10 years; two, permitted low 
yield tests, 4 pounds, and was also verifiable. Those were some 
of the conditions they set out with.
    If the administration had negotiated a treaty along those 
lines, I think it would have had a better chance of being 
ratified today. Instead, I think we have ended up with a treaty 
of unlimited duration, zero yield, which is clearly 
unverifiable. So my question is, and I'll start with Ms. 
Kirkpatrick, do you think it was wise for the Clinton 
administration to move so far from what was our original 
position?
    Ambassador Kirkpatrick. No, Senator Grams, I do not. I 
think the original position was a reasonable one, which 
provided--first of all, it provided for verification and 
verifiability, but it also provided for entering the treaty 
regime with the provision that it would not last forever. We 
could see how it worked. We could see how other nations behaved 
in that regime and if it didn't work in 10 years, it would 
self-destruct.
    I think that was reasonable and workable, and I think this 
one is not. It is too sweeping, it is too universal, it is 
binding for too long, and it is unverifiable, as I said in my 
testimony.
    Senator Grams. Mr. Ledogar, maybe I would ask you to answer 
the same question. Where the administration began with and 
where we ended up with seems like a huge shift, and I know you 
were a part of the negotiating. Maybe you could answer that 
question as well.
    Ambassador Ledogar. Yes, I would be glad to. I agree with 
Ambassador Kirkpatrick that it was a reasonable position. One 
problem was that it was totally non-negotiable. We had no 
support, not a single country, not our best friends would 
support the so-called ``10 year easy-out'' proposal which was 
originally put on the table by us. And that attitude sprang 
from a number of events, but I would say that the then ongoing 
Nonproliferation Review and Extension Conference was very 
important in setting up a contrast that was thrown back at the 
United States delegation. Critics said that you are asking for 
the unlimited extension of the nonproliferation treaty and yet 
you will commit yourself only to 10 years' duration of the test 
ban. And having charged up that hill many times and taken quite 
a few hits, I was among those that asked Washington to 
reconsider. It was a tough decision but the interagency finally 
decided that they could reconsider, with a set of safeguards, 
and resort to the supreme national interest clause, which is 
very important to the presentation, including to this 
committee, of the whole package before it.
    Mr. Weinberger. I think it was a very unwise thing. It is a 
part of the whole process that an agreement is far more 
important than the content, that all you want is the agreement, 
and you'll do anything to get the agreement, and this means 
that you have to change a well-considered position because 
somebody else won't agree to it.
    If we had adopted that philosophy and that practice during 
President Reagan's term, we would not have a treaty that bans 
all intermediate range nuclear arms today, and longer range 
weapons, the intermediate range. That was the--when we went in 
with the zero option originally in October, I think it was, of 
1981, we were pretty well laughed off the international stage 
because we were proposing something that everybody knew the 
Soviets would never agree to, so it was clearly just a ploy by 
Mr. Reagan and on and on and on and all the editorials poured 
out about what a terrible thing it was to do. Seven years 
later, they agreed to it, word for word, practically speaking. 
We held firm. We felt the content was far more important than 
getting an agreement.
    And here is exactly the opposite philosophy prevails. If 
you want an agreement, you have to do what everybody else 
wants, regardless of how the content affects the United States 
or doesn't affect the United States. So I think it was a very 
unwise thing to do and I think the results are before us.
    Senator Grams. It seems I hear the same about the Kyoto 
treaty. The agreement was worth more than the contents. Let me 
quote what John Holliman--I think you know John Holliman, 
senior Clinton arms controller, who criticized this. And some 
of the things he had to say, and I quote, ``the United States 
views on verification are well known. We would have preferred 
stronger measures, especially in the decisionmaking process, 
for onsite inspections and in numerous specific provisions 
affecting the practical implementation of the inspection 
regime.
    ``I feel no need to defend this view. The mission of the 
Conference on Disarmament is not to erect political symbols, 
but to negotiate enforceable agreements. That requires 
effective verification, not as the preference of any party, but 
as the sine qua non of this body's work.
    ``On verification overall, the treaty tilts toward the 
defense in a way that has forced the United States to conclude 
reluctantly that it can accept barely the balance that 
Ambassador Romaker has crafted.'' And I apologize, I don't have 
my glasses on so it is hard for me to see all this.
    So there are some concerns there. Also, we have been 
discovering defects within our own stockpiles right up until 
1992 and I think, Ms. Kirkpatrick, you have mentioned that we 
have been under a ban for testing for many, many years now, so 
we are already far behind in some of these areas. But finding 
defects up until 1992 in the test ban.
    So one might wonder why since 1992 not a single warhead has 
been relined, in other words, removed from the inventory 
because of concerns over performance and safety. Is it because 
somehow by magic our stockpile self-perfected in 1992, or is it 
that we cannot discover defects without nuclear testing itself. 
Ms. Kirkpatrick?
    Ambassador Kirkpatrick. Senator Grams, I think it is 
uncertain, at best, how effective the various kinds of 
simulations are or will be. The efforts that we make without 
testing, without explosive testing, to verify the reliability 
and condition of our stockpiles yield uncertain results and I 
think we cannot have confidence in them at the level that we 
could previously have confidence.
    Senator Grams. Again, without being able to verify all the 
testing, Mr. Weinberger, can we count on having a reliable 
stockpile without testing?
    Mr. Weinberger. No, we cannot, and even if we wait until 
2007 or 2008 when these new computers come online, as the 
Secretary of Defense testified yesterday and today, you will 
still not have the kind of reliability that you get from 
explosive testing. It is a substitute for it. It is something 
less good. And that is what the treaty does, it forces 
everybody to use, if they all complied with it, to use 
something that is less effective than the most effective method 
of testing for reliability so it doesn't ban testing, it 
doesn't ban proliferation, it doesn't ban anything except the 
most effective means of testing.
    Senator Grams. But that is only for some of the most 
sophisticated. When you have some less sophisticated nuclear 
weapons you wouldn't need this type of testing, would you, so 
it still puts us at a disadvantage.
    Mr. Weinberger. Well, yes, and it is the old story about an 
inaccurate nuclear weapon can still do an enormous amount of 
damage and that is why you want to have them tested, to make 
sure that they will do the job for which they are intended. It 
is a horrible job, but our deterrence, our safety depends on 
it.
    Senator Grams. Mr. Ledogar, I read an article earlier this 
week that Mr. Adamov, who heads up the nuclear programs in 
Russia, and when Mr. Weinberger mentioned about the new 
computers coming online, the most sophisticated computers, the 
report basically stated that somehow the administration had 
given him the impression that the United States, if they would 
sign this treaty, would provide them with these type of 
computers in order for them to do similar type of tests on 
computers. Now, these are things, computers we do not want to 
sell.
    We have had many arguments on the floor of the Senate 
about, worried about having this kind of technology stolen from 
us at the labs, but yet are we willing to give this information 
to the Russians in order for them to do computerized testing 
without doing actual testing? Was that part of the plan at all, 
or is this report in error?
    Ambassador Ledogar. The report is not in error insofar as 
it reflects what the Russian general said. It is in error 
insofar as it suggests that the United States would even 
consider giving those sophisticated computers to the Russians. 
Now, I have had that on the authority of very senior officials 
at the Department of Energy. I was not on the trip, and I only 
have personal knowledge of the news stories.
    Senator Grams. So you are saying this administration would 
not commit and has not, behind closed doors, indicated to the 
Russians that we would share this type of computer information 
with them. We have not done that.
    Ambassador Ledogar. That is correct. However, Senator, I 
must say that I am not technically an administration spokesman. 
I am a contractor now.
    Senator Grams. Maybe we can ask Madeleine Albright this 
afternoon.
    Ambassador Ledogar. This afternoon you have the 
opportunity. If I may say so, with all due respect, if I 
believed, as Secretary Weinberger does, that the stockpile is 
already or will quickly in the future become unreliable, I 
certainly would not support the treaty, but I believe the 
opposite, and I think that the bulk of the evidence--provided 
that the science-based stockpile stewardship program continues 
to be funded, and that the annual certifications with the 
cooperation of the Congress continue to take place--gives the 
assurance that, should there be any problem in the future, it 
will be discovered, and that if it is discovered, the 
appropriate steps will be taken, and it is on that basis that 
this administration and the bulk of supporters of ratification 
believe that it is safe for us to go forward without explosive 
testing.
    The amount of other testing that goes on is stupendous, and 
very expensive. This afternoon you will have Dr. Garwin, and I 
would hope that you could put to a highly qualified nuclear 
physicist like him the questions and get the assurances that 
are the basis for my beliefs.
    Senator Grams. Thank you. We have many experts on both 
sides. That is what makes this debate so much harder to 
understand. I have to turn the gavel over to Senator Hagel, and 
also I would like to ask to place statements by the current 
laboratory directors in support of testing into the record, if 
I could, at the same time.
    [The statements referred to follow:]

              Former Laboratory Directors Oppose the CTBT

    ``I urge you to oppose the Comprehensive Test Ban Treaty (CTBT). No 
previous Administration, either Democrat or Republican, ever supported 
the unverifiable, zero yield, indefinite duration CTBT now before the 
Senate. The reason for this is simple. Under a long-duration test ban, 
confidence in the nuclear stockpile will erode for a variety of 
reasons.''

                          Roger Batzel, Director Emeritus, response to 
                        a request for views by Chairman Helms, October 
                        5, 1999.

    ``Without nuclear testing, confidence in the stockpile will 
decline. The U.S. capability to develop weapons will be degraded by the 
eventual loss of all nuclear test experienced weapons experts who 
developed the stockpile.''
    ``. . . For the U.S., the CTBT would be a `catch-22': without 
nuclear testing, there is a growing uncertainty in our estimates of 
stockpile reliability; without nuclear testing, experts cannot quantify 
this uncertainty.''

                          John Nuckolls, Director Emeritus, response to 
                        a request for views from Chairman Helms, 
                        September 29, 1999.

    ``I have seen and studied a copy of your letter you wrote to 
President Clinton on January 21. I was impressed by your statements, 
and I am happy you made them.''
    ``. . . The point I must make is that, in the long run, knowledge 
and ability to produce nuclear weapons will be widely available. To 
believe that, in the long run, proliferation of nuclear weapons is 
avoidable is wishful thinking and dangerous. It is the more dangerous 
because it is a point of view that the public is eager to accept. Thus 
politicians are tempted to gain popularity by supporting false hopes.''

                          Edward Teller, Director Emeritus, letter to 
                        Chairman Helms, February 4, 1998.

    ``Of course, if nuclear testing were allowed, we would gain greater 
confidence in the new tools. We could validate these tools more 
readily, as well as validate some of the new remanufacturing 
techniques. One to two tests per year would serve such a function quite 
well. Yields of 10 kt would be sufficient in most cases. Yields of 1 kt 
would be of substantial help.''

                          S.S. Hecker, Director of Los Alamos National 
                        Laboratory, response to Senator Kyl, September 
                        24, 1997.

    ``From a purely technical standpoint, some level of nuclear testing 
would be a useful addition to the SSMP to address the effects of aging-
related changes on weapon safety and reliability, and to validate the 
capabilities of the next generation of weapon scientists and their 
experimental and computational facilities, particularly in addressing 
hydrodynamic phenomena related to boosted primaries.''

                          C. Bruce Tarter, Director of Lawrence 
                        Livermore National Laboratory, response to 
                        Senator Kyl, September 29, 1997.

    ``A strong Stockpile Stewardship and Maintenance Program is 
necessary to underwrite confidence. A program of 500-ton experiments 
would significantly reduce the technical risks.''

                          Joint statement by Laboratory Directors, 
                        1995.

    Senator Hagel. Senator, thank you. Let me add my welcome to 
our three highly admired and distinguished witnesses. I would 
like to ask each of you a question. Ambassador Kirkpatrick and 
Secretary Weinberger, you obviously have laid out a rather 
compelling sense of why this treaty should be defeated, and 
with that compelling testimony I would ask each of you what, 
then, should we do? What is the answer? Rewrite a treaty, start 
anew, do not pay attention to it?
    You lay out the threats of this new borderless world we 
live in rather directly, and in a compelling way. I think what 
we need to do now is, as we deal with the immediacy of this 
issue, move forward. We must take this out of the political 
swamp that it has found itself in and deal with the relevant 
issues, and that is, how do we build a better world a safer 
world for mankind? I would be most interested in your thoughts, 
Madam Ambassador.
    Ambassador Kirkpatrick. Senator Hagel, thank you very much. 
Do you mean not simply with regard to nuclear weapons, but a 
better world, period?
    Senator Hagel. Well, any advice you can proffer, but I 
would like you to stay focused on this, because we hear great 
debate about how this is a bad treaty and we should defeat it 
and drive a stake through its heart, but what, then, should we 
do?
    Ambassador Kirkpatrick. I think there is a kind of dynamic 
that takes over in negotiations when they are underway, but 
whether that dynamic is more helpful or more hurtful varies in 
different circumstances. I think that it would be useful, 
frankly, to go back to the beginning. I think the negotiating 
positions which have been described, the original positions of 
this administration, were sound negotiating principles. They 
were sounder.
    I have spent a good deal of time negotiating in the U.N. 
context, in situations where you are seeking agreement of 185 
countries, or 195 countries. What happens is that one gives 
more and more--if one is not very alert, very determined, and 
frankly, ready to end without an agreement, It is absolutely 
essential to be aware of this in negotiations on a subject as 
important as this.
    I think one must be prepared to end such a negotiation with 
no agreement--on the CTBT, for example, and I think had the 
administration done that, had they entered the negotiation with 
that determination, and clarity about their bottom-line 
principles--the three principles we heard described, we might 
not have gotten the treaty, or we might have gotten a better 
one. I do not think it matters much whether there is a CTBT in 
which 190 countries have signed on, because most of those 
countries are not ever going to be players in the world of 
nuclear weapons and nuclear war. Most of those countries really 
have no stake in the subject, except the stake of fallout and 
the pollution of the globe, that everyone has.
    But they constitute a major influence in the negotiations 
themselves because all of the countries, or virtually all of 
the countries who are member States of the U.N. are also state 
partners in the treaty. The structure of the U.N. becomes 
important too, and so do the various blocs, the nonaligned 
bloc, for example, the G-77 take bloc positions, even though 
most of their members have no direct involvement in these 
issues of these questions, but they exercise significant 
influence in the negotiating process.
    Senator Hagel. Are you saying we should go back and 
renegotiate?
    Ambassador Kirkpatrick. I would go back and renegotiate. I 
would go back and renegotiate on the basis of some different 
principles, and one of those principles would be an 
understanding with both parties that any treaty which we 
brought from the negotiation might not have all the members as 
signatories.
    What would be essential would be that the nuclear powers be 
signatories, and maybe a few others. I am not saying only 
nuclear powers should be able to participate, but they should 
be the principal participants in any negotiation. All the 
countries in the U.N. really do not need to participate in such 
negotiations, I think you have a better chance of getting a 
better product if you undertake the negotiations on that basis, 
and in that spirit.
    Senator Hagel. Thank you. Secretary Weinberger.
    Mr. Weinberger. Well, sir, if your goal is simply to get an 
agreement, then probably you would have to do what we did here, 
which was to give up a soundly considered, carefully crafted 
position, give it up easily, give every essential element of 
it, just so we can get an agreement. This is the syndrome that 
bothers me, because the agreement then becomes far more 
important than the context, and I think that we did have a 
well-considered position we went in with. If we could not get 
anybody to agree with it, well then, so be it, we would not get 
an agreement, but you would have a lot better than a bad 
agreement which prevents us from doing the necessary things we 
have to do to give the greatest assurance we possibly can that 
this nuclear deterrent works. Your margin for error here, Mr. 
Chairman, is extraordinarily small. You are not allowed to be 
very wrong about a guess as to whether this works or not, and 
that would lead me to conclude that we should have the most 
effective means of testing available to us.
    We are not preventing other countries from testing. We are 
simply preventing ourselves, and if they comply themselves with 
having a less effective method of testing, if you really want 
to see, I think the most fundamental way to deal with this 
problem, then I think what we should do is what we should have 
done and what we started to do in 1983, and that is to develop 
an effective defense against these weapons. The knowledge that 
there is absolutely no defense, and that we remain committed to 
a treaty that forbids any effective defense, the ABM Treaty--
which incidentally the Soviets started to violate within 2 
weeks of the time they signed it--then you have the greatest 
encouragement to other countries, rogue countries, 
particularly, to feel that if they get this weapon and there is 
not going to be any defense against them, they will then be in 
a position to overcome their smallness, or their 
insignificance, otherwise in order to have the kind of military 
capability that will enable them to engage in nuclear 
blackmail.
    So the best method of all to deal with this problem is to 
concentrate everything we have got on getting an effective 
defense against it, not some half-hearted attempts to satisfy a 
few polls or something of that kind, but a genuinely effective 
method of defending against these weapons.
    It can be done. We finally had a test that demonstrates one 
method of doing it. We lost 10 years between 1993 and the 
present time, which we could have been working on all of these 
things and which we have not done. We started in 1983, we got a 
program in 1983, and we remained fully committed to an ABM 
Treaty which absolutely forbids any kind of effective defense. 
Defense is the answer to this kind of thing.
    Senator Hagel. My friend and colleague is up, and so if it 
is OK, Mr. Ambassador, I will hold my questions.
    Senator Biden. That is OK. Go ahead.
    Senator Hagel. Senator Biden, thank you very much. Just a 
quick question to both Ambassador Kirkpatrick and Secretary 
Weinberger. The consequences of the United States defeating 
this treaty, as Ambassador Ledogar referenced, as we have heard 
an awful lot about, which I think there is some relevancy 
attached to that, the consequences around the world, would you 
give me a succinct answer? Is it real? Is it not real? Is it 
important if we defeat this? If we go ahead on Tuesday, what 
consequences will there be for the United States in the future 
of efforts to deal with proliferation?
    Ambassador Kirkpatrick. Senator Hagel, I truly believe that 
the consequences would be very much less than almost all of the 
extravagant statements that I have heard in the last 48 hours 
about what would happen if the U.S. did not ratify it.
    Most countries are simply not that concerned about our 
policies. That is just a fact. We do not have the kind of 
influence over the policies and behavior of other countries 
that the comments are predicting, these dire consequences for 
U.S.-nonratification suggest.
    I just think they are mistaken. They should go to the U.N. 
and try influencing a few countries to support votes and 
policies on highly worthy subjects, and you will find out very 
quickly how really impotent we often are in securing a large 
number of other countries' support, and following our example.
    Senator Hagel. Thank you. Mr. Secretary.
    Mr. Weinberger. Well, Senator, I agree with Ambassador 
Kirkpatrick completely. I think that the consequences will be a 
certain amount of editorial hand-wringing, but nothing that is 
in any sense substantive. Does anybody believe, as it was said 
this morning, that all these constraints that now bind people 
will be gone? What constraints does Kim Song-il feel under, 
what constraints does Saddam Hussein feel under? If they can 
get nuclear weapons they are going to get them.
    They have some. They have some of the components. They are 
not going to let anything like this stand in their way. The 
United States reaction I think would be basically, if we 
defeated the treaty on the grounds that have all been put forth 
over the course of the debate, I think the basic reaction among 
people who are realistic about such things would be that the 
United States has declined to bind itself to having an 
ineffective deterrent.
    Senator Hagel. Mr. Chairman, thank you.
    The Chairman. Senator Biden.
    Senator Biden. Thank you. Time is short. Maybe we will get 
a second round here, but I thought one of the purposes, and it 
may not meet, from your perspective, I say to you, Mr. 
Secretary, and you, Ambassador Kirkpatrick, was to not merely 
deal with the North Koreas, but to make sure that--or not make 
sure, impact on the ability of China, for example, to move to a 
MIRV system to be able to effectively, as you worried about, 
deal with what stolen data they have.
    You referenced the Cox committee, Ms. Kirkpatrick, which I 
think is perfectly legitimate, and you indicated that one of 
the reasons you were opposed to this treaty, among many--you 
named many--was that what will happen here is that, look at 
what the Chinese did, and you cited the Cox report.
    Well, the Cox report says, and this is a quote, found that, 
quote, ``the PRC does not likely need additional physical tests 
for its older thermonuclear warhead designs, but since signing 
the CTBT in 1996, the PRC has faced a new challenge in 
maintaining its modern thermonuclear warheads without 
physically testing,'' and they go on to state that ``given the 
limited number of nuclear tests the PRC has conducted, the PRC 
likely needs additional empirical information about the 
advanced thermonuclear weapons performance.''
    And it goes on to point out that unless they can test well 
beyond 1 kiloton, which we are confident we can pick up, they 
cannot effectively use the stuff they stole, so it seems to me 
you are arguing against your own interest here, if you are 
worried about the Chinese being able to use this technology, 
and every one in our intelligence community suggests we are 
able to detect the kind of yield they would have to engage in 
to be able to use it.
    Then one of two things happens. Either we observe, and they 
go ahead and they sign--by the way, the treaty does not come 
into force unless they sign, so unless they sign, and among 
others, it does not come into force no matter what we do, but 
if they sign, and if the only way the experts with whom I have 
spoken--and I, like you, I have spent hundreds of hours on 
this.
    I have spoken to the lab directors. I have spoken to all 
the folks who know a lot more than all four of us, or all 15 of 
us, or all of us in this room about the detail of this process. 
They all acknowledge in order to be able to use it, they have 
got to be able to test it. The way they would have to test it, 
we can figure it out, so that leaves them in the position of 
either signing and then violating, in which case article 7 
allows us, or safeguard 7 allows us to withdraw from the 
treaty, period, boom, withdraw from the treaty. We do not have 
to do anything else. We do not have to ask anybody, do 
anything.
    And then on the issue of--and I am doing this because we 
only have 6 minutes, and I will get to specific questions in 
the second round if we have one.
    On the issue you both raise of the inability to modernize, 
you point out that this would limit our ability to modernize. 
Well, we are--does anyone doubt that our sophistication is 
exponentially greater than any other country in the world in 
terms of our ability to make quantum leaps in modernization in 
the sophisticated field of strategic weapons? I know of no one 
who ever has made that assertion, including the three of you.
    Therefore, if we are constrained from modernizing, it is 
overwhelmingly the case every other nation is even more 
constrained from modernizing.
    Now, the one thing you have both educated me about in your 
testimony over the years is the degree to which a missile 
defense technology will function is in direct proportion to how 
sophisticated the array of offensive weapons coming in is. 
There is no one I have ever, ever, ever spoken to, including 
all the scientists out of your administration, and continuing 
in this administration, who has said that we are not better 
prepared if we do not have multiple warhead reentry vehicles 
aimed at us to counter them with a missile defense.
    That is one of the reasons why you did a brilliant job in 
START in moving along and setting in process the idea that we 
would no longer have multiple warheads on tops of missiles.
    Now, you all are saying here, if we do not have this treaty 
we acknowledge the ability of the sophisticated nations to MIRV 
their systems increases, add a minimum increases, I would argue 
increases gigantically, but increases, and yet you are now 
saying what you should be relying on is a missile defense.
    It seems to me if you want a missile defense, and a missile 
defense that is likely to work in the relatively near term, the 
fewer nations that are able to MIRV, the better off we all are.
    And so my question is this. Do any of the three of you 
think that the ability for the nuclear States to move to 
MIRV'ed capacity they do not possess is harder or easier, under 
this treaty? Just that one question, MIRV'ed capability.
    Do you think it is harder or easier, because we all know, 
as you know, most people do not know, to MIRV you have got to 
take these big old ugly things, make them lighter, make them 
smaller, make them more compact, make the yield of the 
plutonium package able to be boosted in a way as a consequence 
of the ignition package, as most people in here would know it, 
and that is a very sophisticated process that not a single 
scientist I have ever spoken to says can be done without 
nuclear testing, and nuclear testing in yields that are 
detectable.
    And so explain to me how it makes sense, if you want a 
missile defense system, to be against this treaty.
    Mr. Weinberger. Senator, that is a perfectly good argument, 
but it overlooks one point and that is the sophisticated 
knowledge which you speak of so correctly has been stolen.
    Senator Biden. But it cannot be used if it cannot be 
tested.
    Mr. Weinberger. Yes, it can be used. The new light warhead 
we spent years and millions of dollars has now been given to 
China one way or another, and they are able to use it perfectly 
well, so for this treaty to have any effect of banning, to have 
any effect on a country that wants to develop this kind of 
capability, the question is, it is irrelevant.
    Senator Biden. For the record, if you could submit the name 
of one scientist----
    The Chairman. Let us go ahead, and you take 6 more minutes.
    Senator Biden. I just want to--if I could just followup 
with 10 seconds, if for the record, and not now, you can name 
one scientist of consequence who will tell the committee or you 
that they can use the stolen package without testing it, if you 
can submit one serious scientist who will tell me that, I would 
appreciate it very much, and you have time. We are probably not 
going to vote soon.
    Mr. Weinberger. Your assumption is they are prevented from 
testing if we sign this treaty, and my assumption is that if 
they want to develop--if they are going to use any method they 
have to do it, and if we find out they have broken the treaty, 
Senator, we pass resolutions, we say it is a terrible thing, 
editorials are written, and they go right on doing what they 
want to do.
    Senator Biden. So your primary concern is, we will not have 
the will?
    Mr. Weinberger. The primary concern is not to give them the 
capability of doing that whether there is a treaty or not, and 
unfortunately a lot of that has already been done.
    Senator Biden. I have great respect for you, Mr. Secretary.
    Mr. Weinberger. I share the respect for you, but I think 
your argument is totally full of holes where the security of 
the country is concerned.
    Senator Biden. I have not found a single scientist to take 
issue with what I said. If you can produce them, I would be 
delighted.
    The Chairman. I want to be fair to everybody, including the 
witnesses, and Secretary Weinberger, if you wish to add 
anything, you go right ahead.
    Mr. Weinberger. I am sorry.
    The Chairman. I want you to have adequate time to respond 
to the various questions, so go right ahead.
    Mr. Weinberger. Thank you. That was the point that I wished 
to make, that it is very imperative that we try to get a 
defense, it is very imperative that we recognize that in the 
world in which we live, rogue countries, countries like North 
Korea and Iraq and others, are certainly going to try to get 
every capability they can, and China, as we already know, has 
one way or another acquired this extremely valuable technology, 
and will certainly make every effort to use it, regardless of 
whether we do or do not sign this treaty.
    The Chairman. Now, I have got something I am going to say 
on that, but the Senator from California has been waiting and 
waiting, so you proceed with your time.
    Senator Boxer. Thank you so much, Mr. Chairman. I am glad 
to be here in this committee on a very important issue, and I 
think just following up on the last exchange between Senator 
Biden and the Honorable Caspar Weinberger, I would say that 
listening to Mr. Weinberger, my sense of it is he is saying, 
well, we sign the treaty, and then China goes ahead and does 
these tests, and what have we gained?
    The bottom line is, if they sign the treaty and they break 
the treaty, we can get out of the treaty, so I think what is 
important for us, and it sort of gets back to what Senator 
Hagel was driving at, is what do we really do to make our 
people safer from this threat?
    Now that we have won the cold war, proliferation is a very 
important issue. I am sure we all agree on that. But we have a 
disagreement on how we get to the place we want to get, where 
our people are safer.
    Now, after reading both sides, and I have to say as I look 
at this, it is sort of a sad situation, it seems to me that 
Republicans are lining up mostly opposed--there is a few 
exceptions, and there is a bipartisan group who supports, and I 
am going to go into who those people are.
    I worry about our foreign policy becoming partisan, either 
side, because the one thing I have noticed in all the years I 
have been in Congress, it has been a very long time, and I 
would say to my friend Caspar Weinberger, we remember each 
other from the days I was on the Defense Committee over on the 
House side.
    I always believed that military policy, foreign policy 
needed to be bipartisan, and we were so strong when we were, 
and I worry that this argument is taking another shape and 
form, and I am very concerned about that, because I think it 
weakens us, and I want to talk about what weakens us in the 
world. It is when we are divided, one from the other, and so I 
hope we can pull together at some point, however we dispose of 
the matter that is before us.
    But as I look at the people who are for this treaty, and I 
read the comments of our President and our Vice President, but 
in addition to that, the Chairman of the Joint Chiefs of Staff, 
General Shelton, who says he supports it because he believes 
that those six important conditions strengthen us, they make 
us--he says it would reduce conflict and reduce tensions.
    And former Joint Chief of Staff under Ronald Reagan, 
William Crowe, supports the treaty and says that the safeguards 
will strengthen U.S. intelligence, and John Shalikashvili 
supports it. He signed a statement that said it would 
strengthen our ability to verify.
    Colin Powell, former chief of Staff under George Bush 
supports it, and he signed a very powerful statement.
    Thirty-two physics Nobel laureates support it from 
institutions from all over this country: Princeton, Brown, 
University of Washington, UC-Berkeley, MIT, Illinois Institute 
of Technology, Cornell, Columbia, Bell Labs, Gaithersburg, 
Florida State, University of Texas, Harvard-Smithsonian, Ohio 
State--and I ask unanimous consent to put this statement that 
they made into the record.
    Thank you so much.
    The Chairman. Without objection.
    [The information referred to follows:]

                 A Letter from Physics Nobel Laureates

    To Senators of the 106th Congress:

    We urge you to ratify the Comprehensive Test Ban Treaty.
    The United States signed and ratified the Limited Test Ban Treaty 
in 1963. In the years since, the nation has played a leadership role in 
actions to reduce nuclear risks, including the Non-Proliferation Treaty 
extension, the ABM Treaty, STARTs I and II, and the Comprehensive Test 
Ban Treaty negotiations. Fully informed technical studies have 
concluded that continued nuclear testing is not required to retain 
confidence in the safety, reliability and performance of nuclear 
weapons in the United States' stockpile, provided science and 
technology programs necessary for stockpile stewardship are maintained.
    The Comprehensive Test Ban Treaty is central to future efforts to 
halt the spread of nuclear weapons. Ratification of the Treaty will 
mark an important advance in uniting the world in an effort to contain 
and reduce the dangers of nuclear arms. It is imperative that the CTBT 
be ratified.

Philip W. Anderson--Princeton University--1977 Nobel Prize
Hans A. Bethe--Cornell University--1967 Nobel Prize
Nicolaas Bloembergen--Harvard University--1981 Nobel Prize
Owen Chamberlain--UC, Berkeley--1959 Nobel Prize
Steven Chu--Stanford University--1997 Nobel Prize
Leon N. Cooper--Brown University--1972 Nobel Prize
Hans Dehmelt--University of Washington--1989 Nobel Prize
Val L. Fitch--Princeton University--1980 Nobel Prize
Jerome Friedman--MIT--1990 Nobel Prize
Donald A. Glaser--UC, Berkeley--1960 Nobel Prize
Sheldon Glashow--Harvard University--1979 Nobel Prize
Henry W. Kendall--MIT--1990 Nobel Prize
Leon M. Lederman--Illinois Institute of Technology--1988 Nobel Prize
David M. Lee--Cornell University--1996 Nobel Prize
T. D. Lee--Columbia University--1957 Nobel Prize
Douglas D. Osheroff--Stanford University--1996 Nobel Prize
Arno Penzias--Bell Labs--1978 Nobel Prize
Martin L. Perl--Stanford University--1995 Nobel Prize
William Phillips--Gaithersburg--1997 Nobel Prize
Norman F. Ramsey--Harvard University--1989 Nobel Prize
Robert C. Richardson--Cornell University--1996 Nobel Prize
Burton Richter--Stanford University--1976 Nobel Prize
Arthur L. Schawlow--Stanford University--1981 Nobel Prize
J. Robert Schrieffer--Florida State University--1972 Nobel Prize
Mel Schwartz--Columbia University--1988 Nobel Prize
Clifford G. Shull--MIT--1994 Nobel Prize
Joseph H. Taylor, Jr.--Princeton University--1993 Nobel Prize
Daniel C. Tsui--Princeton University--1998 Nobel Prize
Charies Townes--UC, Berkeley--1964 Nobel Prize
Steven Weinberg--Univ. of Texas, Austin--1979 Nobel Prize
Robert W. Wilson--Harvard-Smithsonian--1978 Nobel Prize
Kenneth G. Wilson--Ohio State University--1982 Nobel Prize

    Senator Boxer. I think this is important. The labs all 
support it, the current people in the labs, and the other thing 
I am trying to search for as I look at who falls in each place, 
who has been really influenced by the cold war, and who is 
ready to get beyond it into where we are today, and I think we 
have to take the lessons of the cold war and be very, very wise 
about what we learn, but also understand that it is a new day, 
and we have to look at things in, therefore, I think a 
different way.
    I want to say a comment about Ms. Kirkpatrick's statements 
on the President, because I support her right to her views, and 
she has very eloquently stated those, and she is very strong on 
those, but I also feel I want to put my strong views on the 
record when she said, and I am trying to remember exactly. The 
record will show. I believe she said the President is not 
defending the people against the most important threat of 
nuclear weapons, and I think that is a fairly safe repetition 
of what she said.
    Ambassador Kirkpatrick. No, I did not, Senator Boxer.
    Senator Boxer. Well, we will go back to the record, but I 
would say that she said that his policies on nuclear weapons 
are not--because he is not doing enough on the missile defense, 
but we will get back to the exact words, but it was something 
like that, and I just want to say in the record that it was 
under this administration that we had the first successful test 
of a national missile defense, on October 2.
    It is under this administration that we have the stockpile 
stewardship program, which we are spending $4.5 billion. I do 
not think any President who did not believe we needed to retain 
our nuclear deterrence would spend $4.5 billion in a time when 
we are so much worried about expenditures, so that started 3 
years ago.
    We are spending $32 billion a year on our nuclear arsenal, 
and so I really just wanted to take issue with that statement, 
and if I am incorrect in your exact words, well, the clerk will 
get those words back to us.
    But I worry about that, because I think every President, 
Republican or Democrat, goes to sleep at night and the one 
worry on his, and perhaps some day her mind will be the safety 
of the American people. I think this President is no different.
    Now, we may disagree on how we get from A to B, but I guess 
my question to the opponents of our treaty, our distinguished 
panel who oppose it, what do they take issue with John 
Shalikashvili, what do they take issue with Colin Powell, what 
do they take specific issue with William Crowe, what do they 
take specific issue with the lab directors, what do they take 
specific issue with the Nobel laureates, because I think what I 
will do is take that critique and send it back to these fine 
people, who I think reflect bipartisanship in their position 
and want to see if they feel your points are valid and they 
would change their opinion on the treaty. That is my question.
    The Chairman. Do you want somebody to answer it?
    Ambassador Kirkpatrick. I would like to. I would like to 
begin with a comment about the spirit of bipartisanship. 
Senator Boxer, I might say that I have testified before the 
Senate several times, and the House, repeatedly during these 
long years of President Clinton's tenure, and I have almost 
always done so in support of some administration policy.
    I, for example, strongly supported NATO enlargement, and 
took a lead in the support of the administration's policies on 
NATO enlargement. I supported the Dayton Accords again, and 
took a lead in the support of the Dayton Accords, and the 
deployment of U.S troops in support of the Dayton Accords. I 
very strongly supported the administration's decision to engage 
in Kosovo, and met repeatedly and testified repeatedly in the 
House and the Senate on that issue.
    And so I would first just like to say that I have 
personally engaged in more bipartisan, if you will, foreign 
policy in the last 6 years than almost anyone I know. I cannot 
support the administration's policy with regard to the CTBT 
because I really very deeply disagree.
    Let me just state what I said.
    Senator Boxer. I do have it in front of me.
    Ambassador Kirkpatrick. You know what I said was, it is 
disturbing to me that President Clinton has, after talking 
about the fact that virtually everyone--and I cited the 
Rumsfeld and Cox Commission reports, but there are others that 
agreed that there has been really a serious proliferation of 
weapons of mass destruction and capacities, and of leakage of 
missiles, and missile technology, and that what I suggested was 
that President Clinton has not given--in the face of all of 
these threats, the President has not been mobilized to make the 
defense of the American people against these proliferating 
threats a top priority.
    Now, why do I say that? I say that because I believe if he 
made it a top priority, he would have long since moved to the 
support of an effective missile defense, because there is 
really only one way to defend the American people against these 
proliferating threats, and it is by an effective missile 
defense. This treaty will not defend the American people.
    Senator Boxer. Well, we just disagree on that.
    The Chairman. The chair cannot tolerate a debate here. She 
made her statement. You challenged part of it, and I thought 
she was entitled to time to state what she says she really 
said, and I think she is right about that.
    Now, I will give you another minute.
    Senator Boxer. That is very sweet. I will wait until my 
friend finishes her statement.
    Ambassador Kirkpatrick. I have completed.
    Senator Boxer. Well, I think again, what is highly 
disturbing to me is that obviously there are always other ways 
to defend a country.
    Ambassador Kirkpatrick. No, there are not.
    Senator Boxer. Excuse me. There are differences in view. 
There are some people who do believe you can defend this 
country if you have this treaty. That is why the leaders of the 
military in this country support it, because they say in their 
very own words in their statements that it will, in fact, 
lessen the threat of war, so to say that President Clinton has 
not put this as a top priority simply because he does not agree 
with your opinion on how to protect the people, it seems to me 
to be a subjective statement that is unfair and I think is not 
good for this country, to have that kind of personal attack. 
That is my view.
    But we disagree, and I fully respect your right to your 
view on that, as I am sure you respect my right to disagree 
with you.
    The Chairman. Very well. Thank you.
    Now, I have not had any time. Much has been said today, Mr. 
Secretary, about the Cox report, and what the Cox report has 
said, and what the Cox report did not say, and I think several 
liberties have been taken with what the Cox report did not say, 
but let me read what the Cox report did say, according to 
Christopher Cox, the chairman of the Select Committee.
    He said, ``the Select Committee did, however, make findings 
that may be relevant to the Senate's consideration of arguments 
that America's long history of nuclear tests obviates the need 
for new tests, and that preventing other Comprehensive Test Ban 
Treaty signatories from testing will cement America's 
technological advantage.''
    Then he goes on to say, ``in fact, because of the 
vulnerability of U.S. nuclear test data to theft through 
espionage, the PRC may be able to obviate or reduce the need 
for its own further testing, relying instead on the American 
data.'' Now, that is what you were saying.
    Now, on October 5, Robert Bell, at a press conference--and 
I do not know him, but he apparently is one of the spinmeisters 
down at the White House. He cited the Select Committee's report 
in support of the administration's position that the Senate 
should ratify the Comprehensive Test Ban Treaty.
    Now, I understand also that the administration officials 
have cited the report in their briefings to Senate staff. Then 
he goes on to say, the Select Committee--that is, the Cox 
report--``the Select Committee made no recommendation for or 
against ratification of the Comprehensive Test Ban Treaty.''
    Now, I am running into this all the time, who said this, 
and everybody's for the treaty, et cetera, et cetera, and those 
few who are against it, well, I have got a list this long of 
people, great Americans who have served this country well, and 
I do not like the inference that there is something lacking in 
their patriotism.
    Let me continue with the Christopher Cox letter about the 
Cox report. He says, thus, ``the relative technological 
advantages the United States enjoyed by virtue of our extensive 
testing may be lost as a result of our adherence to the 
Comprehensive Test Ban Treaty regime in such circumstances.'' 
Now, if that is an endorsement of the treaty, I fail to 
recognize it.
    Then he goes on to say, ``furthermore, if the PRC has 
acquired U.S. nuclear weapons computer codes, it implicitly 
possesses the ability to evaluate the limitations of U.S. 
nuclear weapons systems. This information can be used to inform 
future PRC missile defenses. Without the ability to test, the 
United States will be unable to modernize its own nuclear 
arsenal to avert such defenses, and will be forced to rely on 
warhead designs whose limitations and shortcomings are well-
understood by potential adversaries that may in the future not 
only include the PRC, but also other countries to which it may 
proliferate.''
    All right. Other findings of the Select Committee, and this 
is Chris Cox, the Cox report, that has been referred to here so 
often. He says, other findings of the Select Committee, that 
is, the Cox report as it is popularly known, ``other findings 
are relevant to the question of whether the Comprehensive Test 
Ban Treaty is in the case of the PRC verifiable.
    ``The Select Committee found that the PRC has acquired 
classified information about nuclear testing using miniaturized 
fusion explosions. This inertial confinement technique would be 
of special usefulness to the PRC should it choose to violate 
the Comprehensive Test Ban Treaty.''
    And finally, he says the Select Committee found that ``the 
PRC could further accelerate its nuclear development violating 
the Comprehensive Test Ban Treaty and testing 
surreptitiously.''
    Do you have any comment about that?
    Mr. Weinberger. I think there is no question as to the 
correctness of the Cox committee's findings and conclusions 
with respect to that. The problem, again, we keep going back to 
is, our nuclear stockpile necessarily degrades, it necessarily 
has problems with it as it ages, as do all weapons systems. 
Individual components can be picked out, they can take them 
apart, they can find one that is apparently visibly not in the 
kind of condition it should be. It is replaced. Whether that 
replacement part is going to work with the rest or not, we will 
not know, and you have the same changes that have occurred.
    There is also a great many more safety factors that can be 
put into nuclear warheads that we do not have in our older 
systems, and when they are added to the newer systems, or when 
they are built in, they need to be tested, too.
    All of this is an extraordinarily complex process, and it 
consists of thousands, as I say, of moving parts, and it is not 
known whether many computers that are around now, and I do not 
think even the ones we are waiting for in 2007 and 2008, will 
be able to tell us whether it actually will work under these 
kinds of conditions.
    So if we want to have a nuclear deterrent, and apparently 
everybody agrees we should have one, or at least most people, 
then we have to know that it works, and if we want to know that 
it works, we have to test it. We have to test it in the most 
effective means possible, and this treaty denies us the right 
to test it in the most effective means possible.
    We have stopped testing. Prior to the time we stopped 
testing, Dr. Barker, who served with me in the Defense 
Department, redlined--that is, he took offline a number of 
nuclear weapons six times prior to the time we stopped testing 
because, he said, they were no longer reliable, and they had to 
be repaired. They had to be fixed as a result of the test.
    Since the testing ended there have been no weapons 
redlined. The assumption seems to be that since we stopped 
testing everything is fine. Well, I cannot share that 
assumption. I do not think that is correct, and I do not want 
to take a chance.
    You just are not allowed any margin for error in this 
business, Mr. Chairman, and this treaty gives a very large 
margin for error, not only to us, but to any other country that 
has the stockpile or hopes to acquire them, and certainly when 
we deny ourselves the right to defend against them, the very 
least we can do is to make sure that our own offensive weapons 
are in working order.
    The Chairman. One other point, and this is a point of 
personal privilege. I have known Ambassador Kirkpatrick a long 
time. I have never, never known her to shade the truth or to be 
less than anything explicit in what she has said. If she is 
anything, she is very, very clear in what she writes and what 
she says and I don't mean to offend anybody, but I have got to 
take up for Jeane Kirkpatrick.
    Senator Biden. Mr. Chairman, on a similar point of personal 
privilege, I share that judgment. I disagree with her judgment. 
She is straightforward, on point. I think she is wrong 
sometimes, but I do not doubt for a moment her integrity. I do 
not doubt for a moment her clarity and I do not doubt for a 
moment that she means what she says.
    Ambassador Kirkpatrick. Thank you, Senator Biden.
    Senator Biden. I disagree with her. I think she is wrong.
    The Chairman. Well, I do not think she is wrong.
    Senator Biden. I know that. That is the issue.
    The Chairman. Now, since I have not had any time before, I 
want to go one step further in a question and that would be for 
the Ambassador, who after all, was, I believe you were the 
chief negotiator for this treaty, were you not?
    Now, I have heard over and over, sir, repeated claims by 
the administration that the CTBT before the Senate is, and I 
quote, ``the longest sought, hardest fought prize in the 
history of arms control,'' end of quote. Now, if there is 
anything expansive, that declaration seems to me to fit, but 
that is neither here nor there. Then it goes on to say, that it 
has been the negotiating objective of every President since 
Eisenhower, they say.
    Now, sir, we both know that that really is not so. Why is 
the administration making such inaccurate statements when not a 
single President before the current one ever sought a zero 
yielding definite duration CTBT? Can you explain it to me?
    Ambassador Ledogar. I would like to begin by agreeing that 
that is pretty colorful language and easy to pick apart. I 
think that what the authors are trying to recall is that 
approaches to the question of nuclear testing, and trying to 
curb it and to halt it, have gone back many, many years. And 
the famous statements by President Eisenhower at the end of his 
administration in connection with the passage of the Limited 
Test Ban Treaty and the Threshold Testing Treaty and so forth.
    But I wonder if I could, while I have the floor, in the 
change of the Senators during the voting I did not get a chance 
to respond to Senator Hagel's question, and I would like to be 
very brief.
    The Chairman. You certainly can, but let me finish my line 
because I have a commitment I have got to go to and Chuck, I am 
going to ask you to take the gavel when I finish here. But yes, 
sir, I want everybody to have his or her say. We have 
established now that this business about the longest sought, 
hardest fought prize in the history of arms control is bull. Is 
that right?
    Ambassador Ledogar. That is not my word. That is not my 
characterization, no.
    The Chairman. Well, how would you characterize it?
    Ambassador Ledogar. Hyperbole.
    The Chairman. That is a fancy way of saying ``bull.''
    Now, the truth of the matter is that even the current 
administration, the Clinton administration did not initially 
favor a permanent zero yield test ban. You know that.
    Ambassador Ledogar. Originally, that is true, Senator.
    The Chairman. Now, I refer you to the statement that John 
Holum made in Geneva in 1996, just for the record. He said, 
among many other things, and I am quoting him precisely, 
``Among many other things, the treaty does not contain our 
original proposal for an option to withdraw from the treaty at 
the 10-year mark without citing reasons of supreme national 
interest and our proposal that the treaty's scope provide room 
for so-called hydronuclear experiments with very small nuclear 
yields.''
    Now, was John Holum's characterizations and comments the 
characterizations on your original negotiating instruction from 
the administrations, was he saying what you were supposed to 
say?
    Ambassador Ledogar. Yes, but Mr. Chairman, as I think we 
all know, these negotiations take a long period of time. Things 
change during the course of the negotiations. Original 
instructions are often modified for a variety of reasons 
including historical, technological, financial, political 
developments that occur. For example, Secretary Weinberger 
alluded to the very successful negotiation on intermediate 
range nuclear forces that spanned over about a half a decade. I 
think he should also have pointed out that in the process many 
things changed, most importantly, at the expense of billions of 
dollars, we deployed hundreds of intermediate range nuclear 
weapons of our own. Also there was a change in the leadership 
in Moscow. And of course the zero zero thing which was 
considered difficult at the origin of the INF became a reality 
at the end of that 5 year period. Similar things happened in 
this negotiation.
    The Chairman. I respect you, sir, and I accept what you 
say, but it is true the treaty proposed to the Senate is not 
what the Clinton administration initially supported. Is that 
not true?
    Ambassador Ledogar. That is true.
    The Chairman. I thank you, sir, and I thank all three of 
you, and I am going to turn the gavel over to the distinguished 
Senator from Nebraska, and I apologize for having to leave, but 
I do appreciate your coming, and if you will stay further to 
respond to Senators who have arrived since we started this 
hearing.
    Senator Hagel [presiding]. Senator Kerry.
    Senator Kerry. Thank you very much, Mr. Chairman. I thank 
the panel for taking the time to be with us and share an 
obviously deeply held point of view by a number of people who 
oppose the treaty. I find myself a little bit baffled by some 
of the intensity of the confidence and reliability questions, 
particularly given the way the treaty has been structured.
    One of the benefits of my years in the Navy was that I went 
to nuclear chemical biological warfare school and got to learn 
a little bit about some of this, and wear some of the 
protective clothing and deal with it, and it was a fascinating, 
fascinating learning experience. What puzzles me about this 
debate is, based upon what we know about the complexity of a 
warhead and how to put one together, and particularly based on 
the experience of the United States, and if you were to ask 
people at Hiroshima or Nagasaki about confidence levels, even 
in an early model, they would be pretty blunt about the 
confidence level if the United States threatened to drop even 
an early model nuclear weapon, let alone the sophistication we 
have today in our manufacturing processes.
    Now, I would be amazed if 10 years from now I were to ask 
any of you sitting at this table if we took at random 10 
warheads from our many thousands and I offered you a choice, I 
said I am going to drop these 10 on your home town, I think 
each of you would say, please do not do that. Am I correct? 
Would you not, Madam Ambassador?
    Ambassador Kirkpatrick. Of course.
    Mr. Weinberger. I would rather not have any.
    Ambassador Ledogar. Of course.
    Senator Kerry. And the reason is, you have a pretty good 
confidence level that 10 years from now one of them is going to 
go off, if not all 10, is that not correct?
    So what are we talking about here in terms of deterrence? 
There is a 10-year review in this treaty. There is a series of 
safeguards adopted by the President and the Joint Chiefs of 
Staff that say that if at any time confidence and reliability 
is insufficient, we pull out.
    Are you saying to me that in a 10-year period of time you 
believe the confidence level of those 3,000-plus that we might 
get to under START, or the many thousands more, is somehow not 
going to have the same confidence level that you just 
determined to any dictator, to anyone anywhere on the face of 
this planet that they want to run the risk that if we fired 100 
of them, 200 of them, it is not the end of humankind as we 
understand it?
    Mr. Weinberger. Some of them will work, some of them will 
not.
    Senator Kerry. Wait a minute, do not dismiss it with some 
of them will work, some of them will not. What I remember 
learning in school 30-plus years ago was, it does not take more 
than the number on my two hands, to pretty much take care of 
business.
    Mr. Weinberger. Well, if you do not have any defense 
against it.
    Senator Kerry. I am game for defense, Mr. Secretary. That 
is a moot issue now. We are going down the road of missile 
defense. We just had a very successful test, most of us have 
adopted the notion that we ought to have some reasonable----
    Mr. Weinberger. I do hope so.
    Senator Kerry. But let us come back to deterrence.
    Mr. Weinberger. I think, Senator, as you point out, some of 
them will work, some of them will not, but your confidence in 
the total package does degrade over time, and that is an 
important element of deterrence, the entire amount are going to 
work and do the job.
    Senator Kerry. Well, let us talk about that, too.
    Mr. Weinberger. One thing I would like to talk about, if I 
might, and that is, you talk about the idea that we have the 
right to withdraw if our national interest is affected.
    Senator Kerry. Supreme national interest is the word.
    Mr. Weinberger. The fact of the matter is, we have that 
same kind of provision in the antiballistic missile treaty, and 
this President has announced he will never use it. This 
President has said, we based our entire defense on the ABM 
Treaty. That kind of a clause, Senator, is only useful if you 
have an administration that understands the importance of 
pulling out.
    Senator Kerry. But they are very different. They are truly 
different. This safeguard says that if the President is 
informed by the Secretary of Defense and Secretary of Energy, 
advised by the Nuclear Weapons Council, the directors of DOE's 
nuclear weapons laboratories, and the Commander of the U.S. 
Strategic Command that a high level of confidence in the safety 
or reliability of a nuclear weapon type which the two 
Secretaries consider to be critical to our nuclear deterrent 
could no longer be certified, the President, in consultation 
with Congress, would withdraw from the CTBT under the supreme 
national interest.
    Mr. Weinberger. Senator, do you have the President's 
response to that? Do you have his exact statement as to what he 
said? He said, in the event I were informed by the Secretary of 
Defense and Secretary of Energy and the Vice President of the 
Nuclear Weapons Council, the directors of the Energy 
Department's nuclear weapons labs, and the Commander of the 
U.S. Strategic Command that a high level of confidence in the 
safety or reliability of a nuclear weapons deterrent, which the 
two Secretaries consider to be critical to our nuclear 
deterrent, could no longer be certified, I would be prepared, 
in consultation with the Congress, to exercise our supreme 
national interest rights under the CTBT in order to conduct 
whatever testing might be required.
    That is something far less than a commitment, and that is 
the kind of thing you get from this administration, if you 
pardon me.
    Senator Kerry. It says right here that there is a 
requirement to consult with us.
    Mr. Weinberger. Well, he is not part of that requirement.
    Senator Kerry. On the contrary, he said he would.
    Mr. Weinberger. He said he would be prepared to----
    Senator Kerry. I do not want to get sidetracked, because 
this is very important. It seems to me that the President of 
the United States, whoever it might be, he or she, would have a 
remarkably hard time contravening all of the parties we have 
just named, as well as facts.
    I mean, we are all Americans. We are all sitting here with 
the interests of the country's national security in mind. I 
cannot imagine being informed by all of them, as responsible 
Members of Congress, and not breaking down the walls of the 
White House saying, you folks better respond to this, if it is 
a legitimate threat.
    What we are trying to do is establish sort of where we are 
today in this context, Mr. Secretary. I do not want some willy 
nilly silly treaty signed onto. I certainly do not want the 
interest that I wore a uniform to protect negated. I do not 
want that. But I fail to see--I mean, let me be more blunt 
about it. What is the component of a nuclear warhead that you 
believe would deteriorate over 10, 15 or 20 years that could 
not be replaced, or ascertained as to its degradation 
sufficiently?
    Mr. Weinberger. It could be replaced, but will a 
replacement work in conjunction with the other parts?
    Senator Kerry. Well, let us look at that in a practical----
    Senator Hagel. Senator Kerry, let us get to Senator Biden. 
We have been keeping with a 10-minute rule here, and allow 
everybody a chance to say something and respond, and we will 
come back around.
    Senator Kerry. Fair enough.
    Senator Biden. Well, let me just pick up there.
    Mr. Secretary, I thought you said in your statement that at 
present the security stockpile is not effective. Is that what 
you said?
    Mr. Weinberger. I am sorry.
    Senator Biden. I thought you said in your original 
statement--please correct me if I am wrong--that at present the 
security stockpile safeguards are not effective.
    Mr. Weinberger. Not as effective as they should be.
    Senator Biden. Does that mean we should resume testing now?
    Mr. Weinberger. I think we should reserve to ourselves the 
right to resume testing whenever we feel that it is essential 
to our national interest. To deny ourselves that right I think 
is against the national interest.
    Senator Biden. What I am asking you is, do you think it is 
in our national interest now to resume testing?
    Mr. Weinberger. I think I would feel more comfortable if 
more testing were done than has been done since 1992. I think 
it is significant that up to that time we had four or five 
occasions in which we were told that we could not use the 
weapons that we had in the stockpile and they should be 
redlined, and that since we stopped testing, there has been no 
similar statement made, no similar request made. That, I think, 
is significant.
    Senator Biden. The explanation I got for that when I asked 
the lab directors was that technology has moved way on beyond 
when you were Secretary of Defense.
    Mr. Weinberger. I hope it has.
    Senator Biden. That is what they say. I would point out 
that what we had from 1953 there was a tri-lab study. The three 
laboratories studied our stockpile surveillance methods in 
1996, and they reported the following: there were 830 recorded 
findings of defects in our nuclear stockpile from 1958 to 1993.
    Less than 1 percent of these defects were found as a 
consequence of nuclear testing. Nuclear testing was not 
required. In 1 percent of the tests, which was 8.3 of them. 
Excuse me. That is not true. Yes, that is right. All but one of 
those nuclear tests involved items that were in the inventory 
before 1970 and are not in the inventory any more.
    So this idea--and Dr. Robinson, Director of Sandia, said, 
what I can say is that the kinds of stockpile problems that 
would lead to such an erosion in our confidence seems highly 
unlikely during the next 5 to 10 years, and he is talking about 
when the computers come on.
    But my question is this. The whole idea of our inability to 
exchange warheads, for example, that we could not exchange 
warheads, I hear opponents constantly say that. We have done it 
twice without nuclear tests. We have taken the B-61 and made it 
the B-61 mod 11 earth-penetrating device, a new warhead. No 
tests. We were able to do it. I mean, no nuclear tests.
    And we also have done the same thing--well, I want to make 
sure I am absolutely accurate. I will not repeat what I think 
is the case, but I do know with regard to that single warhead 
we did that without any tests, and so we did change the nature 
and capability of a warhead in our arsenal with absolute 
confidence on the part of the scientists at the three 
laboratories to certify it without any tests.
    Now, there is no question, I heard--I hear Senator Warner 
say, because he has given me the privilege of attending all of 
the Armed Services Committee hearings, and was kind enough to 
allow me to question as well, he has said it is irrefutable 
that weapons systems degrade. That is true, no question about 
it. It is irrefutable the older we get, our memory degrades.
    Now, maybe someone 90 years old has a better memory than 
the average person who is 15 years old, but the person who is 
90 years old had a better memory when they were 12. That is 
irrefutable. Irrefutable. I am still listening to your 
testimony. People are still listening to mine after 27 years, 
and I am older. My memory is not as good. Yours is not as good. 
That does not mean that we should discount what you say, any 
more than this notion--it is a matter of relative change.
    And so the question I would get to, instead of these broad 
statements, no one that I have heard has indicated that the 
degradation in weapons systems that may have occurred from the 
time we stopped testing till now has had any impact upon our 
reliability, or the reliability of either the safety and/or the 
reliability of the weapons, meaning that they will explode when 
we shoot them off, and so--and by the way, the Cox Commission 
report, let me quote from it.
    Cox himself said, quote, ``the CTBT, if it were enforced, 
and that is the big issue, would be a means of preventing the 
more rapid weaponization and development of a new PLA nuclear 
weapons.'' That was stated in the report May 25, 1999.
    Now, I did not suggest and I do not imply that Mr. Cox is 
for this. He is a loyal Republican in this case. I would be 
dumbfounded if he was for this, dumbfounded if he would be for 
this treaty for a lot of other reasons. He may have substantive 
reasons of being against it, because it cannot be verified, but 
not because it puts us at worse prospect of dealing with the 
Chinese.
    A last point I will make, and my time I see is up, this 
notion, Madam Secretary, or Madam Ambassador, of exchange of 
data, you equate the IAEA with the sharing of data here. The 
only sharing of data here are seismic readings and emissions. I 
have not heard a single person suggest that any of the sharing 
of the information that would be required to be had here 
relative to someone violating the treaty has any utility for 
any upstart nation, like IAEA did, any utility to allow them to 
develop any weapons.
    Now, it may help them develop their seismic capabilities, 
their meters to develop earthquake detection or something, but 
it has zero--zero. The analogy, unless I am missing something, 
is absolutely inappropriate.
    Now, did you mean to suggest they could learn from this 
data, that they could learn, under page 17, section B, 
international monitoring system, paragraph 16 and 18, which is 
what we are talking about here, do you mean to suggest that 
they could learn from the data shared anything that could help 
them in developing nuclear capability? Was that your assertion?
    Ambassador Kirkpatrick. My understanding, Senator Biden, is 
that all member states will have access to the data from the 
monitoring.
    Senator Biden. But let me explain what it says. It says, 
``international monitoring systems shall comprise facilities 
for seismological monitoring, radio nuclei monitoring, 
including certified laboratories, hydroacoustics monitoring, 
infrasound monitoring receptive means of communication, and 
that shall be supported by an International Data Center and a 
technical secretariat.'' That is the monitoring. It is not 
monitoring of how they fly, or how they explode, or anything 
like that. It is if they exploded.
    Ambassador Kirkpatrick. My understanding is they would have 
access to the data center, and the access to the data center 
could, in my understanding be quite useful.
    Senator Biden. Let me ask, if I may, and I know my time is 
up----
    Senator Hagel. Take one more minute, Senator.
    Senator Biden. Since you negotiated this, assume----
    Ambassador Ledogar. First of all, you are right, Senator, 
that the International Data Center has nothing but unclassified 
information. It is available to--all of it, which is an 
enormous amount, available to all State parties. Each State 
party may say, I only want some of it, and set up its own 
filtration system.
    In a different part in the appendix, in the verification 
protocol to the treaty, there are safeguards in there that 
refer to what I think Ambassador Kirkpatrick might be referring 
to, namely that international inspectors onsite, whether or not 
they can or cannot profit with roving eyes and sticky gumshoes 
and so forth, and we have built into this treaty a series of 
measures that make that extremely difficult.
    Senator Biden. That is the onsite inspection?
    Ambassador Ledogar. That is the onsite inspection, that is 
right, and incidentally, onsite inspection is an essential 
difference between what we are trying to install here and the 
IAEA regime.
    Senator Hagel. Thank you. Let me roll it over onto my time, 
Senator Biden, if Secretary Weinberger has anything to say 
about this.
    Mr. Weinberger. Well, I think it is a little late to be 
worried about what they might be able to see in the monitoring 
of a treaty that is not yet in force, when they have already 
got the vital data. They have got the warheads, and that is the 
critical point. They already have them. They have tested, 
proven warheads. That would have saved them at least 15 years 
of work on their own, the Chinese, under the Cox report, and 
that is the critical factor here.
    I think there is a possibility, with the monitoring regime 
that is set up, that they might be able to learn a little bit 
more, but the fact of the matter is that they have already got 
the vital data. They have got the warhead itself.
    Senator Hagel. This afternoon, when we come back in about 
an hour, we are going to have, as my colleagues know, the 
chairman of the Senate Select Committee on Intelligence, and 
the ranking member as well as the chairman of the Armed 
Services Committee and the ranking member, and I suspect we 
will want to get into some of this with them.
    I would just add, before I move on to a couple of questions 
I have, that it is my understanding that much of the data we 
are talking about here is previously classified data, so the 
current data we are not sure of, but I would hope that we will 
reengage this with our intelligence brethren this afternoon.
    Now, not so that you feel unloved and unrecognized, 
Ambassador Ledogar, you still want to respond to a question 
that I had asked earlier, and you did not have time to do that, 
and if you would still like to respond, we would like very much 
to hear your response.
    Ambassador Ledogar. Thank you, sir, and I recognize that I 
am a treaty supporter, so my answer is not precisely to your 
question, which was, as I recall, if you do not like this 
treaty, what do you propose instead.
    So with that caveat, let me say that I would like to make 
clear my judgment that if you kill this treaty, you have killed 
an international treaty for as far into the future as I think 
we can see. It is not so that you could begin for the P-5 an 
alternative arrangement. You could not, with the P-5 plus the 
3. That just simply would not work, and the international 
pressures are significant.
    Now, a key question which I wish you had continued is, if 
this treaty is killed, and we the United States resume nuclear 
testing, then what? Or if the treaty is killed, and we continue 
the moratorium, then what? And then you get into two other 
important hypotheses that I wish there were time to speculate 
about, but that is the distinction I wanted to make, and I 
thank you.
    Senator Hagel. Thank you, and I am grateful for your 
followup. Let us stay on some of this same area. In Ambassador 
Kirkpatrick's testimony--I am going to read a little bit of it 
back just to familiarize all of us with what she said.
    Quote, Ambassador Kirkpatrick said, ``finally I should like 
to call the committee's attention to the governance of the 
organization which will administer it. I note all state parties 
are members. No state party can be excluded. It will operate on 
the principle of one state, one vote, with an executive council 
that is based on geographical representation comprising,'' and 
so on and so on, and if you recall that exchange in her 
testimony, that seems to me to be a rather important element of 
this treaty for all the reasons that I think we all vividly 
understand. Would you care to comment on Ambassador 
Kirkpatrick's point?
    Ambassador Ledogar. Yes, thank you very much, I would, 
because first of all the United States is guaranteed a seat on 
the executive council. So is Russia, so is China, so is 
Britain, and so is France.
    Now, those guarantees are not in the treaty text. Those 
guarantees are inside arrangements among our regional groups, 
informal arrangements, but nevertheless, it was made quite 
clear by each of the nuclear weapons states that everyone was 
equal except we, in our respective groups, were more equal than 
others, so that we have de facto permanent seats on the 
executive council.
    Senator Hagel. Does that work by election?
    Ambassador Ledogar. The rotation is set, at least in the 
Western group. I do not know the details about how the other 
groups settled their arrangements. In the Western group we have 
agreed on a rotation out for at least the next 20 years after 
entry into force.
    Senator Hagel. Does that concern you?
    Ambassador Ledogar. It certainly concerned me, to be sure, 
and I was under very strict instructions to be sure that in any 
circumstance the U.S. would always be on the executive council, 
and we did that.
    Senator Hagel. And by virtue of how, by what would that be 
the case, that we would be guaranteed a seat, if it is not 
written into the treaty?
    Ambassador Ledogar. Because it is written into an informal 
side document just among the Western groups. I am being 
referred to page 131, but I do not have time to read it.
    Senator Hagel. What happens after 20 years?
    Ambassador Ledogar. It would in essence rotate back to the 
beginning again, because all the countries in the groups are 
provided for.
    Senator Hagel. Meaning that we may not have a seat?
    Ambassador Ledogar. No. We will always have our permanent 
seat.
    Senator Hagel. By virtue of the side agreement?
    Ambassador Ledogar. By virtue of the side agreement.
    Senator Hagel. Let me ask Ambassador Kirkpatrick if she 
wishes to respond to any of that, because I think this is a 
very important part of what we are doing here, regardless of 
the technicality of the importance of all these issues, and 
they are important, but the governance of this is pretty key in 
my opinion.
    Ambassador Kirkpatrick. I think it is very key, which is 
why I mentioned it. Usually----
    Senator Hagel. Excuse me, Madam Ambassador, would you pull 
your microphone up just a little bit?
    Ambassador Kirkpatrick. I said, I think it is very 
important, which is why I mentioned it in my testimony. I think 
too often these issues get ignored. I suppose when you said the 
side agreement, you mean an informal side agreement, however.
    Senator Hagel. Is that correct, an informal side agreement?
    Ambassador Kirkpatrick. It is not the members of the 
Western group.
    Ambassador Ledogar. That informal agreement provides for an 
orderly change-over for at least the next 20 years, but the 
treaty itself provides for a seat for--let me read it, if I 
may, and I am reading from page 130 of the text before you.
    ``At least one-third of the seats allocated to each 
geographical region shall be filled taking into account 
political and security interests by States parties that in that 
region are designated on the basis of the nuclear capabilities 
relevant to the treaty, as determined by international data, as 
well as all or any of the following indicative criteria in 
order of priority determined by each region.
    ``First, number of monitoring facilities of the 
international monitoring system, second, expertise, experience 
in monitoring technology, third, contribution to the annual 
budget of the organization.''
    Now, that is a diplomatic way of saying we are more equal 
than others, and so are other key countries.
    Senator Hagel. Let me ask Ambassador Kirkpatrick to respond 
to that.
    Ambassador Kirkpatrick. Well, I would only say that it can 
be read that way, but it could also be read to guarantee the 
inclusion of major nuclear powers.
    Now, I think that in the Western group we deal in 
confidence for the most part--I expect that that informal 
assurance would be honored by the Western group.
    I would also add, however, that if it is--and I think it is 
desirable that the United States be guaranteed a seat, or 
effectively guaranteed a seat. I would also point out, however, 
that we constitute a real minority, a rather small minority of 
a large executive council, and it is unlikely that the 
decisions will be made on technical grounds.
    U.N. bodies are very highly political bodies. Most people 
who have not functioned in the U.N. do not understand this, and 
I wish every one of you would spend a session at the United 
Nations. It does not function as almost anyone expects that it 
does, and it is chastening to be a minority in a body in which 
a large majority of whom are united by other interests. It is 
my recommendation to you that before you recommend another 
treaty to us which has such a governing body, I hope you will 
go spend a session at the United Nations, in the General 
Assembly.
    Senator Biden. A point of clarification. The Western group 
gets 10 seats, and one-third of them get to sit on this 
executive committee? There is 10 seats on the council?
    Ambassador Ledogar. No, there are 51 seats.
    Ambassador Kirkpatrick. The executive committee.
    Senator Biden. There is 10 seats for North America on the 
council, right?
    Ambassador Kirkpatrick. No, North America and Western 
Europe.
    Senator Biden. Well, if by that time, if there is 10 seats 
and we do not get one, there is room for Britain and France, 
the other two nuclear powers, then something has really gone 
wrong, and we will be out of this treaty anyway. If that has 
gotten to the point where with 10 seats the United States does 
not get one on the council, I find that--I mean, if you all 
envision a world like that, I am with you, man, let us bomb 
them now. Let us not wait.
    Ambassador Kirkpatrick. People in the United Nations, 
Senator Biden, become irritated with the United States from 
time to time, and they exclude us from important bodies, as we 
were excluded from the Budget Committee for the last 2 or 3 
years. We were never excluded from an important committee while 
I was there, I would like to say.
    Senator Hagel. Let me exercise the prerogative of the 
chair, because I know you all have to leave. You have been here 
for 2\1/2\ hours, which we are grateful for two yes or no 
questions. Any other side agreements we do not know about?
    Ambassador Ledogar. Considering the formal word 
``agreement,'' I would have to say there are no other side 
agreements. There are memoranda. There are, including some 
classified documents, memoranda of understandings and letters 
that have been exchanged. They are summarized in the material 
that has been put before you in unclassified fashion, 
particularly page 4 and page 5 of the article by article, about 
the scope explanation.
    Senator Hagel. So----
    Ambassador Ledogar. The answer is no, there is no agreement 
that you do not have before you.
    Senator Hagel. Are side agreements binding in this treaty?
    Ambassador Ledogar. Well, they are very strong, but they do 
not have the force of international law.
    Senator Hagel. But they are not binding.
    Gentlemen, ladies, thank you. I am sorry to do this. I know 
our colleagues have more questions and time, but I know at 
least two of you have to be out of here by 1. You have been 
here for 2\1/2\ hours. The committee stands in recess until 2 
p.m.
    [Whereupon, at 1 p.m., the committee adjourned, to 
reconvene at 2 p.m., the same day.]


FINAL REVIEW OF THE COMPREHENSIVE NUCLEAR TEST BAN TREATY (Treaty Doc. 
                                105-28)

                              ----------                              


                       THURSDAY, OCTOBER 7, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.

                           Afternoon Session

    The committee met, pursuant to notice, at 2:45 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Jesse Helms 
(chairman of the committee) presiding.
    Present: Senators Helms, Hagel, Smith, Grams, Brownback, 
Ashcroft, Frist, Biden, Kerry, Feingold, and Boxer.
    The Chairman. The committee will come to order. The Foreign 
Relations Committee now resumes its final hearing on the 
Comprehensive Test Ban Treaty. And what an array of colleagues 
we have there, Mr. Biden.
    Senator Biden. Mr. Chairman, that would scare any adversary 
away.
    The Chairman. I do not know what the protocol is, but first 
we are going to hear from the distinguished chairman of the 
Senate Armed Services Committee, Senator Warner, who will 
report on the 3-days of extensive CTBT hearings the committee 
held this week, and he is joined by the distinguished ranking 
member of the Armed Services Committee, Carl Levin.
    And then we will hear from the chairman of the Senate 
Intelligence Committee, Senator Shelby, who will report on his 
committee's findings on this treaty, and from the vice chairman 
of that committee, Senator Bob Kerrey. And on our second panel 
we will hear from Secretary of State Madeleine Albright, who is 
in my office next door and I will wave to her, and she is 
coming to hear you herself.
    And finally, we will hear from several distinguished arms 
control experts, former ACDA director Ron Lehman, chairman of 
the Nevada Alliance for Defense, Energy and Business, Mr. Troy 
Wade, and Dr. Richard Garwin, senior fellow for Science and 
Technology at the Council on Foreign Relations, and in the 
interest of time, I'm going to forego any further comments. 
Senator Biden.
    Senator Biden. Mr. Chairman, I would forego my opening 
statement until our colleagues have finished, but I would like 
to before the Secretary speaks to make an opening statement.
    The Chairman. You bet. You bet. Senator Warner.

   STATEMENT OF HON. JOHN WARNER, U.S. SENATOR FROM VIRGINIA

    Senator Warner. Mr. Chairman, Senator Biden, colleagues, I 
think this is a very wise opportunity for this group to provide 
for this committee and for the public our individual views and 
those views relating to what do we do now with regards to the 
procedural situation confronting the U.S. Senate, a situation 
that was not of your making, Mr. Chairman, or mine or others.
    Mr. Chairman, first I have for some 30 years been involved 
in national security issues beginning in 1969 when I went to 
the Department of Defense and now 21 years on the Senate side 
in the Armed Services Committee, and the subject of this 
category of weapons, the nuclear weapons, has been foremost in 
my work these many, many years. I have looked at this treaty, I 
have studied this treaty, and to the extent I could force my 
mind open, I have carefully evaluated superb testimony that the 
Armed Services Committee has received in the past 3 days.
    I would vote today against this treaty. I would not 
recommend that this President or, indeed, the successor 
President start testing. And mind you, Mr. Chairman, given that 
the tests in Pakistan and India occurred, the law which 
precluded testing is now vitiated. That is a small footnote.
    But, Mr. Chairman, the key to this thing is as follows: We 
have had witnesses on both sides of every issue, conscientious 
persons, persons who have dedicated 10, 15, 20 years of their 
life to providing America with a strong nuclear deterrent. They 
honestly differ. I say to you, Mr. Chairman, and members of 
this committee, there are honest differences on both sides 
leaving clearly a reasonable doubt, and I come from the old 
school that it should be beyond any reasonable doubt if we are 
going to take a step that affects our vital security interests 
for decades to come, indeed possibly into perpetuity as it 
relates to this cadre of weapons.
    The United States today possesses the strongest 
conventional force. Russia's conventional force is dwindling. 
The NATO countries are cutting back. Indeed, our allies, Great 
Britain and France, are cutting back on conventional forces. 
The nuclear arsenals are taking on, particularly in Russia, a 
greater and greater significance with regard to their military 
and strategic planning.
    And at that very time we cannot take any step, most 
particularly this treaty in its present form, that would weaken 
that deterrent. It is that deterrent, Mr. Chairman, that 
prevented any confrontation of a significant nature on the 
continent of Europe for 50 years. We celebrated here in the 
Nation's capital just months ago the 50th anniversary of NATO, 
NATO not having been involved in a major conflict for those 50 
years, and now, of course, we have had the Bosnian conflict 
situation in Kosovo. But it was that nuclear deterrent that 
held at bay the Soviet Union, and now this treaty puts that in 
jeopardy.
    The witnesses that have come before our committee, the ones 
that had the most difficult time, I believe, were the uniformed 
witnesses because they want to do what they can to support 
their Commander in Chief, but they gave us their best 
professional advice. Others who have retired likewise submitted 
statements.
    But, Mr. Chairman, the key to every single uniformed person 
today supporting this treaty is the safeguard provision which 
says you can pull out 5, 10, 15 years hence if the President 
cannot certify that that stockpile is credible and safe.
    Now, Mr. Chairman, our committee under my guidance and that 
of my colleague stayed very clearly to our jurisdiction, the 
military implications. But I hope you will develop, 
particularly with the Secretary of State, the question that 
needs to be answered--what happens if we pull out of that 
treaty 5 or 10 years hence, what happens to those nations that 
placed in us full faith and credit as we went ahead--that will 
not happen, but anyway if we went ahead and ratified this 
treaty, what happens to those nations? We leave them out there 
hanging naked 10 or 15 years from now. Naked in the sense that 
they have not taken such steps as they may wish to develop a 
nuclear deterrent, but more importantly, by taking that action 
and pulling out, we have to signal to the world that we have 
less than full faith and credit in the effectiveness of our 
nuclear stockpile as a deterrent and for safety.
    Let me touch on safety a minute. I have seen these weapons. 
I have actually gone up and touched them, just out of 
curiosity, and I asked General Shelton the following question: 
In his career, had he handled them, and he said of course he 
had, all of them.
    And I said, put yourself in the uniform of a young sailor, 
an airman or marine today that has to deal with storing the 
weapons, that has to deal with bringing them out from time to 
time and putting them in the various launch platforms, be it 
submarines, airplanes or whatever the case may be. And you 
cannot say to that sailor, that airman, that marine that it is 
absolutely safe for you to deal with those weapons. And there 
are many civilians that likewise have to work with them, and 
these weapons are stored and collocated in various places in 
America, and indeed, Mr. Chairman, beyond our shores. What do 
you say to nations as they are following this that are 
providing the host facilities for storage that there could be a 
point in time when we do not have the degree of confidence in 
the safety of these weapons?
    Mr. Chairman, I hope and I have had the privilege of 
working with my good friend Senator Levin, Senator Biden, some 
others just as colleagues do, we have all been here two decades 
or more, to see whether or not there is not--and I know the 
Chair has spoken to this--is not a means by which we can bring 
reasonable and open and rational minds together to work what is 
in the best interests of not only our Nation, but indeed the 
world, and at this time not to bring to finality by vote a 
decision on this treaty. I hope that that is done, but if the 
committee is interested at some point, I would be glad to give 
you the benefit of one Senator's view as to how it can be done, 
but I would be presumptuous at this point in time.
    I think I should yield to my other colleagues. I have 
covered the principal points. I may have a point or two after I 
listen to them. I thank the Chair.
    The Chairman. Very good. Senator Shelby.

 STATEMENT OF HON. RICHARD C. SHELBY, U.S. SENATOR FROM ALABAMA

    Senator Shelby. Thank you, Mr. Chairman, Senator Biden, 
colleagues. It is a privilege for me to appear before this 
committee at this time to present my views as the chairman of 
the Senate Select Committee on Intelligence. I am and I want to 
be very specific here. I am speaking in my capacity as chairman 
of the Intelligence Committee, but I should make it clear that 
I am not, Mr. Chairman, speaking for the entire committee. I 
think that is important.
    Due to the limited time available, the Intelligence 
Committee has not, Mr. Chairman, prepared a full committee 
report on the capability of the United States to monitor 
compliance with the CTBT. Furthermore, members of the committee 
have differing opinions on this issue.
    Mr. Chairman, I intend at the proper time to vote against 
the resolution on ratification. I will do so for a number of 
reasons, but primarily because it is my considered judgment as 
chairman of the Intelligence Committee based upon a review of 
the intelligence analysis and on testimony this week from the 
intelligence community's senior arms control analysts that it 
is impossible to monitor compliance with this treaty with the 
confidence that the Senate should demand before providing its 
advice and consent for ratification.
    Mr. Chairman, simply put, at this point I am not confident 
that we can now or can in the foreseeable future detect any and 
all nuclear explosions prohibited under the treaty. While I 
have a greater degree of confidence in our ability to monitor 
higher yield explosions in known test sites, I have markedly 
less confidence in our capabilities to monitor lower yield and/
or evasively conducted tests, including, Mr. Chairman, tests 
that may enable states to develop new nuclear weapons or 
improve existing weapons.
    At this point I should point out that while the proponents 
of the treaty have argued that it will prevent nuclear 
proliferation, the fact is that some of the countries of most 
concern to us--North Korea, Iran, and Iraq--can develop, Mr. 
Chairman, as you know, and deploy nuclear weapons without any 
nuclear tests whatsoever.
    With respect to monitoring, in July 1997, the intelligence 
community issued a national intelligence estimate entitled 
``Monitoring the Comprehensive Test Ban Treaty Over the Next 10 
Years.'' While I cannot go into the classified details here 
this afternoon, I can say that the NIE was not encouraging 
about our ability to monitor compliance with the treaty or 
about the likely utility of the treaty in preventing countries 
like North Korea, Iran, and Iraq from developing and fielding 
nuclear weapons. The NIE identified numerous challenges, 
difficulties, and credible evasion scenarios that affect the 
intelligence community's confidence in its ability to monitor 
compliance.
    Mr. Chairman, because the details are classified and 
because of the inherent difficulty of summarizing a very highly 
technical analysis covering a number of different countries and 
a multitude of variables, I recommend that members, including 
the members of this committee, review this document with the 
following caution: Based on testimony before the committee this 
week, I believe that newly acquired information requires 
reevaluation of the 1997 estimates, assumptions, and underlying 
analysis on certain key issues. The revised assumptions and 
analysis appear certain to lead to even more pessimistic 
conclusions.
    While the intelligence community has not yet provided the 
committee with a written analysis of those issues, the 
transcript from Tuesday's hearings in the Senate Intelligence 
Committee is available to Members. Many proponents of the 
treaty place their faith, Mr. Chairman, in monitoring aids 
provided under the treaty such as the international monitoring 
system, IMS, a multinational seismic detection system, and the 
CTBT's onsite inspection regime, OSI. Based on a review of the 
structures, likely capabilities, and procedures of these 
international mechanisms, Mr. Chairman, neither of which will 
be ready to function for a number of years, and based on the 
intelligence community's own analysis and statement, I am 
concerned that these organizations will be of at best limited 
if not marginal value. I believe that the IMS will be 
technically inadequate. For example, Mr. Chairman, it was not 
designed to detect evasively conducted tests which, if you are 
Iraq or North Korea, are precisely the kind you are going to 
conduct. It was designed, as you know, Mr. Chairman, with 
diplomatic sensitivities rather than effective monitoring in 
mind, and it will be 8 to 10 years before the system is 
complete.
    Because of these factors and for other technical reasons, I 
am afraid that the IMS is more likely to muddy the waters by 
injecting questionable data into what will inevitably be highly 
charged political debates over possible noncompliance. As a 
result, the value of more accurate, independently obtained U.S. 
information will be undermined, making it more difficult for 
the U.S. to make a case for noncompliance if it were to become 
necessary.
    And with respect to OSI, I believe that the onsite 
inspection regime invites delay and confusion. For example, 
while U.S. negotiators originally sought an automatic green 
light for onsite inspections as a result of the opposition of 
the People's Republic of China, now, the regime that was 
adopted allows inspections, as you know, Mr. Chairman, only 
with the approval of 30 of the 51 countries on the executive 
committee. Members of the committee will appreciate the 
difficulty of rounding up the votes for such a supermajority.
    Mr. Chairman, I am also deeply troubled by the fact that 
the inspected party has a veto, a veto over including U.S. 
inspectors on an inspection team and the right of the inspected 
party to declare areas up to 50 kilometers off limits to 
inspection. I understand these provisions are mere limitations 
sought by Saddam Hussein on the UNSCOM inspectors, which leads 
me to believe that some of the OSI standards could be what is 
cut out for Iraq.
    As a result of these and other hurdles, Mr. Chairman, even 
if inspectors do eventually get near the scene of a suspicious 
event, the evidence, which is highly perishable, may well have 
vanished.
    One final but critical matter that raises questions both as 
to Russian intentions under the CTBT as to our monitoring 
capabilities is the recently reported activity at Russia's 
Arctic test site. The Washington Post, as all of you know, last 
weekend reported that Russia continues to conduct possible low-
yield nuclear tests at its Arctic test site reportedly in order 
to develop a low-yield weapon, new low-yield weapon that will 
be the linchpin of a new Russian military doctrine.
    The Washington Post also reported that the CIA cannot 
monitor such tests with enough precision to determine whether 
they are nuclear or conventional explosions. Such activities, 
Mr. Chairman, will be of particular concern because there is 
evidence, including public statements from the Russian First 
Deputy Minister of Atomic Energy that Russia intends to 
continue to conduct low-yield hydronuclear tests and does not 
believe that these constitute nuclear tests prohibited by the 
treaty.
    Mr. Chairman, with your indulgence, I have tried to convey 
some very serious concerns with the practicality of this treaty 
and that is extremely difficult to do in an unclassified forum 
such as this in a short time.
    I urge my colleagues as they consider their position on 
this treaty that they immerse themselves in the details because 
it is in the details where the fatal flaws of the document lie. 
For further information on this, I urge Members to review the 
transcript of this week's Senate Intelligence Committee, and we 
will have it available in a secure place. Mr. Chairman, thank 
you for your indulgence.
    [The prepared statement of Senator Shelby follows:]

            Prepared Statement of Senator Richard C. Shelby

    Mr. Chairman, Senator Biden: It is a privilege to appear before you 
as Chairman of the Senate Select Committee on Intelligence to present 
my views on the Comprehensive Test Ban Treaty.
    I am speaking in my capacity as Chairman of the Intelligence 
Committee, but I should make it clear that I am not speaking for the 
entire Committee. Due to the limited time available, the Committee has 
not prepared a full Committee report on the capability of the United 
States to monitor compliance with the CTBT. Furthermore, Members of the 
Committee have differing opinions on this issue.
    I intend to vote against the Resolution of Ratification. I will do 
so for a number of reasons, but primarily because it is my considered 
judgment as Chairman of the Intelligence Committee, based on a review 
of the intelligence analysis and on testimony this week from the 
Intelligence Community's senior arms control analysts, that it is 
impossible to monitor compliance with this Treaty with the confidence 
that the Senate should demand before providing its advice and consent 
to ratification.
    I shall leave it to another day to elaborate on my concern that the 
Treaty may be a stalking horse for de-nuclearization. Its operative 
sentence, after all, on its face bans any nuclear explosion. This 
prohibition raises a question about the viability of any nuclear 
deterrent. There may be an explanation. But it is not in the Treaty 
text.
    Simply put, I am not confident that we can now, or in the 
foreseeable future, detect any and all nuclear explosions prohibited 
under the Treaty.
    While I have a greater degree of confidence in our ability to 
monitor higher-yield explosions in known test sites, I have markedly 
less confidence in our capabilities to monitor lower-yield and/or 
evasively conducted tests, including tests that may enable states to 
develop new nuclear weapons, or improve existing weapons.
    I should also point out that while proponents of the Treaty have 
argued that it will prevent nuclear proliferation, the fact is that 
some of the countries of most concern--for example, North Korea, Iran, 
and Iraq--can develop and deploy nuclear weapons without any nuclear 
tests at all.
    With respect to monitoring, in July 1997, the Intelligence 
Community issued a National Intelligence Estimate entitled ``Monitoring 
the Comprehensive Test Ban Treaty Over the Next 10 Years.''
    While I cannot go into classified details, I can say that the NIE 
was not encouraging about our ability to monitor compliance with the 
Treaty or about the likely utility of the Treaty in preventing 
countries like North Korea, Iran, and Iraq from developing and fielding 
nuclear weapons.
    The NIE identified numerous challenges, difficulties, and credible 
evasion scenarios that affect the Intelligence Community's confidence 
in its ability to monitor compliance.
    Because the details are classified, and because of the inherent 
difficulty of summarizing a highly technical analysis covering a number 
of different countries and a multitude of variables, I recommend that 
Members review this document, with the following caution:
    Based on testimony before the Committee this week, I believe that 
newly acquired information requires a re-evaluation of the 1997 
Estimate's assumptions and underlying analysis on certain key issues.
    These revised assumptions and analysis appear certain to lead, to 
even more pessimistic conclusions. While the Intelligence Community has 
not yet provided the Committee with a written analysis of those issues, 
the transcript from Tuesday's hearing is available to Members.
    Many proponents of the Treaty place their faith in monitoring aids 
provided under the Treaty: the International Monitoring System (IMS), a 
multinational seismic detection system, and the CTBT's On-site 
Inspection regime (OSI).
    Based on a review of the structure, likely capabilities, and 
procedures of these international mechanisms--neither of which will be 
ready to function for a number of years--and based on the Intelligence 
Community's own analysis and statement, I am concerned that these 
organizations will be of, at best, limited or marginal value.
    I believe that the IMS will be technically inadequate. For example, 
it was not designed to detect ``evasively'' conducted tests, which, if 
you are Iraq or North Korea, are precisely the kind you are going to 
conduct.

  <bullet> It was designed with diplomatic sensitivities rather than 
        effective monitoring in mind; and
  <bullet> It will be eight to 10 years before the system is complete.

    Because of these factors and for other technical reasons, I am 
afraid that the IMS is more likely to muddy the waters by injecting 
questionable data into what will inevitably be highly charged political 
debates over possible noncompliance.
    As a result, the value of more accurate, independently-obtained 
U.S. information, would be undermined, making it more difficult for the 
United States to make a case for non-compliance if it were to become 
necessary.
    With respect to OSI, I believe that the Onsite Inspection regime 
invites delay and obfuscation. For example, while U.S. negotiators 
originally sought an ``automatic green light'' for on-site inspections, 
as a result of the opposition of the People's Republic of China, the 
regime that was adopted allows inspections only with the approval of 30 
of the 51 countries on the Executive Committee. Members of the 
Committee will appreciate the difficulty of rounding up the votes for 
such a super-majority.
    I am deeply troubled by the fact that if the U.S. requested an 
inspection, no U.S. inspectors could participate in the inspection, and 
we could send an observer only if the Inspected Party approved.
    I am also disturbed by the right of the inspected party to declare 
areas up to fifty kilometers off-limits to inspection.
    I understand that these provisions mirror limitations sought by 
Saddam Hussein on UNSCOM inspectors, which leads me to believe that OSI 
stands for ``Option Selected by Iraq.''
    As a result of these and other hurdles, even if inspectors do 
eventually get near the scene of a suspicious event, the evidence--
which is highly perishable--may well have vanished.
    One final, but critical, matter that raises questions both as to 
Russian intentions under CTBT and as to our monitoring capabilities is 
the recently-reported activity at Russia's Arctic test site.
    The Washington Post last weekend reported that Russia continues to 
conduct possible low-yield nuclear tests at its Arctic test site, 
reportedly in order to develop a new low-yield weapon that will be the 
linchpin of a new Russian military doctrine. The Washington Post also 
reported that the CIA cannot monitor such tests with enough precision 
to determine whether they are nuclear or conventional explosions.
    Such activities would be of particular concern because there is 
evidence, including public statements from the Russian First Deputy 
Minister of Atomic Energy, that Russia intends to continue to conduct 
low-yield hydro-nuclear tests, and does not believe that these 
constitute nuclear tests prohibited by the Treaty.
    Mr. Chairman, I have tried to convey some very serious concerns 
with the practicality of this Treaty and that is extremely difficult to 
do in an unclassified forum and in such a short time.
    I urge my colleagues, as they consider their position on this 
Treaty that they immerse themselves in the details, because it is in 
the details where the fatal flaws of document lie.
    For further information on this topic, I urge Members to review the 
transcript of this week's testimony before the Intelligence Committee.
    Mr. Chairman, Senator Biden, thank you for the opportunity to 
testify before this distinguished committee.

    The Chairman. Very good. I thank you, sir. Carl, Senator 
Levin.

    STATEMENT OF HON. CARL LEVIN, U.S. SENATOR FROM MICHIGAN

    Senator Levin. Thank you, Mr. Chairman, and Senator Biden, 
and colleagues. Thank you for inviting us to testify about our 
own beliefs, but perhaps even more importantly, what we have 
heard in our hearings in our own committees.
    President Eisenhower stated almost 40 years ago that the 
failure to achieve a nuclear test ban would, in his words, 
``have to be classed as the greatest disappointment of any 
administration, of any decade, of any time, and of any party.''
    The central question that we face, however, every one of us 
as Senators, is whether or not this treaty will make us safer 
or less safe; whether it will make us more secure or less 
secure as a Nation.
    The Secretary of Defense, the Chairman of the Joint Chiefs 
of Staff, every member of the Joint Chiefs of Staff, our top 
military leadership, civilian and uniformed, support this 
treaty. That is the testimony that we heard. It was strong 
testimony. It was not testimony which was qualified by any 
personal reservation that they are trying to support their 
Commander in Chief, or that they are doing the best they can. 
It was their own personal view, directly stated to us, looking 
us in the eye because we asked them, eyeball to eyeball, do 
you, Chairman Shelton, do you, Secretary Cohen, support the 
ratification of the treaty, and they said that they do.
    General Shelton, who is our current chairman, of course, of 
the Joint Chiefs said the following: That the test ban treaty 
``will help limit the development of more advanced and 
destructive weapons and inhibit the ability of more countries 
to acquire nuclear weapons. It is true,'' he said, ``that the 
treaty cannot prevent proliferation or reduce current 
inventories. But it can restrict nuclear weapons progress and 
reduce the risk of proliferation.''
    In short, our top uniformed military leader, General 
Shelton, said the following: ``The world will be a safer place 
with the treaty than without it, and it is in our national 
security interest to ratify the Comprehensive Test Ban 
Treaty.''
    The whole world, including nuclear weapons powers and 
countries that might want to become nuclear weapons powers, is 
going to be watching what the Senate does with this treaty. And 
our action will affect the willingness of other nations to 
refrain from future nuclear testing.
    Rejection of this treaty will have a profound negative 
impact in the battle against proliferation of nuclear weapons. 
India tests, Pakistan tests, and we tell them, stop testing, 
you are endangering yourselves, you are endangering the world. 
For heaven's sake, stop your testing. If we are not willing to 
ratify the Comprehensive Test Ban Treaty, what standing do we 
have to urge India, Pakistan, or any country to stop testing? 
Over 150 nations have signed this treaty, including all of our 
allies, by the way.
    There has been reference made to the fact that our allies 
depend upon our nuclear deterrent, and they do and have, and 
that our allies who store these weapons depend upon their being 
safe, and they do. Our allies recommend that we support this 
treaty, those very same allies that depend on our deterrence 
and rely upon our nuclear weapons to be safe because they 
frequently are being stored on their land. Every one of our 
NATO allies, plus South Korea and Japan--over150 nations in 
all--have signed this treaty.
    Now, the question has been raised whether or not somebody 
could cheat, and this is what Secretary Cohen's statement 
relating to that is: ``Is it possible for states to cheat on 
the CTBT without being detected?'' And here I am quoting him. 
``The answer is `yes.' We would not be able to detect every 
evasively conducted nuclear test and from a national security 
perspective, we do not need to. The U.S. will be able to detect 
a level of testing, the yield and number of tests by which a 
state could undermine the U.S. nuclear deterrent.''
    So although you cannot be certain that nobody can conduct a 
test with a very small yield, what Secretary Cohen is telling 
us and has told us is that any militarily significant test can 
be detected, that they cannot gain military advantage over us 
by cheating at those low levels. That is his position. That is 
the Joint Chiefs' position, not just my position, but their 
position. It also happens to be mine, but that is obviously not 
as important.
    In addition, both Secretary Cohen and General Shelton have 
pointed out that this treaty, if it comes into effect, will 
increase our ability to observe and monitor tests because it 
will create an international monitoring system of 320 
monitoring stations in 90 countries.
    They also have testified to us that they have looked at the 
full range of intelligence information, including the up-to-
date current information which has been referred to by our good 
friends who have already testified. So that both Secretary 
Cohen and General Shelton have looked at the same intelligence 
information that they have referred to in their testimony and 
that we have looked at, and they have reached the exact same 
conclusion that they reached before, namely that this treaty is 
in our national interest and can be adequately effectively 
verified, although you cannot perfectly verify a low-yield 
test.
    Finally, we had the Department of Energy's nuclear weapons 
lab directors in front of us today. The lab directors say that 
with two things they are, quote, ``onboard.'' Now, that's the 
term that they used this morning. Their testimony varied. It 
was not one statement for three directors. And there was a 
variation between their testimony. But when I asked them, 
point-blank, are you onboard under two conditions, their answer 
was yes, that they are onboard with the treaty. One is that the 
safeguards, all six, be incorporated formally in the resolution 
of ratification, and second that there be robust funding of our 
stockpile stewardship program by the Congress. Those are 
critically important conditions to them and, as our good friend 
Senator Warner said, it is important also to General Shelton 
and to Secretary Cohen.
    I believe the defeat of this treaty would be disastrous to 
our effort to reduce proliferation, but let me just close with 
one suggestion. There are many of us who have not yet either 
reached a conclusion or feel that we have enough of a record to 
reach a conclusion. There are many of us that feel this is the 
wrong time to vote on ratification for many different reasons. 
Some of us because there is that national intelligence estimate 
which Senator Shelby or Senator Warner made reference to. In 
fact, I think the chairman made reference to it, an ongoing 
national intelligence estimate.
    There are many reasons that our colleagues, at least many 
of our colleagues, think it is best not to vote at this time on 
this treaty. There is precedent for a delay in voting on the 
treaty. There was a vote scheduled on the Chemical Weapons 
Convention when our good friend Bob Dole came out against the 
treaty, just as the current leading Republican candidate for 
President has come out against this treaty. And what we did as 
a Senate was that we delayed the vote on the Chemical Weapons 
Treaty in order to try to keep it out of politics to the extent 
we possibly could. We delayed that vote until after the 
Presidential election. And then we took the time to add some 
reservations and add some conditions to the resolution of 
ratification. We took that deliberative time to do that.
    We cannot do that under this unanimous consent agreement. 
This unanimous consent agreement binds us to one amendment by 
the majority leader and one amendment by the Democratic leader. 
That is it. No reservations, conditions, declarations, 
statements, understandings, motions, things that you folks on 
this committee are experts at.
    Mr. Chairman, Senator Biden, others on this committee, over 
the years you have lent your efforts to adding reservations, 
conditions, qualifications to treaties, and you have improved 
treaties in the process. We cannot do that under the current 
unanimous-consent agreement under which we are operating. We 
are restricted. That inhibits the deliberative process of this 
body. It is not in keeping with what the Senate should be and 
historically has been, which is a body that deliberates 
carefully on treaties, and then lends or doesn't lend its 
advice and consent to those treaties.
    So I would hope that, for many reasons, we would consider 
delaying the vote on this treaty next week. I think that 
significant progress has been made through these hearings, but 
for many of us there is much more information that is needed, 
and I think for all of us from an institutional point of view, 
it would set a very bad precedent not to be able to offer 
reservations and other qualifications and amendments to a 
treaty that is being considered by the U.S. Senate.
    I have taken a bit too long, and I again thank our Chair 
and Senator Biden. Thank you.
    The Chairman. Thank you. Senator Kerrey.

  STATEMENT OF HON. ROBERT KERREY, U.S. SENATOR FROM NEBRASKA

    Senator Kerrey. Mr. Chairman, Senator Biden, members of the 
Senate Foreign Relations Committee, I thank you for your 
invitation to testify and discuss the issues of verification 
and monitoring on the Comprehensive Test Ban Treaty.
    As Senator Shelby, the chairman of the Senate Select 
Committee on Intelligence has just testified, under normal 
circumstances our committee would call witnesses, collect data, 
and then submit a very detailed report to the Senate on this 
matter. However, given the condensed nature of the debate, like 
the chairman, I also regret that we have only had opportunity 
to hold a single 2 hour hearing and that the committee has not 
prepared a full report.
    I come before this committee in my capacity as vice 
chairman of the committee and as Senator Shelby as well has 
said earlier, I speak for myself, and have not polled 
Democratic members of the committee to determine their views.
    The key phrase that I make in declaring that my estimate is 
that we can effectively monitor and verify compliance of the 
Comprehensive Test Ban Treaty is the phrase effectively monitor 
and verify. This declaration, Mr. Chairman, is made instead of 
an absolute declaration of verification. I believe, I say with 
great respect to members of this committee, that absolute 
verification is an unattainable standard, though it is a 
standard some have applied to establish as a benchmark for 
ratification, no treaty from the Convention on Literary and 
Artistic Copyrights to the International Covenant on Civil and 
Political Rights to the one that we are considering today, the 
CTBT, is absolutely verifiable.
    The central question, I believe, should be, using existing 
assets, can the United States of America effectively monitor 
and verify this treaty, and my answer is, yes. This conclusion, 
Mr. Chairman, and members of the committee, is supported by 
testimony that was offered yesterday by General John Gordon, 
the Deputy Director of Central Intelligence. It is also based 
on briefings that we have received on the topics, this 
committee has received over the years, and most importantly, 
Mr. Chairman, it is based upon an assessment of our current 
capability to monitor as well as our plans to modernize and 
improve our capability to do MASINT and to collect the data 
needed to monitor anything that we are concerned about in this 
world. We are the world's best at monitoring what is going on 
in the world. And if the United States of America says that we 
cannot effectively verify, I would suggest it will be difficult 
for any nation to reach the conclusion that they can 
effectively verify this treaty or any modification of this 
treaty.
    Mr. Chairman, I have heard some argument on last Sunday's 
Washington Post article on which it was reported that the CIA 
found that the data from the seismic sensors and other sources 
were insufficient to confirm the source of recent seismic 
activity in the Russian Arctic region of Novaya Zemlya, that 
this is reason enough to oppose this treaty.
    Mr. Chairman, again, there are not nor will there ever be 
enough seismic sensors in the world to catch a country that is 
cheating at the margins. The important fact is this: We do have 
the capability today and we will continue in the future to 
catch any country whose activity would threaten our ability to 
defend U.S. national security interests. We are today not only 
highly capable, we are the most capable nation at the detection 
of nuclear detonations. The United States has today the 
capability to detect any test that could threaten our nuclear 
deterrence. The type of test that could be conducted without 
our knowledge could only be marginally useful and would not 
cause a shift in the existing strategic nuclear balance.
    In addition, Mr. Chairman, the United States has the 
capability to detect the level of testing that would be 
required for another country to develop and weaponize and 
advance thermonuclear warheads. These are existing national 
capabilities. These key capabilities will continue without 
Senate action on the CTBT, but with Senate action and the 
action of 16 other named nuclear nations, we will be able to 
increase our detection assets.
    Our ability to monitor the treaty will be enhanced by 
access to the more than 300 monitoring stations that will make 
up the CTBT's international monitoring system, and the CTBT 
requirement for installation of 17 monitoring stations in the 
Middle East, Lebanon, and China, 31 in Russia will improve our 
ability to verify this treaty.
    Mr. Chairman, in the coming decades our intelligence 
agencies are going to be increasingly tasked with monitoring 
global nuclear testing. The creation of additional tools and 
resources that will come as a result of the CTBT will not 
decrease the safety of the American people. It will increase 
security.
    We also discussed, Mr. Chairman, two additional ways in 
which I believe the CTBT will enhance U.S. national security. 
First, a fully implemented CTBT will all but halt the ability 
of threshold states from establishing an effective and reliable 
strategic nuclear force. The inability of nations like Iran and 
North Korea to conduct nuclear tests will make it much less 
likely for them to become nuclear powers, and our ability to go 
to the United Nations Security Council to obtain multilateral 
resolutions of sanctions will minimize the go-it-alone U.S. 
efforts we are far too often forced to use.
    Along the same lines, the inability of existing nuclear 
states to conduct further nuclear tests will impede if not 
cease their efforts to make technological advances and yields 
in miniaturization, advances already achieved by the United 
States.
    As my friend and our former colleague, Senator Jim Exon 
said after returning from the Nevada Test Site, ``No American 
general would trade our nuclear forces for another nation's. 
Given the overwhelming capability of the United States, I 
recognize the test ban would clearly be in our national 
interest.''
    Bluntly speaking, Mr. Chairman, we have the most effective 
and deadly nuclear force in the world. Therefore, to maintain 
our existing edge, it is in our interests to ratify the CTBT 
and to halt the nuclear development advancement of other 
nations.
    To conclude, Mr. Chairman, the greatest threat to the 
safety of the American people is the nuclear legacy of the cold 
war. To confront this threat we need to employ a wide array of 
tools. We need to work with Russia to achieve further 
reductions in our nuclear arsenals, we need to fund the 
cooperative threat reduction program which assists the Russians 
with eliminating their nuclear weapons, we need a strong 
intelligence capability, we need to continue to pursue national 
missile defense, we need to maintain a rigorous military and 
the will to use it when our national interests are threatened, 
and finally, Mr. Chairman, we need the Comprehensive Test Ban 
Treaty.
    The CTBT alone, however, will not protect the American 
people, but used in conjunction with these other resources, it 
will help check the proliferation of nuclear weapons, improve 
our national capabilities to detect global nuclear activity and 
enhance the United States' national security.
    Again, I thank the chairman and I thank the chairman of the 
Foreign Relations Committee for inviting me to testify.
    Senator Warner. Mr. Chairman, could I just add a fact? My 
distinguished colleague quoted extensively from Secretary Cohen 
and General Shelton. I would like--I would like to have the 
opportunity to provide as a part of my statement the statements 
by six Secretaries of Defense, former, led by Secretary 
Schlesinger, who presented strong points that we should take 
into consideration as well as Dr. Kissinger by letters. The 
chairman talked about the intelligence which we cannot discuss 
here factually, but it will be before all Senators in S-407 as 
a part of your record and our record.
    [The information referred to follows:]

The Honorable Trent Lott
Majority Leader,
United States Senate,
Washington, DC.

The Honorable Tom Daschle
Democratic Leader,
United States Senate,
Washington, DC.

    Dear Senators Lott and Daschle:
    As the Senate weighs whether to approve the Comprehensive Test Ban 
Treaty (CTBT), we believe Senators will be obliged to focus on one 
dominant, inescapable result were it to be ratified: over the decades 
ahead, confidence in the reliability of our nuclear weapons stockpile 
would inevitably decline, thereby reducing the credibility of America's 
nuclear deterrent. Unlike previous efforts at a CTBT, this Treaty is 
intended to be of unlimited duration, and though ``nuclear weapon test 
explosion'' is undefined in the Treaty, by America's unilateral 
declaration the accord is ``zero-yield,'' meaning that all nuclear 
tests, even of the lowest yield, are permanently prohibited.
    The nuclear weapons in our nation's arsenal are sophisticated 
devices, whose thousands of components must function together with 
split-second timing and scant margin for error. A nuclear weapon 
contains radioactive material, which in itself decays, and also changes 
the properties of other materials within the weapon. Over time, the 
components of our weapons corrode and deteriorate, and we lack 
experience predicting the effects of such aging on the safety and 
reliability of the weapons. The shelf life of U.S. nuclear weapons was 
expected to be some 20 years. In the past, the constant process of 
replacement and testing of new designs gave some assurance that weapons 
in the arsenal would be both new and reliable. But under the CTBT, we 
would be vulnerable to the effects of aging because we could not test 
``fixes'' of problems with existing warheads.
    Remanufacturing components of existing weapons that have 
deteriorated also poses significant problems. Manufacturers go out of 
business, materials and production processes change, certain chemicals 
previously used in production are now forbidden under new environmental 
regulations, and so on. It is a certainty that new processes and 
materials--untested--will be used. Even more important, ultimately the 
nuclear ``pits'' will need to be replaced--and we will not be able to 
test those replacements. The upshot is that new defects may be 
introduced into the stockpile through remanufacture, and without 
testing we can never be certain that these replacement components will 
work as their predecessors did.
    Another implication of a CTBT of unlimited duration is that over 
time we would gradually lose our pool of knowledgeable people with 
experience in nuclear weapons design and testing. Consider what would 
occur if the United States halted nuclear testing for 30 years. We 
would then be dependent on the judgement of personnel with no personal 
experience either in designing or testing nuclear weapons. In place of 
a learning curve, we would experience an extended unlearning curve.
    Furthermore, major gaps exist in our scientific understanding of 
nuclear explosives. As President Bush noted in a report to Congress in 
January 1993, ``Of all U.S. nuclear weapons designs fielded since 1958, 
approximately one-third have required nuclear testing to resolve 
problems arising after deployment.'' We were discovering defects in our 
arsenal up until the moment when the current moratorium on U.S. testing 
was imposed in 1992. While we have uncovered similar defects since 
1992, which in the past would have led to testing, in the absence of 
testing, we are not able to test whether the ``fixes'' indeed work.
    Indeed, the history of maintaining complex military hardware 
without testing demonstrates the pitfalls of such an approach. Prior to 
World War II, the Navy's torpedoes had not been adequately tested 
because of insufficient funds. It took nearly two years of war before 
we fully solved the problems that caused our torpedoes to routinely 
pass harmlessly under the target or to fail to explode on contact. For 
example, at the Battle of Midway, the U.S. launched 47 torpedo 
aircraft, without damaging a single Japanese ship. If not for our dive 
bombers, the U.S. would have lost the crucial naval battle of the 
Pacific war.
    The Department of Energy has structured a program of experiments 
and computer simulations called the Stockpile Stewardship Program, that 
it hopes will allow our weapons to be maintained without testing. This 
program, which will not be mature for at least 10 years, will improve 
our scientific understanding of nuclear weapons and would likely 
mitigate the decline in our confidence in the safety and reliability of 
our arsenal. We will never know whether we should trust Stockpile 
Stewardship if we cannot conduct nuclear tests to calibrate the 
unproven new techniques. Mitigation is, of course, not the same as 
prevention. Over the decades, the erosion of confidence inevitably 
would be substantial.
    The decline in confidence in our nuclear deterrent is particularly 
troublesome in light of the unique geopolitical role of the United 
States. The U.S. has a far-reaching foreign policy agenda and our 
forces are stationed around the globe. In addition, we have pledged to 
hold a nuclear umbrella over our NATO allies and Japan. Though we have 
abandoned chemical and biological weapons, we have threatened to 
retaliate with nuclear weapons to such an attack. In the Gulf War, such 
a threat was apparently sufficient to deter Iraq from using chemical 
weapons against American troops.
    We also do not believe the CTBT will do much to prevent the spread 
of nuclear weapons. The motivation of rogue nations like North Korea 
and Iraq to acquire nuclear weapons will not be affected by whether the 
U.S. tests. Similarly, the possession of nuclear weapons by nations 
like India, Pakistan, and Israel depends on the security environment in 
their region, not by whether or not the U.S. tests. If confidence in 
the U.S. nuclear deterrent were to decline, countries that have relied 
on our protection could well feel compelled to seek nuclear 
capabilities of their own. Thus, ironically, the CTBT might cause 
additional nations to seek nuclear weapons.
    Finally, it is impossible to verify a ban that extends to very low 
yields. The likelihood of cheating is high. ``Trust but verify'' should 
remain our guide. Tests with yields below 1 kiloton can both go 
undetected and be militarily useful to the testing state. Furthermore, 
a significantly larger explosion can go undetected--or be mistaken for 
a conventional explosion used for mining or an earthquake--if the test 
is ``decoupled.'' Decoupling involves conducting the test in a large 
underground cavity and has been shown to dampen an explosion's seismic 
signature by a factor of up to 70. The U.S. demonstrated this 
capability in 1966 in two tests conducted in salt domes at Chilton, 
Mississippi.
    We believe that these considerations render a permanent, zero-yield 
Comprehensive Test Ban Treaty incompatible with the Nation's 
international commitments and vital security interests and believe it 
does not deserve the Senate's advice and consent. Accordingly, we 
respectfully urge you and your colleagues to preserve the right of this 
nation to conduct nuclear tests necessary to the future viability of 
our nuclear deterrent by rejecting approval of the present CTBT.
            Respectfully,
                                   James R. Schlesinger.
                                   Frank C. Carlucci.
                                   Donald H. Rumsfeld
                                   Richard B. Cheney.
                                   Caspar W. Weinberger.
                                   Melvin R. Laird.

                                 ______
                                 

                                        Henry A. Kissinger,
                                                  October 13, 1999.
The Honorable Jesse Helms
Chairman, Foreign Relations Committee,
United States Senate,
Washington, DC.

    Dear Mr. Chairman:
    As you know, I--together with former National Security Adviser 
Brent Scowcroft and former CIA Director and Deputy Secretary of Defense 
John Deutch--had recommended in a letter dated October 5th to Senators 
Lott and Daschle and in an op-ed in the October 6th Washington Post 
that a vote on ratification of the Comprehensive Nuclear Test Ban 
Treaty be postponed to permit a further discussion and clarification of 
the issues now too controversial. This having proved unachievable, I am 
obliged to state my position.
    As a former Secretary of State, I find the prospect that a major 
treaty might fail to be ratified extremely painful. But the subject of 
this treaty concerns the future security of the United States and 
involves risks that make it impossible for me to recommend voting for 
the treaty as it now stands.
    My concerns are as follows.
Importance of Nuclear Weapons
    For the entire postwar period, the American nuclear arsenal has 
been America's ultimate shield and that of our allies. Though we no 
longer face the same massive threat that we did during the Cold War, 
new dangers have arisen. Our nuclear arsenal is our principal deterrent 
to the possible use of biological and chemical warfare against America, 
our military, and our allies.
Verification
    Almost all experts agree that nuclear tests below some yield 
threshold remain unverifiable and that this threshold can be raised by 
technical means. It seems to me highly dangerous to leave such a vacuum 
regarding a matter fundamentally affecting the security of the United 
States. And the fact that this treaty is of indefinite duration 
compounds the problem. The CIA's concerns about recent ambiguous 
activities by Russia, as reported in the media, illustrate difficulties 
that will only be compounded by the passage of time.
    Supporters of the treaty argue that, because of their small yield, 
these tests cannot be significant and that the treaty would therefore 
``lock in'' our advantages vis-a-vis other nuclear powers and 
aspirants. I do not know how they can be so sure of this in an age of 
rapidly exploding technology and whether, on the contrary, this may not 
work to the advantage of nations seeking to close this gap. After all, 
victory in the Cold War was achieved in part because we kept 
increasing, and not freezing, our technological edge.
Nuclear Stockpile
    I am not a technical expert on such issues as proof testing, aging 
of nuclear material, and reworking existing warheads. But I find it 
impossible to ignore the concern about the treaty expressed by six 
former Secretaries of Defense and several former CIA Directors and 
National Security Advisers. I am aware that experts from the weapons 
laboratories have argued that there are ingenious ways to mitigate 
these concerns. On the other hand, there is a difference between the 
opinion of experts from laboratories and policy-makers' confidence in 
the reliability of these weapons as our existing stockpile ages. When 
national security is involved, one should not proceed in the face of 
such doubts.
Sanctions
    Another fundamental problem is the weakness of the enforcement 
mechanism. In theory, we have a right to abrogate the treaty when the 
``supreme national survival'' is involved. But this option is more 
theoretical than practical. In a bilateral treaty, the reluctance to 
resort to abrogation is powerful enough; in a multilateral treaty of 
indefinite duration, this reluctance would be even more acute. It is 
not clear how we would respond to a set of violations by an individual 
country or, indeed, what response would be meaningful or whether, say, 
an Iranian test could be said to threaten the supreme national 
survival.
Non-proliferation
    I am not persuaded that the proposed treaty would inhibit nuclear 
proliferation. Restraint by the major powers has never been a 
significant factor in the decisions of other nuclear aspirants, which 
are driven by local rivalries, and security needs. Nor is the behavior 
of rogue states such as Iraq, Iran, or North Korea likely to be 
affected by this treaty. They either will not sign or, if they sign, 
will cheat. And countries relying on our nuclear umbrella might be 
induced by declining confidence in our arsenal--and the general 
impression of denuclearization--to accelerate their own efforts.
    For all these reasons, I cannot recommend a vote for a 
comprehensive test ban of unlimited duration.
    I hope this is helpful.
            Sincerely,
                                        Henry A. Kissinger.

    Senator Warner. The key thing, Mr. Chairman, is that on 
their own initiative the intelligence community decided they 
had to update this NIE as it regards to detecting illegal tests 
on their own initiative. They informed our committee they would 
not be finished with that until early next year. That concerns 
me greatly, and every Senator should examine to the extent they 
have conducted that investigation what they have found.
    Last, we are substituting 50 years of proven capability of 
testing with actual tests underground by and large, certainly 
in the last two decades, for a system which is barely on the 
blueprint design boards, and it is going to take in the 
testimony of the lab directors today anywhere of from 10 to 20 
years to put in place that computer, largely computer system to 
give this great Nation of ours the confidence to some degree in 
the credibility of the system and the safety of the system.
    Also, much has been said about monitoring. I hope this 
committee looks in very carefully to the fine print of this 
treaty which says that 30 nations must concur in the right of 
this Nation of ours or another nation to go and do an onsite 
inspection, and that group of 30 nations could consist of 
voting members like Iraq, Iran or you name them.
    Now, Mr. Chairman, we have just finished an operation in 
Kosovo where with 19 other nations bonded together by a 
protocol treaty called NATO had some difficulties among 
themselves dealing with the operation that proved to be 
completed here after 74 days. What is the chance that 30 
disparate nations in what period of time are going to agree on 
an onsite inspection?
    Last, this treaty, Mr. Chairman, is designed to prevent 
this Nation of ours to modernize. It does not stop other 
nations from doing whatever they wish if they do not want to be 
a part of it, and in no way does this treaty lay a finger on 
terrorists or rogue nations that want to gain access and use 
these weapons in an antithetical way to the interests of our 
security and our allies.
    Senator Biden. But, Senator, is it not true that there is 
no treaty if these other nations do not sign it?
    Senator Warner. Beg pardon?
    Senator Biden. Is it not true there is no treaty if these 
other nations which have nuclear capacity do not sign?
    Senator Warner. That is all part of the ratification I 
think is your point----
    Senator Biden. Yeah, right.
    The Chairman. Senator Shelby.
    Senator Shelby. Mr. Chairman, I want to associate myself 
with the remarks of the distinguished chairman of the Armed 
Services Committee, Senator Warner. He said it well. But I 
would ask again that every member of this committee and the 
Senate come to S-407 in their time and look at some classified 
information that I believe that you owe it to yourself before 
you vote.
    Senator Kerrey. Mr. Chairman, if I could disassociate 
myself with the comments made by both my friends, first of all, 
as to the Central Intelligence Agency and other agencies 
producing a new NIE, there is no definitive end date here. We 
are constantly evaluating our capacity to monitor and the risk 
to the United States of America, so no one should presume, 
well, we have the definitive, final, end-of-the-game report 
that is going to come due next year. This is a constant 
process.
    Again, I underscore for emphasis, nobody on the face of the 
Earth is better at monitoring risk to the Nation and the people 
in that nation than the United States of America. We have the 
best monitoring capability of anybody right now, and the 
central question is not can I monitor something bad that is 
going on out there, but can I monitor something that will shift 
the strategic balance and put us at risk.
    If it does not shift the strategic balance and put at risk, 
it is not something that should cause us, it seems to me, to 
fly off and say that the Nation is imperiled.
    Senator Levin. May I just have one moment. Thank you, Mr. 
Chairman. First we currently have a safe and secure nuclear 
stockpile without testing, and we have not tested for about 7 
years. The program, the stockpile stewardship program which we 
are relying on is not 10 or 20 years off. It is being utilized 
right now to certify to every one of us that our weapons 
stockpile is safe and secure. Those lab directors, when asked 
point-blank by me whether or not, while this stockpile 
stewardship program is being enhanced, whether or not they can 
give us that stockpile certification if given the resources by 
this Congress, and if those other safeguards are in place, 
their answer is they believe they can. And if they cannot 
certify, they will not, and under the specific safeguards 
provisions that the President has proposed and that we would 
adopt, we are giving notice to everybody in advance that we 
would consider it our supreme national interest to resume 
testing if needed, if those lab directors and the Secretaries 
of Defense and Energy cannot give us a certification that our 
inventory is safe and reliable. So this is not like some rinky-
dink system that is far off. We are investing billions of 
dollars each year and have for many years. We rely on the 
stockpile stewardship program right now. There have been three 
certifications under that system. And it is a fact that it 
would take 30 of 50 nations in order that we could have 
inspection, that is true.
    Most of those nations, thank God, are not like Iraq and 
Iran. Most of those nations are our allies, and just because a 
few of those 50 nations might be some we could not rely on, 
when you go down that list, you will see that the vast majority 
of those nations are nations that we would rely on, and do rely 
on every day as allies, and have an abhorrence and a fear of 
nuclear weapons that is such that they would be highly 
supportive of an inspection in order to see whether somebody 
had cheated on this treaty.
    Senator Shelby. Mr. Chairman, I hope we will all do the 
right thing, but I trust that we will be careful in what we do.
    The Chairman. So do I. John, do you have a comment or a 
question?
    Senator Kerry. I have a bunch.
    The Chairman. All right.
    Senator Biden. Go ahead, John, but I have a couple for my 
friends.
    The Chairman. We gave him short shrift this morning.
    Senator Kerry. Mr. Chairman, thank you very much, sir. Let 
me just, if I can begin, I really find this debate somewhat 
extraordinary to some degree because there are reasonable 
people who are thinking about their nation. I personally would 
really hope we do not have a vote, and I have expressed that to 
the chairman of the Armed Services Committee and to the 
leadership, and that is not because I am trying to save the 
Republican Party from itself. That is because in my judgment, 
it would deal us a really enormous long-term injury for a lot 
of different reasons that I do not have time to lay out now, 
but in the debate we may.
    But, you know, it is extraordinary to me to hear some of 
these arguments. Thanks to you, when you were Secretary of the 
Navy, I got to go to nuclear chemical biological warfare 
school, and I learned then you can drop these weapons, and they 
do not go off. I learned about one point detonation, I learned 
about some of the mechanical and electrical safety measures 
that are involved, and I know and you know as former Secretary 
of the Navy and as chairman of the committee that the notion 
that somehow Americans are unsafe with a weapon that is sitting 
there, some component of which may deteriorate is simply 
extraordinarily inaccurate and, in fact, scary to people in a 
way that it should not be.
    Senator Warner. I do not wish to scare them, but I 
respectfully disagree.
    Senator Kerry. The fact is that every electrical and 
mechanical component can be inspected and replaced. In point of 
fact, if that were our fear, we could rebuild each warhead. In 
fact, we have rebuilt. We have the B-61 that was changed in 
1988 and certified without any nuclear test. Safety is not 
dependent on a nuclear explosion. Safety is dependent on the 
safety mechanisms working, and all of them can be tested 
without a nuclear explosion.
    So no one should say to the American people that 
deterioration over the years somehow puts them at risk for a 
matter of safety.
    Now, second, I asked the question earlier this morning of 
Ambassador Kirkpatrick and Secretary Weinberger, and they 
answered it, I thought, correctly and honestly. And the 
chairman was not here. We have 6,000 or so warheads today we 
hope under START II to get them down to 3,500. We hope if we 
ever get to START III we will get them down to 2,225. If you 
were offered the option 10 years from now or 20 years from now 
with our current safety mechanisms and verification capacities 
to take 20, 30 of those warheads out of our entire arsenal and 
we offered you the option of dropping them on North Carolina or 
Virginia, I guarantee you you would say please do not do that 
because you know as well as I do the better percentage of them 
are going to go off, if not all of them.
    Now, deterrence is built on a perception of threat. It is 
built on somebody's supposition that something might happen. 
That was the entire mutual assured destruction theory that took 
us through 50 years successfully, and to suggest that in a mere 
15 or 20 years with the current level of inspection, the 
current level of computerization, the current level of 
technological capacity of this country, the odds on 100 or 500 
or a thousand of those multiple thousands not being able to 
explode and provide deterrence is extraordinary. Why, 
otherwise, I ask the chairman would Japan and all these other 
countries that depend on us for their deterrent umbrella, why 
would they be the signatories and why would they be saying 
please, United States of America, sign this? Have they lost 
their senses about their own national security? No. I believe 
they are tuned in to the reality of deterrence in a way I do 
not completely understand. I know this, that if you do not have 
this verification process in place and monitoring of the other 
systems, you guarantee that every nation in the world is in a 
free-for-all, but if you have it, you have the best opportunity 
of all to try to create a regimen, a protocol under which we 
rein in what we have fought for 50 years to rein in. It is 
incomprehensible to me that people would want to reject that.
    The Chairman. All right, who wants to answer that?
    Senator Warner. Quickly, I respectfully disagree with your 
hypothesis. I think time could take its toll and could affect 
safety.
    Senator Kerry. Even if you replace them every 5 years?
    Senator Warner. Senator, we have dismantled so much of our 
infrastructure to do exactly what you speak of. There is only 
one nation now building new weapons, and that is Russia, a new 
tactical weapon, and we have got to be cautious about that.
    And second, with all due respect to my distinguished 
ranking member, I have to tell you that the stockpile is safe 
today and tomorrow and for the foreseeable future predicated on 
test data that was done in the past 50-plus years by actual 
test.
    The system coming on line, the SSP, as we call it, is 
heavily dependent on computers and unequivocally in our 
testimony in response to my questions and others', that system 
will not be up and fully ready for 5 to 20 years, depending on 
the lab director you ask. So I think that is imperative that 
the Senate understand that.
    Senator Kerry. The only response I make, Mr. Chairman, in 
fairness is, under the safeguards that I believe any President 
would wisely adopt, you can pull out of this treaty.
    Senator Warner. And what is the consequences to the world 
when you do that?
    Senator Kerry. It is better to have been in it and gone 
down the process because the only reason you would pull out is 
because it is falling apart, because you cannot safeguard your 
future, and that is why you would make that decision. The 
consequences of that are no different from the consequences 
that you are proposing we adopt today.
    The Chairman. Please, please. Our staff is already fussing 
at me. Of course, I am enjoying this, but we have got Madeleine 
Albright, and whereas I would like to hear you folks, I would 
rather hear her.
    [Pause.]
    The Chairman. Senator Biden has an opening statement, and 
then we will hear from the distinguished Secretary of State. 
Welcome.
    Secretary Albright. Thank you very much, Mr. Chairman.
    Senator Biden. Welcome, Madam Secretary. At the outset, I 
want to thank you, Mr. Chairman, for convening this hearing. It 
has been over 2 years since the President submitted this 
Comprehensive Nuclear Test Ban Treaty, and since that date it 
has not gotten the attention it should, but I welcome today's 
hearing. I think it is better than us not having done it, but I 
am not sure it is what we should have done.
    I believe very strongly, Mr. Chairman, the Comprehensive 
Test Ban Treaty is manifestly in the security interests of the 
United States, and I believe that the Senate should give its 
advice and consent. As the chairman will recall, we have met 
from the time he has been chairman on a regular basis, and he 
always asks me what my priorities are, and he will recall I 
have indicated to him consistently the single most important 
thing I think this committee can do is attend to this treaty.
    Ratification of the test ban treaty is in our national 
security interests because the treaty is going to help reduce 
the ability of nations to join the nuclear club or to field 
sophisticated nuclear weapons they do not now have.
    Madam Secretary and Mr. Chairman, no treaty is perfect. No 
treaty can guarantee perfect security, but the example of the 
Nuclear Nonproliferation Treaty is illustrative. Three decades 
ago when the NPT was signed it was commonly believed that 
dozens of nations would soon possess nuclear weapons. Today 
there are just seven nations that acknowledge having the 
weapons and one or two more that may have constructed a nuclear 
device. Undeniably the nuclear test ban treaty, the Nuclear 
Nonproliferation Treaty in my view has been successful in 
containing proliferation. We always hear how it has failed. 
Remember, before it was signed, everyone was talking about a 
couple dozen nations having the capacity, the nuclear capacity. 
Similarly, the Comprehensive Test Ban Treaty, I believe, will 
constrain nuclear proliferation because it will be difficult 
for countries who have never tested to be sure that the weapons 
they have tested will work and for those who have tested to 
make any significant change in their arsenal.
    The United States having conducted over 1,000 tests in five 
decades or about one every 2 weeks has an extensive data base 
of knowledge and breathtaking stockpile stewardship program to 
ensure the reliability of our nuclear stockpile without further 
testing. I would note parenthetically here that I have spoken 
at length with the two gentlemen who designed the stockpile 
stewardship program. I have listened to all the directors of 
the laboratories including former lab directors, and I do not 
hear anybody, anybody, anybody, anybody, anybody saying what is 
implied, and that is that our stewardship stockpile program now 
has put our stockpile in jeopardy or there is any reasonable 
prospect of that happening anytime in the future.
    Additionally, the CTBT will make it harder for other 
nations who have not conducted many tests to modernize their 
nuclear arsenals. For the last two decades--excuse me, for the 
last 2 years extensive investigations have focused on whether 
the People's Republic of China may have stolen key secrets from 
U.S. nuclear weapons laboratories. Such espionage, of course, 
is a matter of grave concern. But I challenge everyone to 
consider this: China can make far more progress in modernizing 
its nuclear arsenal by testing than it can from a mere analysis 
of whether the nuclear secrets they have stolen from us can be 
used.
    If we fail to certify or ratify the CTBT, China will be 
free to stay out of the treaty, and it may feel free to resume 
testing. The result would be that China, with a far more 
advanced arsenal than it possesses today, could obtain--would 
have a far more advanced arsenal than it possesses today than 
it could possibly obtain under the treaty.
    The Comprehensive Test Ban Treaty is in our interests 
because it can contain the advances of nuclear arms in South 
Asia as well. Seventeen months ago India and Pakistan each 
conducted a series of nuclear tests. Aggressive diplomacy on 
the part of the administration has so far prevented these 
countries from testing further or deploying those devices on 
ballistic missiles. They will probably join the treaty and have 
indicated that they will do so, but our failure to join I 
predict would result in a destructive and costly nuclear arms 
race in which the people of both those nations and indeed the 
world will be losers. The CTBT is in our interests because it 
will enhance our ability to determine if other nations have 
tested by establishing a global network of monitoring stations, 
well over 300 stations, in fact, many of which complement our 
own vast monitoring capabilities now.
    The treaty requires installation or upgrades of dozens of 
stations in key areas of interest to us, including 31 stations 
in Russia, 11 in China, 17 in the Middle East. These are 
obviously not places where we can just go and set up shop, so 
they will make a considerable contribution to overall 
monitoring.
    Finally, Mr. Chairman, the CTBT is in our interest because 
it will cap the nuclear programs of the existing nuclear 
powers, thus giving our military planners greater certainty 
about the arsenals of possible adversaries. There is much more 
to say, and over the coming days we will debate many of the 
fine points of this treaty. These points are important, and the 
reason why we should conduct several hearings to review this 
treaty, several more than we have had, but I urge everyone to 
stay focused on the central question, will we be better off in 
a world without nuclear testing than we will be in one with 
nuclear testing?
    We have not tested a nuclear device since 1992. We have 
established a 10-year $45 billion program to ensure that we do 
not need to test again. No other nation with nuclear weapons 
can match this. We have the financial resources, the existing 
nuclear know-how, the scientific community second to none, and 
a strong bipartisan commitment to nuclear deterrence, and no 
rogue state can develop a nuclear weapon without conducting 
tests that will almost certainly be detected and will prompt a 
swift and strong international reaction. I think that is a 
decidedly one-sided deal in our favor.
    The world is watching the Senate. Will we choose to enhance 
our security and increase stability with a treaty that will 
constrain or will we allow the expansion of nuclear capability 
and destroy a 40-year foundation that has been underway of 
moving away from the use of nuclear weapons, a reduction in the 
nuclear weapons and arms control or will we set out on a path 
of proliferation? It is almost that simple and it is that 
complicated, Mr. Chairman.
    I thank you again for having this hearing. I hope that 
better heads prevail and we are able to continue this process, 
but if we have to vote on Tuesday, which I am prepared to do, 
and will vote for the treaty, it will be the single most 
important vote anybody on this committee will cast and will 
have cast in my view, and it will set the path for this Nation 
and determine the circumstances under which my granddaughters 
will live more than any other thing that we do. I welcome you, 
Madam Secretary, and thank you, Mr. Chairman, for allowing me 
to make an opening statement.
    The Chairman. Well, you are certainly welcome. We have a 
decision to make, this being a very active Senate these days. I 
see the one light, meaning a vote is on. I dislike Senators 
going and coming while the Secretary is speaking. Would you 
prefer that we all go and come back quickly? I think I would 
rather.
    Secretary Albright. Yes, thank you.
    The Chairman. We will stand in recess and go vote and then 
come right back.
    [Recess.]
    Senator Hagel. Madame Secretary, if you are prepared, I 
have been empowered by the chairman, scary thought as that is, 
to welcome you officially and get you started. We know you have 
other things to do. And we are again grateful for you being 
here. We look forward to your testimony. So tally ho.
    Senator Biden. Mr. Chairman, I am ready to vote.
    Senator Hagel. I was not given that much power.

  STATEMENT OF HON. MADELEINE K. ALBRIGHT, SECRETARY OF STATE

    Secretary Albright. Thank you very much, Senator Hagel, and 
other Senators. I really thank you for the opportunity to 
testify today on behalf of a treaty that will make the world 
safer and America more secure. The Comprehensive Test Ban 
Treaty or CTBT is not a panacea. It will not guarantee that 
nuclear weapons spread no further. No pact or policy can ensure 
that. But the treaty will make it more difficult and dangerous 
for countries to develop and modernize nuclear weapons. That 
is, without question, in the national security interests of the 
United States.
    Under the treaty, America would retain a safe and reliable 
nuclear deterrent, but by preventing testing, the treaty will 
inhibit the development of more advanced weapons by other 
nuclear weapons states and make it harder for countries that do 
not now have such weapons to build them.
    Our Nation has the world's most advanced nuclear 
capabilities. In the past we conducted more than 1,000 nuclear 
explosive tests. Our most experienced and eminent nuclear 
scientists and the heads of our testing labs agree that we do 
not need to continue these tests in order to maintain an 
effective deterrent. We can keep our weapons fully safe and 
reliable under the provisions of the treaty and the special 
safeguards President Clinton has proposed. This view is echoed 
by our senior military leaders, including General Hugh Shelton, 
Chairman of the Joint Chiefs, and four of his predecessors, and 
has been supported consistently by the chiefs of all our Armed 
Services.
    America's ability to protect its security without testing 
is not new. We stopped conducting nuclear explosive tests in 
1992. In recent years such a moratorium has been broadly 
observed around the world, but as the exceptions in South Asia 
last year indicate, restraint depends now almost entirely upon 
goodwill.
    Since America has no need and does not plan to conduct 
nuclear explosive tests, the essence of the debate over the 
CTBT should be clear. It is not about preventing America from 
conducting tests. It is about preventing and dissuading others 
from doing so. It is about establishing the principle on a 
global basis that it is not smart, not safe, not right and not 
legal to conduct explosive tests in order to develop or 
modernize nuclear weapons.
    By banning such tests, the treaty removes a key tool that a 
modernizer or a proliferator would need to develop with 
confidence small advanced nuclear warheads. These are the 
weapons that can most readily be concealed and that can be 
delivered by ballistic missiles. They are the most threatening 
to others and to us. No country could be confident of 
developing them under the CTBT.
    Some say the treaty is too risky because countries might 
cheat, but by approving the treaty what exactly would we be 
risking? With no treaty, other countries can test without 
cheating and without limit. The CTBT would improve our ability 
to deter and detect clandestine nuclear weapons activity in 
three ways. First, every signatory would be required to accept 
intrusive monitoring. Second, the treaty establishes a 
comprehensive international verification regime with more than 
320 data gathering stations of four different types that can 
register nuclear explosions anywhere in the world. A great deal 
of information collected by these sensor stations would not 
otherwise be available to our intelligence community.
    Third, the treaty would give us the right to call for 
onsite inspections when we have evidence a test has occurred. 
Obviously we will continue to make full use of our own national 
technical means, but we will have more extensive access in more 
countries of interest under the treaty than we would ever have 
without it. And the more countries that support and participate 
in the treaty, the harder it will be for others to cheat and 
the higher the price they will pay if they do.
    Mr. Chairman, some have suggested that the treaty is not 
verifiable because we cannot be absolutely certain of detecting 
very low yield tests. Strictly speaking, that is true with or 
without the treaty, but by improving our capacity to monitor, 
we are much more likely under the treaty to detect such tests 
and consequently to deter them.
    The CTBT prohibits all explosive tests, and we would take 
any sign of cheating very seriously, but our citizens should 
know that low-yield explosions would be of little use in 
developing new or more advanced weapons systems, and we are 
confident that we would detect and deter any tests that could 
damage U.S. security interests.
    Another criticism I have heard of the treaty is that it is 
premature. We should wait, some say, both until our ability to 
detect even the smallest test is 100 percent, which may never 
happen, or until every country about which we are concerned has 
ratified the treaty first.
    I can only reply that that is a recipe for followership, 
not leadership. The purpose of our national security policy 
should be to help shape events, not simply observe them. We 
want other countries, including Russia, China, India, and 
Pakistan to ratify this treaty and undertake a binding 
commitment to refrain from nuclear explosive tests.
    But how can we convince them to do so if we will not? If we 
wait, why should not they? Waiting is not a strategy. Waiting 
is the absence of a strategy. If we believe nuclear restraint 
is the right approach, we should ratify this treaty and mark a 
path for others to follow. After all, we heard the same 
arguments during the debate on the chemical weapons convention. 
Opponents said we should wait, but once we decided to move 
ahead, five countries, including China, chose to submit their 
ratifications on the same day we did. Cuba ratified a week 
later, and Iran, Pakistan, and Russia followed within 8 months.
    Over the past 2 days I have been asked whether I would 
prefer to see a vote on this treaty delayed rather than have it 
voted down. I have only one real preference, and that is to see 
the treaty approved as soon as possible. The reason is not 
sentiment but sense. This treaty would help America. I hope 
that Senators who now oppose the CTBT or who are undecided will 
think very carefully about what the consequences would be if 
the treaty were not approved. Because it would be a national 
security tragedy if the world's greatest deliberative body 
killed a treaty that our Nation has sought for 40 years by 
failing properly to deliberate on and appreciate its merits.
    Under those circumstances, we would have preserved the 
right to do something we have no need and no intention of 
doing, while giving a free pass to those who may want to 
conduct nuclear explosive tests and could one day do us harm. 
We would have ignored the best national security advice of our 
top military leaders. We would have missed a priceless chance 
to improve our ability to detect and deter nuclear tests. We 
would have denied the vision and betrayed the dream of the two 
Presidents who first proposed and pursued the comprehensive 
test ban--Dwight Eisenhower and John Kennedy--and we would have 
done damage to American interests in every region.
    In Asia, by throwing away a valuable tool for slowing the 
modernization of China's nuclear arsenal and by sending a very 
confusing signal to North Korea. In South Asia by cutting the 
legs out from under our efforts to persuade India and Pakistan 
to sign and ratify the CTBT. In Russia by reducing our 
credibility on nonproliferation issues with a government we 
have continually urged to take proliferation seriously. In the 
Gulf by easing worldwide pressure on Iran to curb its nuclear 
ambitions. And in Europe, the Americas, and around the globe by 
disappointing our allies and friends, many of whom have 
ratified the treaty and are without exception urging us to do 
the same.
    Senators, in recent years I have traveled to every corner 
of the world. I have met with senior officials from most 
nations. In that time I have not heard a single expression of 
doubt about the overwhelming power and reliability of our 
nuclear deterrent or about our ability and resolve to defend 
America's vital interests.
    What I have heard are questions about whether America would 
continue to lead in reducing the threat that nuclear 
proliferation poses to every citizen in every country. I have 
heard the concern that we would insist on reserving the right 
to conduct nuclear explosive tests and thereby give every 
country with a potential to develop nuclear weapons a green 
light to do so.
    Let us be clear. It is potential proliferators who need to 
test. We do not. It is those who might wish to modernize. We 
set the standard for modernization. By approving the CTBT, we 
can go far to lock in a technological status quo that protects 
us without threatening others.
    At the same time, we would strike an historic blow against 
the spread of nuclear weapons. But if we send this treaty down 
to defeat, we will fuel ambitions and fears that could multiply 
the number and danger of nuclear weapons even as the new 
century dawns.
    In recent days I have heard opponents refer to this treaty 
to ban nuclear explosive tests as dangerous. Call me illogical, 
but I believe that given where the United States now stands in 
the world, it is unrestrained nuclear explosive tests that are 
dangerous.
    I know this treaty cannot eliminate all the risks that we 
and our families face, but like President Clinton, Secretary 
Cohen, American military leaders past and present, and our 
Nation's allies from Ottawa to Paris and London to Tokyo, I am 
convinced this landmark agreement will reduce those risks. I 
urge each Senator to think carefully before voting to put 
partisan considerations aside and to cast your vote in support 
of American leadership on behalf of a safer world and in favor 
of the Comprehensive Test Ban Treaty.
    Twenty years from now when my grandchildren are living in a 
world where there are more nuclear powers, they might look at 
me and say, Maddy, which is what they call me, and they might 
say, weren't you Secretary of State in 1999 when people 
considered whether we should test or not? How come the testing 
went on? Did you not do something about it?
    And I am going to say to them, I did my damnedest for them 
to make sure that the Comprehensive Test Ban Treaty passed, and 
I hope that when you look at your grandchildren you will be 
able to say the same thing. Thank you very much.
    [The prepared statement of Secretary Albright follows:]

            Prepared Statement of Hon. Madeleine K. Albright

    Mr. Chairman and Senators, thank you for the opportunity to testify 
today on behalf of a Treaty that will make the world safer and America 
more secure.
    The Comprehensive Test Ban Treaty, or CTBT, is not a panacea. It 
will not guarantee that nuclear weapons spread no further. No pact or 
policy can ensure that. But the Treaty will make it more difficult and 
dangerous for countries to develop and modernize nuclear weapons. That 
is, without question, in the national security interests of the United 
States.
    Under the Treaty, America would retain a safe and reliable nuclear 
deterrent. But by preventing testing, the Treaty will inhibit the 
development of more advanced weapons by other nuclear weapons states, 
and make it harder for countries that do not now have such weapons to 
build them.
    Our nation has the world's most advanced nuclear capabilities. In 
the past, we conducted more than 1,000 nuclear explosive tests. Our 
most experienced and eminent nuclear scientists, and the heads of our 
testing labs, agree that we do not need to continue these tests in 
order to maintain an effective deterrent. We can keep our weapons fully 
safe and reliable under the provisions of the Treaty and the special 
safeguards President Clinton has proposed.
    This view is echoed by our senior military leaders, including 
General Hugh Shelton, Chairman of the Joint Chiefs of Staff, and four 
of his predecessors. And has been supported consistently by the chiefs 
of all our armed services.
    America's ability to protect its security without testing is not 
new. We stopped conducting nuclear explosive tests in 1992. In recent 
years, such a moratorium has been broadly observed around the world, 
but--as the exceptions in South Asia last year indicate--restraint 
depends now almost entirely upon good will.
    Since America has no need and does not plan to conduct nuclear 
explosive tests, the essence of the debate over CTBT should be clear. 
It is not about preventing America from conducting tests; it is about 
preventing and dissuading others from doing so. It is about 
establishing the principle on a global basis that it is not smart, not 
safe, not right and not legal to conduct explosive tests in order to 
develop or modernize nuclear weapons.
    By banning such tests, the Treaty removes a key tool that a 
modernizer or a proliferator would need to develop with confidence 
small, advanced nuclear warheads. These are the weapons that can most 
readily be concealed; and that can be delivered by ballistic missiles. 
They are the most threatening to others and to us. No country could be 
confident of developing them under the CTBT.
    Some say the Treaty is too risky because countries might cheat. But 
by approving the Treaty, what exactly would we be risking? With no 
treaty, other countries can test without cheating, and without limit.
    The CTBT would improve our ability to deter and detect clandestine 
nuclear weapons activity in three ways.
    First, every signatory would be required to accept intrusive 
monitoring.
    Second, the Treaty establishes a comprehensive international 
verification regime, with more than 320 data gathering stations of four 
different types that can register nuclear explosions anywhere in the 
world. A great deal of the information collected by these sensor 
stations would not otherwise be available to our intelligence 
community.
    And third, the Treaty would give us the right to call for on-site 
inspections when we have evidence a test has occurred.
    Obviously, we will continue to make full use of our own national 
technical means. But we will have more extensive access in more 
countries of interest under the Treaty than we would ever have without 
it. And the more countries that support and participate in the Treaty, 
the harder it will be for others to cheat, and the higher the price 
they will pay if they do.
    Mr. Chairman, some have suggested that the Treaty is not verifiable 
because we cannot be absolutely certain of detecting very low-yield 
tests. Strictly speaking, that is true with or without the Treaty. But 
by improving our capacity to monitor, we are much more likely under the 
Treaty to detect such tests and consequently to deter them.
    The CTBT prohibits all explosive tests; and we would take any sign 
of cheating very seriously.
    But our citizens should know that low-yield explosions would be of 
little use in developing new or more advanced weapons systems. And we 
are confident that we could detect and deter any tests that could 
damage U.S. security interests.
    Another criticism I have heard of the Treaty is that it is 
premature. We should wait, some say, both until our ability to detect 
even the smallest tests is 100 percent, which may never happen; or 
until every country about which we are concerned has ratified the 
Treaty first. I can only reply that this is a recipe for followership, 
not leadership.
    The purpose of our national security policy should be to help shape 
events, not simply observe them. We want other countries, including 
Russia, China, India and Pakistan to ratify this Treaty and undertake a 
binding commitment to refrain from nuclear explosive tests.
    But how can we convince them to do so if we will not? If we wait, 
why shouldn't they? Waiting is not a strategy; waiting is the absence 
of a strategy. If we believe nuclear restraint is the right approach, 
we should ratify this Treaty and, mark a path for others to follow.
    After all, we heard the same arguments during the debate on the 
Chemical Weapons Convention. Opponents said we should wait.
    But once we decided to move ahead, five countries, including China, 
chose to submit their ratifications on the same day we did. Cuba 
ratified a week later, and Iran, Pakistan and Russia followed within 
eight months.
    Over the past two days, I have been asked whether I would prefer to 
see a vote on this Treaty delayed, rather than have it voted down. I 
have only one preference, and that is to see the Treaty approved as 
soon as possible. The reason is not sentiment, but sense. This Treaty 
would help America.
    And I hope that Senators who now oppose the CTBT, or who are 
undecided, will think very carefully about what the consequences would 
be if the Treaty were not approved. Because it would be a national 
security tragedy if the world's greatest deliberative body killed a 
Treaty that our nation has sought for forty years by failing properly 
to deliberate on and appreciate its merits.
    Under those circumstances, we would have preserved the right to do 
something we have no need and no intention of doing, while giving a 
free pass to those who may want to conduct nuclear explosive tests and 
could one day do us harm.
    We would have ignored the best national security advice of our top 
military leaders.
    We would have missed a priceless chance to improve our ability to 
detect and deter nuclear tests.
    We would have denied the vision and betrayed the dream of the two 
Presidents who first proposed and pursued the--comprehensive test ban--
Dwight Eisenhower and John Kennedy.
    And we would have done damage to American interests in every 
region.
    In Asia, by throwing away a valuable tool for slowing the 
modernization of China's nuclear arsenal; and by sending a very 
confusing signal to North Korea.
    In South Asia, by cutting the legs out from under our efforts to 
persuade India and Pakistan to sign and ratify the CTBT.
    In Russia, by reducing our credibility on nonproliferation issues 
with a government we have continually urged to take proliferation 
seriously.
    In the Gulf, by easing worldwide pressure on Iran to curb its 
nuclear ambitions.
    And in Europe, the Americas and around the globe, by disappointing 
our allies and friends, many of whom have ratified the Treaty and are--
without exception--urging us to do the same.
    Senators, in recent years, I have traveled to every corner of the 
world. I have met with senior officials from most nations. In that 
time, I have not heard a single expression of doubt about the 
overwhelming power and reliability of our nuclear deterrent, or about 
our ability and resolve to defend America's vital interests.
    What I have heard are questions about whether America would 
continue to lead in reducing the threat that nuclear proliferation 
poses to citizens in every country. I have heard the concern that we 
would insist on reserving the right to conduct nuclear explosive tests, 
and thereby give every country with the potential to develop nuclear 
weapons a green light to do so.
    Let us be clear. It is potential proliferators who need to test; we 
do not. It is those who might wish to modernize; we set the standard 
for modernization. By approving the CTBT, we can go far to lock in a 
technological status quo that protects us without threatening others. 
At the same time, we would strike an historic blow against the spread 
of nuclear weapons.
    But if we send this Treaty down to defeat, we will fuel ambitions 
and fears that could multiply the number and danger of nuclear weapons 
even as the new century dawns.
    Mr. Chairman, it just so happens that about three weeks ago, I was 
blessed with my fourth grandchild, and first granddaughter. Her name is 
Madeleine.
    I hope I am not being selfish when I say that I want Madeleine and 
others her age to grow up like those of us on both sides of this table 
in one respect could not. I want her to grow up free from the fear of 
nuclear attack. I believe that the CTBT will give her and her 
generation a better chance. I fear that without the Treaty, the spread 
of nuclear dangers could create risks even graver than those we faced.
    In recent days, I have heard opponents refer to this Treaty to ban 
nuclear explosive tests as dangerous. Call me illogical, but I believe 
that, given where the United States now stands in the world, it is 
unrestrained nuclear explosive tests that are dangerous.
    I know this Treaty can't eliminate all the risks that we and our 
families will face. But like President Clinton, Secretary Cohen, 
American military leaders past and present, and our nation's allies 
from Ottawa to Paris and London to Tokyo, I am convinced this landmark 
agreement will reduce those risks.
    I urge each Senator to think carefully before voting, to put 
partisan considerations aside; and to cast your vote in support of 
American leadership, on behalf of a safer world, and in favor of the 
Comprehensive Test Ban Treaty.
    Thank you.

    The Chairman. Madam Secretary, I apologize for being so 
late, but three people grabbed me on another matter.
    Before we routinely turn to our first round of questions, I 
feel obliged to ask you a question about a matter that was 
brought to the committee's attention this morning by the 
administration's CTBT negotiator, Ambassador Ledogar.
    When asked, the ambassador confirmed the existence of a 
previously undisclosed side agreement relating to U.S. 
membership in the CTBT Executive Council. I did not even know 
that existed, which shows what I know. He also confirmed the 
existence of other side deals contained in memoranda and 
jointly agreed notes.
    Now, I do not get hot and bothered about things of this 
sort, but it does concern me when I learn about secret deals on 
the side. Maybe they are perfectly innocent, but do you want to 
talk about why these exist and how they exist and how it began?
    Secretary Albright. Well, first of all, let me just say in 
terms of what you were asking about the creation of the 
Council, that is part of how this Comprehensive Test Ban Treaty 
is going to work, and we can give you more information on that, 
but let me just say that during the negotiation of the CTBT, 
the nuclear weapons states did consult regularly including on 
questions related to the scope of the treaty, and these 
consultations led to the achievement of a shared understanding 
that all nuclear explosions, however small, including low-yield 
hydronuclear tests, are prohibited and subcritical experiments 
are not prohibited.
    A shared understanding was also achieved that the treaty 
does not prohibit a range of activities, none of which would 
involve nuclear explosions. I think there are no secret 
agreements attached to this, but whatever documentation we have 
we obviously will be glad to share with you.
    The Chairman. That was going to be my next suggestion. If 
you furnished us information probably it would just go in the 
file and never matter, but you know how it is.
    Secretary Albright. Obviously. No, we would be pleased to.
    The Chairman. Let us see. I asked the Ambassador about the 
White House's claim that CTBT is, quote, and this expression or 
this phrase has been used time and time again, ``the longest 
sought, hardest fought prize in the history of arms control,'' 
and that it has been the negotiating objective of every 
President since Eisenhower. He stated that that was hyperbole 
and admitted that not a single President before the current one 
has ever sought a zero yield indefinite duration CTBT. I just 
wonder if that does not carry the hype a little bit far, and 
maybe it happens on the side I happen to be on, and it is one 
of the rare occasions when you and I are on opposite sides, but 
do we have to do that sort of thing or do you know some 
hyperbole? I called it bull, but he said, well, I prefer to 
call it hyperbole.
    Do you agree with your chief negotiator that the treaty 
proposed to the Senate is not what the Clinton administration 
initially proposed?
    Secretary Albright. Well, first of all, I do not know what 
you want to call it, but the truth of the matter is that it was 
President Eisenhower who first put forward the idea that there 
be a ban on testing of nuclear weapons, and then President 
Kennedy had a limited test ban, and really it is an issue that 
has been out there ever since the beginning of nuclear testing 
because I think those Presidents and subsequent ones have been 
very concerned about the dangers created to everybody by 
nuclear testing and have tried to limit it, and I think that--
so I think that--I try not to use hyperbole, but I do believe 
that this is a much sought after treaty that has been sought 
after for a long time by many, many Presidents.
    It also is very much a part of an overall proliferation 
strategy or nonproliferation strategy. We are not the only 
country in the world that has nuclear weapons, and we are also 
a part of the Nuclear Nonproliferation Treaty, and what 
happened as a result of that was that, first of all, when there 
was the moratorium that passed in 1992, there was a push that 
there should also be a Comprehensive Test Ban Treaty along with 
a unilateral moratorium. Then when we were reviewing the NPT in 
1995, we made a good faith commitment to the nonnuclear 
countries that we would do everything we could to work on a 
Comprehensive Test Ban Treaty. That has been the push.
    Those negotiations have all been taking place--not 
bilaterally as our treaties with the Soviet Union and Russia 
have, but multilaterally, and in that kind of a negotiation, 
there is always a lot of give and take. We did not get 
everything that was our maximum position, but we did get 
everything that we needed, and I think, sir, you appear as all 
of you that are legislators know that as you are coming forward 
with something that you really want, you have an ability to 
negotiate down to your bottom line and get what you really 
need, and in the meantime clearly in the negotiating process 
you put down your maximum demands, and we, as I said, we did 
not get everything we wanted, but we got everything we needed.
    The Chairman. Now, my impression is that Eisenhower and 
everybody else insisted on low-yield testing and a time limit 
for the treaty. Am I mistaken?
    Secretary Albright. Excuse me, and a time?
    The Chairman. And a time limit on the treaty.
    Secretary Albright. Well, I think that what they wanted was 
to get what they could. Their dream was to be able to have a 
treaty that made sure that we were safe and that we would be 
able to maintain our superiority, and at the same time make 
sure that there would not be problems in terms of others being 
able to develop their nuclear weapons.
    We believed, and there has been a lot of discussion about 
the zero yield, there were discussions about whether there 
should be higher levels, and ultimately after the discussions 
in committees, it was decided that it was better to have a zero 
yield rather than a low yield because it is easier, frankly, to 
measure, and we got agreement from the Chinese and the Russians 
that it was appropriate to have a zero yield in this treaty, 
and this treaty is permanent, but it does permit for a 10-year 
review.
    The Chairman. Good. If I might ask Mr. Holum, he is not 
testifying, but he could possibly nod yea or nay if he is 
familiar with this statement. Among many other things, the 
treaty does not contain our original proposal for an option to 
withdraw from the treaty at the 10-year mark without citing 
reasons of supreme national interest, and our proposal that the 
treaty's scope provides room for so-called hydronuclear 
experiments and very small nuclear yields.
    Is that a statement that you are familiar with?
    Secretary Albright. Yes.
    The Chairman. As a matter of fact, you made it, did you 
not?
    Secretary Albright. Yes.
    The Chairman. I just wonder if it is a fair 
characterization of your original negotiating instructions from 
the administration.
    Secretary Albright. I can. If you want, let me give you a 
fuller answer here. During the initial phase of the 
negotiations, the United States did seek to make a small 
exclusion for itself to allow for very low-yield hydronuclear 
tests. However, others asked for exclusions also on a much 
larger scale which would have been contrary to our 
nonproliferation objectives.
    In principle, we were not able to oppose others' exclusions 
unless we decided to move to a zero yield treaty that would be 
equal for all. In 1995 the report of the JASON group of 
distinguished scientists concluded that we did not need 
hydronuclear tests to maintain the safety and reliability of 
our nuclear stockpile which removed reservations about zero and 
allowed us to propose the zero as a solution, and getting 
others to reassess downward and eventually to accept zero was a 
victory for the United States. And zero, moreover, was 
recognized as better for us because it is easier to verify, as 
I said, the difference between zero and some limited level of 
activity than between one level of activity and a higher level. 
So we were pleased with that, and I think that the fact also 
exists as one of the aspects of the treaty as it was 
transmitted to you that we can withdraw, it does not matter 
whether 10 years or any years if the President on advice from 
the Department of Defense--Secretary of Defense and Secretary 
of Energy thinks that the reliability of the stockpile is not 
there or other reasons for supreme national interest. So that 
exists. It is not within a timeframe. It is available to us at 
any time that we feel our national security is threatened.
    The Chairman. Thank you for that. Senator Biden.
    Senator Biden. Thank you very much. Again, welcome, Madam 
Secretary. There is a lot of things I would like to explore 
with you here. Let me begin by saying that I, along with a 
number of my Republican colleagues with whom I have been asked 
by the Democratic leadership to confer about the scheduling of 
this vote, are concerned about the possible consequences of 
rejection. Speaking only for myself, I think the prospects for 
rejection are in direct proportion to how little discussion 
there is. My view is the greater the discussion, the greater 
the debate, the more time we have to discuss it, the more it 
will become apparent why this is so important.
    I would like to ask permission, Mr. Chairman to enter in 
the record a list of the duration of time that we took to hold 
hearings and also debate on the floor of the Senate the last 
five major arms control treaties we have had.
    The Chairman. Without objection, of course.
    [The information referred to follows:]

Senate Consideration of Major Arms Control and Security Treaties--1972-
                                  1999

Anti-Ballistic Missile Treaty/SALT I (approved 1972)
  <bullet> 8 days of Foreign Relations Committee hearings
  <bullet> 18 days of Senate floor consideration

Intermediate Nuclear Forces (INF) Treaty (1988)
  <bullet> 23 days of Foreign Relations Committee hearings
  <bullet> 9 days of Senate floor consideration

Conventional Forces in Europe (CFE) Treaty (1991)
  <bullet> 5 days of Foreign Relations Committee hearings
  <bullet> 2 days of Senate floor consideration

START I Treaty (1992)
  <bullet> 19 days of Foreign Relations Committee hearings
  <bullet> 5 days of Senate floor consideration

START II Treaty (1996)
  <bullet> 8 days of Foreign Relations Committee hearings
  <bullet> 3 days of Senate floor consideration

Chemical Weapons Convention (1997)
  <bullet> 14 days of Foreign Relations Committee hearings
  <bullet> 3 days of floor consideration

NATO Enlargement (1998)
  <bullet> 7 days of Foreign Relations Committee hearings
  <bullet> 8 days of floor consideration

Comprehensive Test Ban Treaty (submitted 1997)
  <bullet> 1 day of Foreign Relations Committee hearings (scheduled)

    Senator Biden. Now, I asked Frank Wisner and Robert Oakley 
to advise me on the impact of a negative vote on India and 
Pakistan in particular. Wisner was Ambassador to Egypt under 
President Bush and Ambassador to India under President Clinton, 
and Oakley was Ambassador to Pakistan under Presidents Reagan 
and Bush, and their letters are short and to the point, and 
with your permission, Mr. Chairman, I would like to read them, 
and then maybe the Secretary could respond.
    This is from Mr. Oakley--Ambassador Oakley:
    ``Dear Senator Biden, you asked my views on the effects of 
action by the U.S. Senate to reject the Comprehensive Test Ban 
Treaty. In my judgment, the effects would be dangerously 
negative for the United States security interests.
    ``First, in the long term, there would be a significant 
erosion of constraints upon further development of nuclear 
capacities and capabilities around the world. The United States 
has been the leader in seeking limitations upon current 
capabilities as well as convincing other countries not to 
develop such capabilities. There would be important political 
downside effects upon this effort since the United States would 
be seen as turning away from its basic policy of restraint. 
Second, in the near term, the climate and freedom for nuclear 
testing created by reversal of U.S. basic position would be an 
incentive for new countries such as Iran to test when they are 
ready. Russia and China might well conclude they have the 
freedom to test. The most troubling in the immediate future 
would be the virtual invitation to India to start implementing 
a new nuclear doctrine recently proposed by its national 
security advisory board. This doctrine calls for a major 
increase in India's nuclear capabilities which could only be 
achieved by more testing. Pakistan has already made it clear 
that it would follow India in more testing, and given the 
prevailing tensions in the subcontinent, the nuclear arms race 
which could well ensue would be extremely dangerous.''
    Senator Biden. Signed Robert B. Oakley.
    And the following from Ambassador Wisner.
    ``Dear Senator Biden, I understand that Members of the 
Senate are currently debating the issue of Comprehensive Test 
Ban Treaty. I regard early passing of this treaty as America's 
highest national importance and hope that your arguments in 
support of its passing can result in the right and necessary 
outcome.
    ``As Ambassador to India from 1994 to 1997 I was intimately 
involved in matters related to CTBT and India's willingness to 
sign the treaty. Since my departure from government, I have 
also followed closely the negotiations with New Delhi and 
Islamabad which are aimed at convincing those governments to 
accept CTBT. If the United States delays the decision and 
rejects the treaty, I am confident the United States runs a 
serious risk of India abandoning the treaty and Pakistan will 
follow suit. Consensus in favor of treaty signature in India is 
not yet fully formed, and if it is, the consensus will be weak. 
Many thoughtful Indians with a voice in national defense policy 
believe India needs to test further its nuclear capacity. What 
India does, Pakistan surely will do.
    ``In the event that India and Pakistan walk away from the 
CTBT, the United States will face an even more complicated 
nuclear proliferation problem, in the world at large.''
    Senator Biden. And it goes on from there. Sincerely, ``in 
closing, let me repeat my hope that the U.S. Senate will ratify 
. . .''.
    That, coupled with a--well, let me just ask you to respond. 
Do you share their concern about the impact of a negative vote 
on India and Pakistan restraining or failing to restrain their 
move toward further reliance upon nuclear weapons?
    Secretary Albright. Well, I do not want to engage in 
hyperbole, but in spades I agree with what they have said 
because I think that we are very concerned about the 
possibility here that we have two countries side by side that 
have very serious differences and have now the potential of 
nuclear weapons, and we believe that the U.S. ratification 
remains critical in order to get them on board.
    [The full text of the letters referred to follows:]

                American International Group, Inc.,
                                            70 Pine Street,
                                  New York, NY, September 30, 1999.
The Honorable Joseph R. Biden
United States Senate,
439 Dirksen Bldg., Washington, DC.

    Dear Sen. Biden: I understand that members of the Senate are 
currently debating the issue of the Comprehensive Test Ban Treaty. I 
regard the early passage of this Treaty as a matter of the highest 
national importance and hope that your arguments and support of its 
passage will result in the right and necessary outcome.
    As Ambassador to India from 1994 through 1997, I was intimately 
involved in matters related to CTBT and India's unwillingness to sign 
that Treaty. Since my departure from government I have also followed 
closely our negotiations with New Delhi and Islamabad which are aimed 
at convincing those two governments to accept CTBT. If the United 
States Senate delays a decision or rejects the Treaty, I am confident 
that the United States will run a serious risk of India abandoning the 
Treaty. Pakistan will follow suit. A consensus in favor of a Treaty 
signature in India is not yet fully formed and if it is, the consensus 
will be weak. Many thoughtful Indians with a voice in national defense 
policy believe India needs to test further its nuclear capability. What 
India does, Pakistan will surely do.
    In the event that India and Pakistan walk away from CTBT, the 
United States will face an even more complicated nuclear proliferation 
problem in the world at large. The signal will be visible to all that 
the Treaty has been grievously weakened and the international community 
is unable to control weapons testing. This state of affairs cannot be 
helpful to the United States and to the hopes all of us have to reduce 
the threat of the use of nuclear weapons in the world. Put differently, 
I do not wish to contemplate treaty failure here followed by a 
breakdown with India and Pakistan and the effect these moves will have 
on rogue states like Iraq, Libya, Iran and North Korea.
    In closing, let me repeat my hope that the United States Senate 
will ratify CTBT and do so very soon.
    With best wishes,
            Sincerely,
                                           Frank G. Wisner,
                                   Vice Chairman, External Affairs.
                                 ______
                                 
          Institute for National Strategic Studies,
                               National Defense University,
                                   Washington, DC, October 1, 1999.
Senator Joseph R. Biden, Jr.
Senate Foreign Relations Committee,
United States Senate, Washington, DC.

    Dear Senator Biden: You asked my views on the effects of action by 
the United States Senate to reject the Comprehensive Test Ban Treaty. 
In my judgement, the effects would be dangerously negative for the 
United States security interests.
    First, in the long term, there would be a significant erosion of 
constraints upon the futher development of nuclear capabilities around 
the world. The United States has been the leader in seeking limitations 
upon current capabilities as well as convincing other countries not to 
develop such capabilities. There would be an important political 
downside effect upon this effort since the U.S. would be seen as 
turning away from its basic policy of restraint. Second, in the nearer 
term, the climate of freedom for nuclear testing created by the 
reversal of the basic U.S. position would be an incentive for new 
countries such as Iran to test when they are ready. China and Russia 
might well conclude that they have freedom to test. Most troubling, in 
the immediate future, it would be a virtual invitation for India to 
start implementing the new nuclear doctrine recently proposed by its 
National Security Advisor Board. This doctrine calls for a major 
increase in Indian nuclear capabilities, which can only be achieved by 
more testing. Pakistan has already made clear that it would follow 
India in more testing. Given the prevailing tension in the sub-
continent, the nuclear arms race which could well ensue would be 
extremely dangerous.
            Sincerely,
                        Ambassador Robert B. Oakley (Ret.),
                                     Distinguished Visiting Fellow.

    Senator Biden. Let me ask you one more question before my 
time is up. I am sorry to interrupt you, but my time is about 
to expire. You have more than anyone else that I am aware of in 
the last--in the recent past, the last several years met with, 
spoken with our allies--Japan, Germany, nonnuclear powers, 
Britain, France, et cetera. It has been asserted by the Senator 
from Virginia and some others that they, if we sign this 
treaty, they will lose faith in our nuclear deterrence, and 
they, in turn, will be inclined to either upgrade their own--
proliferate their own nuclear capability, that is upgrade it, 
and/or become nuclear powers in the case of Japan and Germany.
    Would you be willing to comment on that assertion?
    Secretary Albright. Well, first of all, I believe that they 
are all counting on us to lead the nonproliferation fight and 
to make sure that they--that our deterrent is strong as a 
result of the fact that others cannot test. Therefore, they are 
counting on us to keep the lead in nuclear nonproliferation. 
Otherwise they might, in fact, be put in a position where they 
do have to do other things to strengthen themselves. We are 
providing them the ability to make sure that they do not have 
to get into a position of strengthening.
    Senator Biden. Have they all signed?
    Secretary Albright. Yes. Well, the ones that--France and 
the United Kingdom have ratified. Germany and Japan have. All 
NATO allies have signed and 15 have ratified.
    Senator Biden. Thank you. My time is up. Thank you.
    Senator Hagel. John, thank you, and welcome Madam 
Secretary, nice to have you here, and we are grateful that you 
are giving us a sense of the dynamics of the importance of what 
we are discussing.
    On a serious note but maybe a lighter side of that, I 
appreciated very much your comments regarding your 
grandchildren. A couple of weeks ago I was in Nebraska with my 
6-year-old and my 8-year-old, and we were at a Dairy Queen, 
which is a very popular place in Nebraska. I was in the Dairy 
Queen, and we were buying Dilly Bars, I am not sure what 
flavor, but one of my many enlightened, insightful constituents 
began to shower me with praise on the kind of effective 
representation I was bringing to Nebraska, which I allowed to 
go on for as long as we could all stand it.
    Whereupon this enlightened gentleman said, and, Senator, 
nice to have you back in the State, I know you always 
appreciate spending time with your grandchildren. I took your 
grandchildren issue rather seriously.
    Secretary Albright. It just goes to show you how much older 
I am than you are.
    Senator Hagel. No, I think it is the job. But you have 
really cut to the essence of what this is all about. The 
objective is to make the world safer for mankind, and I think 
we all tend to miss that occasionally when we get consumed with 
technical issues and details.
    But with that said, I have stated, Madam Secretary, that I 
am undecided, and I am undecided because, Senator Biden and 
others have said it rather clearly, I think we need more time 
to understand what the consequences are, what the issues are, 
what the details are. With that in mind, I have worked my way 
along through this. I am sorry our friend Senator Kerry is not 
here because he had dazzled us with his technical brilliance, 
and he attributed that all to being in the Navy.
    Well, I am just an old Army man, so I did not have the 
benefit of that brilliant technical background, but I do have a 
couple of questions on the governance of this treaty. I think 
when we define it down, no matter what we have, how it is 
governed and how we live by the conditions is pretty critical. 
You noted in your testimony that of the three issues that you 
felt were important, in your words, the CTBT would improve our 
ability to deter and detect clandestine nuclear weapons 
activity. The treaty would give us the right to call for onsite 
inspections when we have evidence a test has occurred.
    I would very much appreciate you enlightening the committee 
on how that works. This morning one of your predecessors at the 
United Nations, Ambassador Kirkpatrick, got into this in some 
detail, laying out the representation of the governance 
committee, the executive council, who gets votes. There were 
some, I thought, rather disturbing aspects of that as to who 
would we be guaranteed a seat on the executive council. That is 
when it came up, by Ambassador Ledogar, that in fact that was a 
side deal, that wasn't in the language. I would appreciate it 
if you could take us through that because we heard from some of 
the chairmen of the committees this afternoon preceding your 
testimony that it would take a 30-nation concurrence in order 
to get an onsite inspection.
    Secretary Albright. Well, first of all, let me describe a 
little bit how the onsite inspection would work. It is designed 
to permit timely and effective inspections, while guarding 
against abuses, and the treaty's Executive Council must vote on 
whether to approve a request for an onsite inspection within 96 
hours from the time of request, and as stated, such decisions 
have to be taken by 30 of the Executive Council's 51 members, 
and we can bring whatever evidence we choose, including what is 
gathered by national technical means to the table to get the 
vote.
    The countries that will be on this council are selected by 
region, and clearly there is no question in my mind that the 
United States would be one of the countries that would be a 
part of this. Now, you do have to get the vote of the other 
countries in order to have this happen, and we believe that 
they will be selected by random from regions that, given the 
evidence that would be brought to the table, that it would be 
very difficult for any country to stop onsite inspection taking 
place.
    We also have the possibility that if we see that there has 
been a questionable event, is ultimately we can bring questions 
to the Security Council as we did, for instance, when we were 
concerned about what was going on in North Korea. So I do think 
that we have a way to get our case in a timely way to the 
Executive Council of the organization as it is set up. I do not 
have concerns about that.
    Senator Hagel. You do not? Ambassador Kirkpatrick did, and 
she regaled us a little bit on real life at the United Nations, 
which you know a little something about. So you do not think 
that is a concern?
    Secretary Albright. No. And I think some of the things we 
did was to have protection ourselves, is in terms of making 
sure that countries that we did not like or had problems with 
would not be able to have open access to our sites, and so we 
are able to have special procedures which would allow to us not 
have every aspect of our own sites inspected in every way.
    Senator Hagel. Thank you. Mr. Chairman, thank you.
    The Chairman. Senator Boxer, do you not want to come up 
here? You are sitting down in San Diego.
    Senator Boxer. It is OK. It is all right. I have a good 
bird's eye view of everybody, and it works just fine.
    The Chairman. I recognize you.
    Senator Boxer. Thank you so much, Mr. Chairman, for your 
courtesy and, again, for having this debate. I do agree with 
Senator Biden, I feel the more we debate it, the more the case 
is made, but then, you know, I have a prejudice in favor of it. 
I know a couple of our colleagues are against it and a couple 
are undecided. I would like perhaps to hear from them 
afterwards.
    But let me just put this into my perspective, as everybody 
does. When I was a child in grammar school and risking letting 
everyone know my age, although it is public information, those 
were the days of the real threat of a nuclear war, and in my 
public school, in my grammar school, we had to go underneath 
the desk, we had drills, and we were taught if we went 
underneath the desk and covered our eyes like this, we could 
survive a nuclear strike. We also had dog tags, like the Army, 
like they had in the Army. We were so proud to wear those. We 
felt so important. We did not realize the purpose of it was if 
we were annihilated, someone would know who we were.
    So the kids in my generation really did not know that much. 
The kids in later generations after me started to realize what 
this was all about. When I got to the House in 1982, 
Congressman George Miller and his Republican allies set up--he 
is a Democrat. His Republican friends set up a bipartisan 
Select Committee on Children, Youth, and Families, and one of 
the first hearings we had was on the threat of nuclear war and 
what it was doing to our kids, and I will never forget sitting 
in that room listening to the young people express their fears 
of going to bed at night not knowing if the Soviet Union and 
America were going to just explode these bombs. So they really 
knew what was happening. And then when the cold war ended and 
we all thought the threat was over, it was an incredible sigh 
of relief I think across this land from all sides.
    Now here we sit at a moment in time that I think is 
absolutely a turning point, and I think as we have looked at 
the problems of the treaty, which I think is very important 
that we do that, as I see it, the main problems are the 
verifiability and the assurance that our stockpile stewardship 
program is working well, and each member is going to decide for 
himself or herself whether they feel comfortable with it, but I 
think the important thing here is that any President in the 
future, as the Secretary of State has clearly told us, can get 
out of this if they feel we have taken too much of a risk with 
this treaty. They do not need a Senate vote, it is not going to 
get bogged down in some of our rules. If there is a supreme 
national interest, we can get out of it, and I think it is 
important for us to look at the risks of this treaty and then 
the risks of not going forward with it. And I think what 
Senator Biden has tried to do, if I could get his attention for 
a minute--Senator Biden, I think what you have tried to do, it 
is important because I want to ask you about something if the 
Chairman will allow, is talk to us about the threat of us not 
going forward, and he has raised some issues in certain parts 
of the world, and so has the Secretary of State in my home 
State yesterday raised those issues, particularly in the India, 
Pakistan region.
    The reason I wanted to catch my friend's attention is I 
thought there was a phenomenal article. It was today in the 
Washington Post by someone who you know very well, George 
Perkovich, who worked with you for a long time.
    Senator Biden. Yes, we do not want to ruin his reputation 
by letting everyone know that.
    Senator Boxer. The reason I bring it up is I feel that in 
this very, very brief article, which I would ask unanimous 
consent that we may place in the record, Mr. Chairman. Mr. 
Chairman, may we place this in the record?
    [The information referred to follows:]

                [From the Washington Post, Oct. 7, 1999]

                 The Next President Will Pay the Price

                         (By George Perkovich)

    If the Senate eventually fails to ratify the Comprehensive Test Ban 
Treaty, there will be another victim besides the one Senate Republicans 
intended. For it is not only President Clinton who will be harmed by 
the action but the person who takes office as president--and many 
Republicans presume it will be one of their own--in 2001. The new 
president will face nuclear shock waves around the world, bereft of 
bipartisan support when he most needs it.
    Here are some likely scenarios:
    <bullet> India will probably conduct more nuclear weapons tests. 
India's nuclear scientists and hawkish strategists want a sophisticated 
arsenal, ranging from small tactical weapons to huge hydrogen bombs. 
They also wish to overcome doubts about the technical performance of 
the weapons tested in May 1998. More tests would satisfy them and their 
potential military ``customers'' that they can mimic the great powers.
    Conversely, ratifying the test ban treaty would tether the nuclear 
hawks and allow India to concentrate on the economic route to major 
powerdom. India's leading statesmen, Prime Minister Atal Bihari 
Vajpayee and Foreign Minister Jaswant Singh, recognize this and want to 
avoid a costly and dangerous arms race. A Senate rejection of the test 
ban treaty would undermine these statesmen and badly complicate 
increasingly vital U.S.-Indian relations.
    <bullet> Pakistan would match India test for test. This would lead 
to the kind of arms race that Presidents Reagan, Bush and Clinton have 
sought to block in the subcontinent. Lest an arms race seem 
inconsequential, it should be recalled that India and Pakistan just 
battled in Kashmir. The fighting came closer to erupting into an all-
out war and possible nuclear escalation than was reported. If more 
testing occurs and hawks in both countries are unleashed, defense 
spending will increase. Pakistan will move closer to bankruptcy. This 
will heighten the risk of Taliban-like groups gaining power in 
Pakistan, metastasizing cells of intolerance, aggression and anti-
American terrorism that would bedevil the next American president.
    <bullet> While China has signed the test ban treaty, it will not 
ratify it if the United States doesn't. China assumes that rejection 
means Republicans want to conduct more nuclear tests; otherwise, why 
wouldn't they ratify? In this case, China will make preparations to 
resume nuclear testing, especially if India conducts more tests. China 
possesses only some 20 long-range, single-warhead missiles capable of 
striking America. This poses no serious threat to the U.S. deterrent. 
China has conducted some 45 nuclear explosive tests, the United States 
1,030. The test ban is valuable precisely because it constrains the 
kind of weaponry advances that the Chinese military might otherwise 
wish to make with purloined American design information.
    <bullet> Japan will face pressure to reconsider its nuclear 
abstinence if China and India build up nuclear forces. Test ban 
opponents in Washington argue that American ballistic missile defenses 
should reassure Japan that it does not need to hedge its bets. However, 
the Japanese, like U.S. allies in Europe, recognize the technical and 
strategic problems posed by inevitably less-than-perfect defenses. 
Indeed, Senate rejection of the test ban paired with aggressive 
promotion of ballistic missile defenses will prompt China and Russia to 
feel that the United States is bolstering its capacity for nuclear 
coercion and possible first use. Moscow and Beijing will augment their 
nuclear offenses to counter defenses. In this context, Japan (and NATO 
allies) will feel more rather than less threatened. The next American 
president could then confront a crisis in alliance relations.
    <bullet> Globally, rejection of the test ban will endanger the 
nuclear nonproliferation regime. In 1995 the international community 
agreed to extend indefinitely the Nuclear Non-Proliferation Treaty on 
the promise that the nuclear weapon states would complete a test ban 
treaty by 1996. This was the minimal disarmament condition that the 
world would accept from the United States and the other nuclear states. 
The 187 parties to the nonproliferation treaty will meet next April to 
review the status of the treaty. If the Senate rejects the test ban, we 
can be sure that measures to tighten nonproliferation controls and 
maintain sanctions on Iraq will be opposed by an outraged international 
community. Instead of being the champion of nonproliferation, the 
United States will be seen as the rogue state of proliferation.
    Again, isolationists may say, ``Who needs the nonproliferation 
regime? If we feel threatened by proliferation, we can take care of it 
ourselves.'' But the U.S. interest in keeping countries such as Iran 
from acquiring nuclear weapons requires cooperation from states such as 
Russia and our European allies in controlling exports. Washington's 
persuasive powers will be seriously undermined by roguish behavior on 
the test ban treaty.
    Republicans in the Senate who want both to defeat the test ban and 
elect a Republican president should be careful what they wish for. If 
they reject this treaty they will create conditions that no new 
president could welcome. Given that the United States could ratify the 
treaty and still legally escape from it if a threat to national 
security emerged, the next president would likely wonder, ``Whose idea 
was this?''

    Senator Boxer. The scenarios that he talks about, and I 
will put them, I will say them because the powerful words that 
he uses and the way he does it is so amazing. He says if we do 
not do this treaty, and I say this especially to my friends 
that are undecided on it, India will probably conduct more 
nuclear weapons tests. India's nuclear scientists and hawkish 
strategists want a sophisticated arsenal, and then Pakistan 
would match--and as Senator Biden said, the good voices in 
India would be overwhelmed by this. Then Pakistan would match 
India test for test, and this would lead to the kind of arms 
race that Presidents Reagan, Bush, and Clinton have sought to 
block in this area.
    Then he goes over to China, and he says, while China has 
signed the test ban treaty, it will not ratify it if the U.S. 
does not. China assumes that rejection means the U.S. would 
want to conduct more nuclear tests. Otherwise, why would they 
not ratify, and in this case they will make preparation to 
resume the testing.
    Then he talks about Japan, I will not go into that. And our 
allies, and how crushed they would be and how they would lose 
confidence in us, and then I think a very crucial issue, Mr. 
Chairman, that we all care about, both sides of the aisle, 
Iran, how can we go to our friends and say, do not give Iran 
the technology, so it seems to me all of these things that are 
outlined here in this article are very, very important for us 
to consider as we answer the question, what are the risks of 
going into the treaty and what are the risks of staying out? 
What I do not want to see happen is future generations of kids, 
whether it is my grandchild or anybody else's children or 
grandchildren to have to go back to going under the desk to 
have to go back to that fear that they articulated, and so I 
have a brief question. I know my time is up.
    Do you think that what is stated here in this article is a 
possibility, that it would have this type of nuclear, if you 
will, in quotes, ``chain reaction throughout the world'' where 
we are now going to see the tests and all the rest?
    Secretary Albright. Well, I read the article myself this 
morning with great interest, and I was very pleased to see that 
it tracked very much with my own thoughts and a great part of 
my testimony. I do think that we would open up the gates again 
of potential testing.
    For me, there are several ways to look at this treaty, and 
I know that there are many legitimate scientifically based 
questions that the lab people have answered or the Secretary of 
Energy has answered. I have looked very carefully at the 
stewardship program and how it works and what things are coming 
on line. I have obviously been very concerned about 
verification, and I have said to myself that every arms control 
treaty that we have ever signed is not perfectly verifiable, 
but what we make is the assessment that whatever cheating takes 
place is nothing that can really hurt our overwhelming nuclear 
power, so we have to be realistic about that.
    So there are many ways to look at this from the technical 
aspect and the scientific aspect and all the language in these 
documents, and I hope that every Senator actually will look 
very carefully at that. But there is the other argument, which 
I think is just plain logic, which is, if we do not want to 
test, and we have said that we will not test, why would we not 
take the step of having a treaty that would prevent others from 
testing? It is not as if we are asking ourselves to do 
something we would not do otherwise. We are asking others to do 
what we have already done in order to prevent this kind of 
chain reaction that you have described that is so evident, and 
I can tell you from having spoken now, I think I spoke to 84 
ministers in New York during the General Assembly. CTBT was in 
all my talking points. They all agreed that we need to have a 
nuclear nonproliferation regime, that the proliferation of 
nuclear weapons is the single greatest danger that faces our 
planet, and so for me I can go either technical on you and do 
all this or logical, and logical here is why, why would we want 
to give others the right to test or the ability to test if we 
have decided not to? That is the answer for me.
    The Chairman. Senator Smith.
    Senator Smith. Thank you, Mr. Chairman. Madam Secretary, I 
appreciate you being with us. I come to this hearing truly as 
one of those Senators undecided and with an open mind. I also 
come to this hearing with a predicate of a cruel reality, a 
terrible truth that nuclear weapons have kept wars, since 
Nagasaki, have kept wars regional in their expanse and 
conventional in the ways in which they have been fought. And so 
while I hate the thought of nuclear war, I realize nuclear 
weapons have kept us from a worldwide conflagration.
    I guess with that in mind I am anxious to know, and I guess 
I am appealing to your technical knowledge, if our stockpile 
stewardship, we are betting so much on that because what is at 
stake is the credibility of our nuclear deterrent, it seems to 
me.
    Now, I know what I am about to say is not a very good 
hypothetical, but I have an old car at home I really like and I 
have a computerized trickle charger on it, and even if the 
battery works when I want to drive it every few times a year, 
it does not run very well because machinery needs to be 
operated. I am not suggesting we go firing nuclear missiles 
around, but I am concerned if we are--if the stockpile 
stewardship program is adequate to provide the verification, to 
provide the credibility that we need in order to prevent 
nuclear holocaust in the future.
    Secretary Albright. Let me say this, obviously I think we 
all have questions about, you know, our nuclear stockpile as 
our crown jewels, I guess, if you want to put it that way in 
terms of our ability to defend ourselves. In the reading that I 
have done and the testimony I have heard from those who really 
are experts in this, the heads of the labs, they have, as was 
said to you previously by the Senators who were here, they may 
disagree about some timing, but they do not disagree about the 
fact that they can do the job.
    We have also now said that they would have $45 billion over 
a 10-year period to be able to update and keep going all of the 
various parts of the stewardship program, and I think that I 
have confidence in the way that it has been described to me 
about how various components of that stewardship program, first 
those that are on line already and those that are being brought 
on line in order to make sure that the stewardship program can 
carry out everything that it is supposed to do.
    Now, there is no question that deterrence, per se, will 
continue because I agree with you that deterrence has kept, 
certainly for the United States, has kept us safe. What it does 
really, this treaty, it bans the bang but not the bomb. We will 
continue to have that.
    Also, all parts of our nuclear arsenal are constantly being 
tested. They just will not be being exploded. I think that, 
again, in the testimony that Secretary Richardson provided and 
others, to me I feel that we do have the know-how to keep 
updating it and rebuilding it, and it is not quite like your 
car. Paying a little bit more attention to it, maybe----
    Senator Smith. I am sure you do, and that is a very poor 
analogy. But I just know that machinery does not work very well 
if you do not use it. That is true of all kinds of machinery 
that I have ever known. And so I am hoping that as you and I 
bet the future security of our grandchildren upon this program 
that you, as one of our political leaders, have the confidence 
that it is worth that.
    Secretary Albright. And I do, Senator, I do. Let me just 
say this, if at any stage we believe that we do not, and that 
something has gone wrong in terms of the stewardship program, 
the President, any President will have the right to withdraw on 
the basis of supreme national interest.
    Senator Smith. And how difficult a decision will that be? I 
mean, if technology takes a quantum leap and renders a lot of 
this obsolete, at that point do you think the President of the 
United States, whoever he or she may be, has the ability under 
this treaty to say we abrogate it and we are going on to 
another level?
    Secretary Albright. I think that obviously this would be 
done after careful thought and on advice from the Secretary of 
Defense and Secretary of Energy, I would hope actually on the 
side the Secretary of State might be asked, but I think that, 
yes, I do believe that if there is a question of supreme 
national interest, I think it would be irresponsible of any 
President not to withdraw if there was a question.
    Senator Smith. Flexibility has been one of my questions, 
and I appreciate your answer. While I have a little bit of time 
remaining, from what I have learned today about the inspection 
regime, onsite inspections that I am not going to be able to 
put much confidence in our ability to actually go and inspect 
something if 30 members of this organization, of this 
convention will have to approve United States' inspectors going 
in, and having seen the way Saddam Hussein runs our inspectors 
around, I frankly do not have much confidence in onsite 
inspection being, frankly, worth risking our grandkids on.
    So I guess my question is, is it your view that such 
explosions as could be a threat to us we have the ability to 
detect them independent of any international committee?
    Secretary Albright. Yes. The scientific information that I 
have been given would indicate that those explosions that in 
any way would harm us or would undercut our ability to have 
that deterrent are detectable, and that we are confident that 
we can detect tests that would permit the development of new 
high-yield weapons that could have an impact on our deterrent, 
and we would have sufficient notice to respond.
    At lower yields I think it is very important, if I may 
continue, that we think that Russia, for instance there have 
been some activities at their test sites, as at ours, frankly, 
but there is no conclusion that Russia has tested above the 
zero yield.
    Senator Smith. As you talk about that, do you think Russia 
has the same interpretation of zero yield as we?
    Secretary Albright. Yes. We went through a negotiating 
process on this. That is correct, yes.
    Senator Smith. Thank you, Madam Secretary.
    The Chairman. I am trying to be fair in the time of 
Senators in the recognition of them. We have two Senators, one 
of whom has not had one bite at the apple today, Sam Brownback, 
and I think you had one brief period. If it is all right with 
you, I am going to let them. Is that OK? The reason I bring 
this up is because we generally go from side to side. So, Sam, 
you have not had a bite at the apple, you go first.
    Senator Brownback. Thank you very much, Mr. Chairman. I do 
not refer to you, Madam Secretary, as an apple. But the 
Chairman is very kind, and I know he does not refer to you in 
that way, either.
    Senator Kerry. Does that mean you are going to bite anyway?
    Senator Brownback. No, not at all. Thanks for coming to the 
committee. Always appreciate you coming here. I want to look 
back, and you talked about going on the technical basis or just 
a reasoning basis, and look at it in a reasoning basis. The 
problem I am having with this treaty at this point in time is 
this point in time. It appears to me that we are talking about 
taking an irreversible step. Now, some might say there are ways 
that you could reverse your field here, but we are in essence 
taking an irreversible step at a time that the world is in 
great flux on nuclear weapons issues.
    We have all noted India-Pakistan testing in recent times. 
Whether they will continue to or whether they will not, testing 
taking place in Russia has been brought up by the chairman of 
the Armed Services Committee. We have Iran, Iraq that we all 
know about of desiring to be nuclear capable countries that 
have not--that have signed but not ratified the treaty, and I 
just--I look at that universe, Madam Secretary, and I get real 
concerned that we are taking a step that we are going to sign a 
major treaty that puts our--puts it in blood for us that we are 
not going to do this at a time you have so many other places in 
play and desirous of doing things, and I really question the 
thought process that says that if the U.S. does this, then they 
will follow or they will come along with it.
    I look at that list of nations that I have just listed, and 
I cannot within them think to myself that, OK, if we would just 
ratify this, that is going to make the Iranians or the Iraqis 
ratify. I just have a real question about that. If we would 
just ratify this, that is going to make the Chinese step 
forward and do that, if we would just ratify this, that is 
going to make the Russians step forward, even though they have 
announced a new doctrine in their nuclear weaponry that they 
are pursuing. If we would just ratify this, that they will come 
along. As I rationalize and I think rationally, look at this, I 
do not see that.
    And then you can go to the South Asia area where we have 
been most concerned recently on India and Pakistan, and I think 
for good, legitimate purposes where you have got two nations 
that have been at war previously and then developing nuclear 
capacity which I think there is some other issues we ought to 
actually be discussing there other than just nuclear. I think 
we ought to be talking conventional weaponry and building 
better and broader relationships with both nations, and we were 
just sending you some broader authority that sanctions can be 
waived, that I have worked on and members of the committee here 
swallowed pretty hard to do that. But it is to build a broader 
relationship.
    I question that this is not a good time for us to be making 
this what I would perceive, and I think many would, an 
irreversible step with so many countries in play still, with so 
many countries not really given to following U.S. leadership 
that are doing these things, and I think we are not at a proper 
moment, and I have appreciated your testimony and I would 
appreciate your thoughts in response to that rationale.
    Secretary Albright. Well, actually, first of all, let me 
thank you on the waivers that we now have for India and 
Pakistan. I think that that is very important, and that they 
will help us move forward in being able to have a better 
relationship with both countries, and I met with both foreign 
ministers while I was in New York. We can talk more about this 
some other time, but I would like to thank you on that.
    Let me just say, I kind of look at this from a different 
angle, which is I think this is exactly the time because, first 
of all, I will keep repeating this because I think it is worth 
repeating. We have no intention of testing because we have no 
need to test, and there has been a moratorium in place put in 
by President Bush--there was a decision that we made that we 
had done enough testing and that through our various--the 
stockpile stewardship program, we have a way of making sure 
that our nuclear deterrent is safe, and if I might say among 
the six safeguards here that we have is the maintenance of the 
nuclear labs at a level to guarantee continued progress in 
nuclear technology, to maintain the capability to test again 
should the need ever arise. So we are not going into 
Rumplestiltskin mode here. We are ready to go, and basically we 
have decided not to test.
    So the question is why do this now, and it is in order to 
prevent exactly the countries that you are talking about from 
taking the next step that they might be willing to take. I have 
already talked about Russia. China, for instance. I think they 
could not probably develop their MIRV warheads for existing 
systems, and they could not exploit the information that they 
might have obtained. Everybody has been concerned about what it 
is they could have obtained through espionage. They cannot use 
that unless they can test. This would prevent that from 
happening.
    For India and Pakistan, it is an opportunity here to 
constrain a potential arms race and to limit lighter and 
smaller, more efficient warheads. As far as North Korea and 
Iran are concerned, this treaty would sharply limit their 
ability to develop small, efficient warheads that could be 
mounted on longer range missiles, including the North Korean 
Taepo Dong-2, which is what we have been working to try to get 
a moratorium on that. And it constrains their ability to 
exploit the missile that is the potential threat to the United 
States.
    So I think here, this is why this is the exact moment to do 
this. Now, the other point, we have found previously, and I 
mentioned this, when we finally ratified the Chemical Weapons 
Convention it brought along the other countries because they do 
look to us for leadership. The other point I think as a safety 
feature, if you are interested in this, this cannot go into 
effect unless all 44 of those designated countries do, in fact, 
ratify. So if we ratify and those others do not, it does not go 
into effect. It is a safety feature of that kind.
    So for me this is basically we lose nothing because we do 
not want to test, we prevent them from testing, and doing the 
kinds of things that I listed. We have a way out if we find 
that we have a problem because we can do supreme national 
interest, and meanwhile, our labs have been directed to keep us 
in tip top shape via virtue of other methods which, short of 
testing which we do not need, will make our nuclear deterrent 
reliable.
    Senator Brownback. I thank you for comments, and, Mr. 
Chairman, for your holding of the hearing. I think you are 
willing to step out a little further in faith and presumption 
that they are going to follow our lead than I would or that by 
us signing that we are going to be willing to reverse field 
later if they do not verify. I think we put very high stock in 
the fact that if we ratify, well, that is it, even if they do 
not come along. I think you are going out in steps of faith 
that I am not quite willing to assume at this point.
    Secretary Albright. Could I ask a question here, which is 
the following: Why do we think, you think that we lose anything 
by getting them to stop testing? That is the question. Because 
we are not limiting ourselves in any form. And if they do not 
ratify, if those countries that you mentioned do not ratify, 
this treaty does not go into effect.
    Senator Brownback. Well, I disagree with your presumption 
that we do not limit ourselves. I think this is a very big step 
for a Senate to ratify a treaty like this, saying that this is 
what we believe should be the case when you have so many other 
players out there that are still looking, testing, and not 
really willing to follow the United States' lead. The countries 
I listed I do not think will be following our lead. Iran and 
Iraq I know for certain will not be following our lead. I 
highly question the other countries that we list. To me, voting 
on this, and you have got a treaty that you are doing this 
with, that is taking a step that I do not think you back away 
lightly. Mr. Chairman, thank you for your patience in holding 
the hearing.
    The Chairman. Senator Grams.
    Senator Grams. Thank you very much, Mr. Chairman. Madam 
Secretary, again, I also add my thanks for you taking the time 
to be before the committee today. I have gone through all my 
questions. I can tell maybe when the hearing has gone on long 
enough that every question or good question has already been 
asked, so I am going to try to ask one of the old questions and 
just do it in a different way so I have something to say here. 
But I appreciate it.
    I know we could line up experts on both sides of this 
argument. We have heard people say this is the right time, this 
is not the right time, we can verify, we cannot verify. It 
seems like there is people on both sides of the argument.
    We are taking, as I think Senator Brownback just said, a 
leap of faith here in some concerns, I know like the lab 
directors who Senator Levin said today when he asked them point 
blank, are you onboard, they said yes, but also we have got 
statements from lab directors that say in order to contribute 
to a long-term confidence in the U.S. stockpile, testing of 
nuclear weapons should be done.
    Of course, if nuclear testing were allowed, we would gain 
greater confidence in the new tools, another quote from a 
purely technical standpoint, ``some level of nuclear testing 
would be useful.'' Another quote, ``a strong stockpile 
stewardship and management program is necessary to underwrite 
confidence.'' So I think even some of the experts have been 
able to be on both sides of this issue, so I think you see how 
tough of an issue it is, I think, for some of us to come to a 
conclusion.
    You have said this is the right time. We are being asked to 
vote basically up or down on a treaty, you know, there has been 
questions of whether the administration negotiated a position 
on the treaty different from what where we started, of having a 
definite duration, permitting low-yield tests, it was a 
verifiable treaty, we are now doing something different than 
that. Article 15 dealing with reservations that says the 
articles out in the annexes to this treaty shall not be subject 
to reservations. The UC that we have on the floor if we take a 
vote is basically unamendable, so we are being asked to vote up 
or down on a treaty.
    Do you think this is the best time to vote on this treaty 
or would you go along with maybe some of the suggestions that 
have been made that this vote not happen for maybe another 2 
years?
    Secretary Albright. Well, first of all, let me say that I 
am very glad that this hearing has taken place, and I think 
that I respect all the questions that have been asked and have 
been very pleased to answer them. I also do think that the 
kinds of questions that you have asked of a technical nature 
all need to be answered in a way that satisfy you.
    Just briefly, I can say that on some of the issues that 
have been raised by the labs, work is in progress on this, and 
they have been given not an inconsequential amount of money, 
$45 billion to work on it, which presumably is in order to be 
able to carry through on this kind of work to make sure that it 
can be done. I would hope very much that this conversation 
would not lead to our saying that we want to resume testing. I 
think that would be a U-turn of such major proportions that it 
would undercut our entire proliferation, our nonproliferation 
policy, and I think would be a very, very serious consequence 
for this country if we were to even contemplate that when we do 
not need to.
    In order to answer your question, let me just say that I do 
believe that this is an important treaty, that it deserves 
careful consideration. It is one of the, you know, landmark 
huge treaties that we have been--we have negotiated and you 
have been asked to ratify. I think that the process has been 
artificially constrained, and it does not give time to reach a 
careful judgment, and I think that the leadership ought to work 
out some kind of a serious process to give this treaty the 
careful attention it deserves at a later date.
    Senator Grams. One other question I wanted to ask and I had 
asked it of the earlier panel, but a lot of faith would be put 
in computerized testing and not actual testing of weapons. And 
there was an article this week in the New York Times, I think 
it was, Mr. Adamov, who is the Russian Minister of Atomic 
Energy, talking about having those supercomputers and the 
article included, Russia has long sought to acquire powerful 
American computers able to do this. And he said in the article, 
``the United States should share some of its computer 
techniques so that other nations can better assess the 
reliability of the nuclear arsenal without testing.''
    He went on to say, ``conditions should be established that 
all nations who possess nuclear weapons would have the same 
opportunity to engage in computer simulations.'' The Russians 
have long asserted the Clinton administration promised to 
provide such advanced abilities to Russia if the Kremlin agreed 
to the test ban. Does that mean under this negotiation, or has 
the administration given any indications that it would somehow 
share this generation or the next generation of our computer 
abilities with the Russians?
    Secretary Albright. Let me say that we have made no such 
promise, and we will not do that.
    Senator Grams. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Senator Biden.
    Senator Biden. Mr. Chairman, I will be brief. Let me make a 
couple of points while my colleagues, all of whom, the two 
gentlemen who are still here, who I respect greatly, and they 
raise questions that I think warrant further exploration, and I 
won't take the full time now, but I asked my staff while you 
were testifying, Madame Secretary, to get the makeup of the 
executive council.
    You know, you need 30 votes on the executive council to be 
able to have an onsite inspection, and the question has been 
raised by many would we actually really get 30 votes, and the 
analogy that is used by Ms. Kirkpatrick before you testified 
was the United Nations, and you can't do anything in the United 
Nations, et cetera. I actually went down the list, or I did and 
my staff did, and Africa gets 10 seats, Eastern Europe 7, Latin 
America 9 and the Middle East and South Asia 7, North America 
and Western Europe 10, East Asia 20. If you add these up and 
you look at each of the nations, we get right away to 23 or 24 
certain votes.
    And then the states, even the states that are not certain, 
let us take Eastern Europe, Bosnia-Herzegovina, Bulgaria, 
Croatia, the Czech Republic, Estonia, Georgia, Hungary--Georgia 
because they are afraid of Russia, they are afraid of Iran and 
Iraq. Hungary, Latvia, Lithuania, Moldova, Poland, Romania, 
Slovakia, Slovenia, these are all votes. These are all votes, 
because in their naked self-interest they are going to want to 
make sure that Iran and Iraq, the people they view as their 
enemies to be, they are potential threats unrelated to us.
    So if you go down the list here, I just say to my 
colleagues, and I will put this in the record, it seems to me 
pretty darned easy to get to 30 votes, not because 30 nations 
love us, but because it is in their naked self-interest. In the 
Middle East section they get 7 seats, 26 eligible folks, right? 
What do you think Turkmenistan or the Arab Emirates, 
Uzebekistan and Yemen, do you think they are going to say, Nah, 
we do not want them to check whether or not Iraq and Iran are 
blowing up nuclear weapons? Do not worry about it; it is OK by 
us, because we do not like the Ugly Americans? I mean, I just 
think people should look at the list and look at other 
countries' self interests. Again, obviously, you cannot 
guarantee anything.
    [The information referred to follows:]

     Biden Staff Analysis of Likely CTBTO Executive Council Voting

  <bullet> A quick review of the candidates for seats indicates that we 
        should expect, in almost all instances, to get all the votes of 
        the West Europe/North America group. So we start with 10.
  <bullet> Aside from Yugoslavia, Russia, and one or two others, the 
        Eastern Europe group comprises strong U.S. allies. So that's 
        another 5-7 votes.
  <bullet> Similarly, many of the Latin American states either: (1) are 
        strong allies; or (2) strongly favor the Test Ban. So we should 
        usually get most of those 9 votes.
  <bullet> That gets us very quickly to the low-to-mid-20's, in most 
        instances (even being conservative and assuming that we don't 
        get all the votes in the above 3 groups).
  <bullet> That leaves the Africa group (10 seats), the Middle East/
        South Asia group (7 seats), and the East Asia group (8 seats). 
        There our work, depending on the makeup of the Executive 
        Council at the particular time, could get a little harder.
  <bullet> But even there the rosters have U.S. allies, or proponents 
        of nonproliferation.
  <bullet> Thus, it is hard to see how we won't get to 30 in most 
        instances.
  <bullet> In truth, it is more likely that most U.S. inspection 
        requests, based on our intelligence and the data from the 
        International Monitoring System, will be easily approved.

    Senator Biden. With regard to this issue of the United 
States will not test, I find it kind of fascinating that the 
Senator just indicated, which is legitimate, that we have got 
these supercomputers and the Russians are saying, and every 
other nation, everybody forgets, because we focus on the trees 
instead of the forest here, everybody else we hear from today.
    From the chairman of the Armed Services Committee, we heard 
from Mr. Schlesinger yesterday. The chairman was kind enough to 
give me an opportunity to participate as an ad hoc member of 
that committee, about how our allies and our enemies are going 
to lose confidence in our ability to verify that our stockpile 
is reliable and that it is safe.
    Now with regard to our enemies, quote, unquote, ``That is 
how they view it.'' Russia and China--I do not consider Russia 
my enemy, but that is how it is considered, right? They are 
going to--so the argument went yesterday, and we will hear on 
the floor, they are going to say, You know, those Americans, 
you cannot rely on those 6,000 weapons because they are not 
testing anymore, so now is our chance.
    That is the implication of it. When in fact the Russians 
are saying, Hey, this ain't fair, you have got these 
supercomputers; you guys are going to know your weapon system 
is reliable; we are not going to know. Give us the computer 
system. I mean, Mr. Chairman, the way we argue in the 
alternative here, we say, Hey, our system is not reliable, but 
look at those Russians. They are trying to get hold of our 
system. How to deal unreliably without testing?
    Then we say, Well, we are not going to--we will not be 
allowed to modernize, but you know what, if this goes forward, 
those other nations will modernize.
    Well, give me a break. We by far and away are more 
sophisticated than any other nation in the world, and if we 
cannot modernize, how the heck are they going to modernize?
    And so my point, the thing I would like you to speak with 
me about a second, Madame Secretary, and I will end this, is 
that we are in a position where we have decided not to test. I 
do not know, have you heard, has anybody from the foreign 
policy establishment on the center right, where you would find 
those who do oppose--and a lot there do not oppose--but who do 
oppose the treaty, has anyone suggested publicly, and is anyone 
on this committee suggesting we should resume testing?
    I mean, that is a legitimate question. I sincerely mean it. 
Has any significant name in the foreign policy establishment 
said to you publicly or privately that we should resume 
testing?
    Secretary Albright. No, no one has. And I think the 
question here is where do these questions lead to, because that 
is the problem. It leads to the supposition that you might want 
to test when we do not want to test, when we have been the lead 
in not testing.
    Senator Biden. My time is up. But I am sorry to do this to 
you and I will end, because there is another panel, but the 
second point I would make is, if you cut through the concern of 
the people I most respect, and I respect some of the very same 
people my Chairman does, people like Schlesinger, people like 
Ms. Kirkpatrick, people like Caspar Weinberger, you cut through 
it all and here is the real objection and it is legitimate. 
(a), even though we can get out, we will not have the will to 
get out; (b), we do not have the political will.
    No. 2, that even though the circumstance would not allow 
any President, this or the next one, to unilaterally begin 
testing, because the political climate would be so 
counterproductive if they did that, even though that is the 
case, and we will not be testing, it is better to not sign on 
to a treaty, because we want to hold off that possibility to 
test.
    The third thing you hear is, the third legitimate argument 
I think is, You know, if you stop testing you lose an entire 
generation of nuclear scientists who learned a lot about 
nuclear weapons by the testing. That is an argument Schlesinger 
and others make. It is legitimate. It is legitimate, but I do 
not understand how they do not understand, if you are going to 
spend $45 billion in those laboratories, how you are not going 
to attract an entire new generation who are going to be even 
more sophisticated.
    So, Mr. Chairman, I have gone beyond my time as usual. But 
you are kind to let me do it. There are legitimate arguments 
against this treaty. I respectfully suggest none of them have 
to do with verification, with our ability, our stockpile not 
being reliable, et cetera. I think they go to deeper 
fundamental questions, which is always the case, why my friend 
says, as--I forget who he always quotes, but he quotes somebody 
and says, ``We have never lost a war or won a treaty.'' I think 
that is something that is the fundamental dividing line here on 
this, and it is a legitimate one, but I think we should argue 
it up front, talk about the forest, not just the little, tiny 
trees in the forest. But I thank you for being here.
    Secretary Albright. Thank you. Let me just say two words 
here, one on the list that you read. A lot of those countries 
were the countries--were the countries that were in the NPT 
review who were the ones who said go for a comprehensive test 
ban treaty. So that is part of our faith with them, so why 
would they not, in fact, want us to be able to have those kinds 
of onsite inspections? It is for their benefit.
    Let me say on the last point you make about the treaties, 
I, along with all of you, have spent a major portion of my 
adult life looking at arms control treaties and there always 
are these questions. What do we do then? They are not perfect. 
They can cheat, and as Ronald Reagan said, ``Verify''--here, I 
think, ``Do not trust; verify.'' I think we, in the end, all 
based on that, everything that is important can be verified. 
The problem here is we have to understand--that I happen to 
believe that we are better off because of the arms control 
treaties we have had. They are not perfect; neither is this 
one. But it is beyond my understanding as to why, when we are 
not going to test, and in my belief should not test, and have 
the best scientists in the world with the state-of-the-art, 
that they have $45 billion now to even improve, why would we 
give a license to those countries that want to test the ability 
to do so with impunity when we can actually get our arms around 
the nuclear arms race and strangle it.
    The Chairman. Madame Secretary, I am one of the culprits in 
thinking that we could cover more territory than we have been 
able to cover today, and I am so apologetic to the third panel, 
but if they will persevere, I will. But I do have one question 
that bothers me, and I must ask it.
    We, when we questioned John Holum as to why the treaty 
fails to define what it purports to ban, he gave me a very 
confusing response. He said, and I quote him, ``The course of 
negotiations confirmed our judgment that it would have been 
difficult and possibly counterproductive to specify in 
technical terms what is prohibited by the treaty.''
    Now my question is, one of them, is the reason that it 
would have been difficult and counterproductive to pursue such 
a definition because other countries interpret the treaty to 
permit low-yield testing? Do you feel it does?
    Secretary Albright. I believe that this treaty is zero-
yield. And that is the basis on which it has been presented to 
you.
    The Chairman. Well, that is not a yes or no.
    Secretary Albright. Undersecretary Holum?
    The Chairman. We are all friends here. We are just trying 
to get to the truth.
    Mr. Holum. The basic answer is that there was a history 
going back to the threshold test ban treaty and other treaties 
that no yield--that zero means no testing at all. It was 
discussed extensively as Ambassador Ledogar went into, I 
believe, earlier today in his testimony. Among the nuclear 
weapons states, the only ones having any capability to do 
something very small, they had a long history of negotiations 
among themselves back and forth and came to an agreement, as 
Ambassador Ledogar described, that zero means no yield. And all 
other countries understand it that way, as do the five nuclear 
weapons states.
    The Chairman. Well, he handed me a note, which is correct. 
The treaty does not say zero; it does not define its terms at 
all. That is the point I am making.
    Mr. Holum. But it does ban any nuclear test explosion or 
any other nuclear explosion, and in the negotiating record it 
is very clear that that means there cannot be any critical 
yield from a nuclear event. You can do things that do not go 
critical; you cannot do things that do.
    The Chairman. What I am getting at, of course, is the 
Russian Government has clearly stated the view that 
hydronuclear testing is permitted. Now, there is a chart 
somewhere over there that contains a quote from the Deputy 
Minister of Atomic Energy stating this view. Now, this is a 
senior Russian Government official, and I am sure there are 
plenty of other Russians claiming that they will adhere to a 
zero-yield ban, but the fact of the matter is Russia has stated 
a need to develop a new low-yield tactical nuclear weapon and 
has stated the intent to conduct nuclear testing despite CTBT. 
That is correct, is it not?
    Secretary Albright. Let me state here, Mr. Chairman, some 
Russian officials that have not been involved in the 
negotiations appear to be confused about its limits. The 
negotiating record that Ambassador Ledogar described said that 
zero means no nuclear yield, however small, and that is the 
standard we will apply. The Russians described their test site 
activities as subcritical. That is the same thing we are doing. 
That is, those that do not have a chain reaction.
    The Chairman. I think I understand that. But Russia has a 
clear pattern of activity at its nuclear test site and this is 
the bottom line. How is it possible to reach any conclusion 
other than that Russia does not interpret the test ban in the 
way the United States of America does?
    Mr. Holum. I just encourage you to look closely at what 
Ambassador Ledogar has produced, and the record of the 
negotiations, it is the same as the legislation here. You rely 
first of all on the terms of the law and then on the 
legislative history to identify what the agreement means, what 
the legislation means. And it is, although Victor Mikhaylov 
would very much like to have the treaty say something other 
than it does and have it mean something other than what it 
does.
    The Chairman. I get more confused as we get into this 
thing, and I am almost sorry I did it. Are you saying that the 
Deputy Minister of Atomic Energy does not know his Government's 
position on nuclear testing? Is that what you are saying?
    Mr. Holum. It appears to be that that is the case, because 
he is saying something that is inconsistent with what his 
Government agreed to in the Conference on Disarmament in 
Geneva.
    The Chairman. Very well.
    Senator Biden. Mr. Chairman, why does he not answer the 
rest of your question? I do not think he did, in all due 
respect. The chairman said that how can you interpret based 
upon what is going on in Russia now, not verbally, but in terms 
of quote, ``the alleged testing''? How can you interpret that 
they mean anything other than something less than zero? Is 
there any evidence, conclusive evidence, that they are testing 
nuclear weapons now?
    Mr. Holum. No, there is not. There is activity at the test 
site, as the Secretary said, and I am sure most of you or many 
of you have had the briefing that the CIA has generated on that 
subject. There is no conclusion in that, and I cannot go into 
it in detail here, but there is no conclusion in that that they 
are doing anything that would violate the threshold or the 
level of permitted activity in this treaty.
    The Chairman. Well, what is the activity at the test site? 
Are they playing poker or something?
    Mr. Holum. Well, we are doing the same thing, Mr. Chairman, 
at our test site that they claim to be doing at theirs. We are 
doing subcritical experiments; we are setting off high 
explosive devices with material that serves the function of 
fissile material to see that it works. We are going that close. 
But as soon as it becomes critical, it violates the treaty. If 
it produces a nuclear yield, then it violates the treaty 
threshold.
    Senator Biden. In other words, Mr. Chairman, you can have 
an explosion that can be detected that is not a nuclear 
explosion. It can be an explosion for the stuff that blows off 
the nuclear explosion. And I understand the way a nuclear 
weapon works, there is an explosion, a high explosive that is 
not a nuclear device that in effect detonates the nuclear 
device.
    Mr. Holum. That is right.
    Senator Biden. And you can test that to determine whether 
that works, right?
    Mr. Holum. That is right. You can test all the way up, but 
I feel as a lawyer, I feel very uncomfortable answering 
questions on that when you have Dick Garwin on the next panel, 
who knows everything there is to know about that.
    The Chairman. Maybe we can get an answer that clears up my 
confusion from that panel. But seriously, I thank both of you, 
Madame Secretary, I know this has been a grueling experience 
for you, particularly since you came across the country to do 
this. And I appreciate it very much.
    Secretary Albright. Thank you. Actually, it has been quite 
enjoyable. I appreciate the fact that you had the hearing, Mr. 
Chairman.
    The Chairman. Thank you very much. We have a vote on, and 
we would invite the third panel to come to the table if they 
are still waiting.
    [Pause.]
    The Chairman. Let us see. We have two out of three, and 
there in a moment will be our good friend Ron Lehman, who is 
former Director of the Arms Control and Disarmament Agency, and 
Mr. Troy Wade is seated in the middle chair, the chairman of 
the Nevada Alliance for Defense, Energy and Business from Las 
Vegas. And last, but not least, Dr. Richard L. Garwin, senior 
fellow for Science and Technology at the Council on Foreign 
Relations in New York City.
    Now, I am sorry we are so late getting started, but we did 
the best we could, and we tried to do too much in one day, and 
you are paying for it. Back when I was a boy in grade school, 
we used to say, that will learn you, darn you. But why do we 
not start with you, Ron? And you can begin your statements, and 
I will go as far as I can until one of the other Senators gets 
back. And you understand the predicament we are in. And I 
welcome all of you, and I am grateful to all of you, and the 
next time we will not treat you this bad.

   STATEMENT BY HON. RONALD F. LEHMAN, FORMER DIRECTOR, ARMS 
         CONTROL AND DISARMAMENT AGENCY, PALO ALTO, CA

    Mr. Lehman. Mr. Chairman, thank you. I know the hour is 
late, but I am prepared to stay and help as best I can. I was 
asked to prepare a statement but I did not get the invitation 
until 2 days ago, so if I had had more time, it would have been 
much shorter. But I was asked also to try to address many of 
the issues that--but there are so many that there is no way 
that I could. Nevertheless, given the hour, perhaps I should 
submit the longer statement for the record. Or would you prefer 
that I go through it in some detail?
    The Chairman. Please submit the statement, but that does 
not eliminate my desire for you to discuss the issue.
    Mr. Lehman. All right, then let me try to capture some of 
the issues that are a bit different than others than have been 
raised, perhaps. I focused on this issue, as you know, for many 
years and have been before this and other committees many 
times, but I want to emphasize today that I am here solely in 
my personal capacity and that none of my views are the views of 
any administration or organization or institution with which I 
am now or have been associated.
    Having said that, I think you will find a tremendous 
consistency between what I say today and what I have said in 
the past. But of course, there is some modification to reflect 
changes on the international scene.
    I think what I want to highlight is the difference between 
my testimony this time and the tone of my testimony in the 
past. In the past, I have really been fortunate to come before 
this committee and stress accomplishments, but today I think 
what I would really like to talk more about is what it is we 
are failing to do. And when I say ``we,'' I mean the entire 
foreign policy establishment of the United States, and frankly 
I mean both the legislative and executive branches and I mean 
concerned citizens and individuals such as myself.
    What the United States has failed to do at the end of the 
cold war is to articulate a strategy that sustains the momentum 
that we had achieved at the end of the cold war in building a 
better and safer peace. And I would like to highlight some of 
the reasons why that is so. Despite the best of intentions of 
talented people in and out of government, we as a Nation have 
not been able to deal with powerful trends such as 
globalization and technological advance which have created new 
difficulties as well as new opportunities. In part, we have 
failed to deal with the legacies of the past, such as regional 
instabilities, ethnic conflicts, economic resentments, 
geopolitical ambitions and domestic political divisions 
overseas and at home.
    I think that we have also forgotten some of the basic 
principles that led to the success of the arms control 
revolution at the end of the 1980's and in the early 1990's. 
Those basic principles placed an emphasis on high standards of 
military merit, pressing the verification envelope, and 
creating the geo-strategic conditions for progress. The current 
debate over the ``zero-yield'' Comprehensive Test Ban Treaty 
reflects all of those factors--new forces, painful legacies and 
neglect of the basics.
    To put the current discussion in perspective, it might be 
useful to remember how we got to where we are. The history of 
nuclear testing arms control is complex and sometimes colorful, 
not always dignified, but always an important reflection of 
broader forces in play. The history is too lengthy even to 
summarize here, yet a clear American approach to the question 
of nuclear testing had emerged over the years. The primary 
contribution of nuclear testing limitations had been achieved 
by the 1963 Limited Test Ban Treaty which banned tests 
everwhere but underground and thus dealt with health and 
environmental dangers associated with large nuclear tests in 
the atmosphere. These dangers were reduced somewhat further by 
the 150-kiloton restraint on underground testing of the 1974 
TTBT, although dissatisfaction with its verification provisions 
(and those of the PNET of 1976) delayed ratification for 16 
years.
    Concerns about compliance with the TTBT while the U.S. 
continued a moratorium, however, ultimately led to the ``fly-
before-buy'' Joint Verification Experiment and subsequently the 
Verification Protocols to the Threshold Test Ban Treaty in the 
PNET. These protocols were negotiated with the very closest 
consultation with this committee and the rest of the Senate. 
The resulting process and protocols radically transformed 
onsite inspection, set a new standard of effective 
verification, and resulted in the Senate giving consent to 
ratification unanimously by a vote of 98 to 0.
    Although the Eisenhower, Kennedy, and Carter 
administrations had explored more comprehensive negotiated and 
codified limitations on nuclear testing, none was able to 
achieve them, even given the easier standards of verification 
and military merit which had been developed in those earlier 
periods. All ultimately were compelled to explore more limited 
approaches to test bans in terms of less binding moratoria, or 
reduced yields, or partial bans, or time limitations, or 
combinations of these.
    By the end of the cold war, U.S. policy had evolved a step-
by-step approach to nuclear limitations that was cautious, and 
for good reason. Nuclear testing limitations were of 
increasingly limited arms control value in the superpower 
context. More useful approaches to arms control than nuclear 
test limitations were now possible, and increasingly we were 
exploring ever more cooperative and intrusive threat 
reductions.And frankly, the nuclear testing issue also had a 
greater potential to be divisive at home and abroad, thus 
diverting resources from more valuable nonproliferation efforts 
such as regional peace processes, ``loose nukes,'' a timely 
cutoff of unsafeguarded fissile material production, and the 
growing concern about biological weapons and terrorism.
    If arms control is narrowly defined, the arms control merit 
of nuclear testing limitations was seen as of increasing 
utility and increasing danger to the U.S., the lower the limit. 
It was not a straight line, but generally that was the case. 
Why? Because the wrong nuclear testing limitations could put at 
risk the nuclear deterrent of the United States and undermine 
security guarantees and relationships under which other nations 
felt it possible to forgo nuclear options of their own.
    The impact of nuclear testing limitations on the U.S. 
nuclear deterrent is a lengthy discussion of its own. I am 
prepared to address these issues, but in the interest of 
brevity let me simply highlight several points related to arms 
control. The United States has never been fond of qualitative 
arms control measures because so often they work against 
advanced industrial democracies. The democracies look to 
technology to compensate for manpower and to free resources for 
other public goods. Limits on science and technology are 
difficult to define and frequently harder to verify than 
quantitative limits, so qualitative contraints here again tend 
to favor closed, authoritarian societies, all other things 
being equal (which, of course, they actually never are).
    But more importantly, democracy as we practice it demands 
accountability. To maintain our nuclear deterrent we must be 
able to demonstrate to the American people and their elected 
officials that the weapons in the stockpile are safe, secure, 
reliable, and appropriate to their missions. When two 
physicists differ dramatically in their assessments, 
responsible officials want to know the truth. Nuclear testing 
has often been the only way certain disputes could be resolved 
with the necessary finality. Inherent in the debates over the 
``spirit of the CTB'' are pressures to codify ignorance and 
police thinking in ways that create tensions with U.S. 
interests, democratic responsiblity, and even the scientific 
method.
    The most compelling reason that the United States never 
walked away from the CTBT as a long-term goal was 
nonproliferation. Yet even here, there were serious concerns 
about the impact of the CTBT. All but a handful of states 
(Cuba, India, Israel, Pakistan primarily) are already parties 
to the nonproliferation treaty. Except for the five nuclear 
weapons states, these parties are obligated not to have nuclear 
weapons programs and thus should not have nuclear weapons to 
test. The main thrust of the CTBT actually involves very few 
states. Often the CTBT was seen in the West as a halfway house 
for those states outside the NPT into the NPT. The problem is 
that some in those states saw the CTBT as an alternative regime 
to the nonproliferation treaty, one based on a more egalitarian 
principle under which all parties would be free to have nuclear 
weapons. They just could not test them.
    The danger is the CTBT then becomes a halfway house out of 
the NPT, or at least a less restrictive alternative approach to 
nonproliferation. This need not happen, but it could if we are 
not careful. Already it has become common in public discussion 
to speak of proliferation as having occurred only after a state 
has tested its nuclear weapons. This erosion of standards is 
very dangerous and again reflects the mistaken belief that 
proliferators must always test their weapons to have confidence 
in them. This involves more mirror imaging than is warranted. 
The proliferators' needs are not the same as ours.
    Also, as technology such as supercomputing advances and 
spreads, more and more states will be able to have confidence 
in more and more nuclear weapons capability without testing. To 
address these problems, the United States and like-minded 
states must work to address fundamental regional security 
concerns. Above all, it must avoid the neo-Kellogg-Brandism 
that would have us substitute grandiose global pledges for the 
hard work of creating the conditions for a safer world by 
engaging states and regions of concern. Already we have seen in 
the context of the CTB a worsening of the situation in South 
Asia.
    Still, it would be wrong to say that the CTBT only relates 
to a few. Many of the parties to the nonproliferation treaty 
have said their commitment to remain in the treaty is realted 
to the implementation by the nuclear weapons states of article 
VI of the treaty. The NPT commits the nuclear weapons states to 
a cessation of the nuclear arms race and commits all parties to 
work toward general and complete disarmament. Most of these 
states have taken the position that the achievement of a CTBT 
is required under article VI, but most have also said that 
article VI also requires the ultimate elimination of all 
nuclear weapons themselves. And the official policy of the 
United States remains that this, too, is an ultimate goal.
    How does the United States reconcile this view with its 
view that the nuclear umbrella and security guarantee it 
provides to key allies also is necessary for nonproliferation? 
The answer always has been that the United States will not give 
up its nuclear weapons until the conditions have actually been 
created in which they are no longer necessary. To do otherwise 
would result in powerful pressures for nuclear proliferation. 
Half the world's population lives in countries that have 
nuclear weapons, and if we do not deal with the legitimate 
security concerns of the others, more states will seek their 
own weapons of mass destruction programs.
    If a CTBT were to shatter confidence in safety, security 
and reliability of the American nuclear umbrella, they may do 
the same. If we invoke safeguard F, involving the supreme 
national interest clause, we may provoke or legitimize similar 
acts by proliferators. This safeguard carries almost the entire 
weight of the argument for this CTBT, yet it puts the United 
States in a ``damned if you do, damned if you do not'' 
situation with respect to nonproliferation, especially if there 
are states simply looking for a pretext to test.
    Mr. Chairman, it is my personal view that the arms control 
arguments for a zero-yield CTBT are not compelling and that the 
nonproliferation impact of any CTBT can be very uncertain and 
involve foreseeable dangers as well as unintended consequences. 
A better way to proceed is a step-by-step process in which 
constraints are related to advances in verification, advances 
in a validated stockpile stewardship program, development of an 
appropriate weapons stockpile for a post-cold war and testing 
limited environment, and advances in global and regional 
security. Unfortuantely, all of this is about why we did not 
want to be where we are now.
    But we are here now. What should be done now? Without this 
treaty or with it, we should continue to work with other 
nations, but most particularly with countries of concern to 
advance a more cooperative, but realistic security 
relationship. With or without this treaty, we should continue 
to address verification and compliance challenges, and I 
believe that should also include those associated with nuclear 
testing restraints. With or without this treaty, we should 
exploit a vigorous stockpile stewardship program so that we can 
have confidence in our deterrent while also demonstrating the 
maximum restraint possible. With or without this treaty, we 
must continue to develop and implement a more coherent, 
bipartisan strategy for building a safer world.
    If this treaty were time limited, were not zero yield, 
provided restraints at more verifiable levels, provided more 
clearly for the legitimacy of further testing (if and when it 
is needed), were not so prone to ever more restrictive 
interpretation down the road, and if conditions were such that 
the stated nonproliferation objectives could actually be 
achieved, then the debate would not be so intense. 
Unfortunately, this treaty, signed already by the United 
States, is none of these things, and there is no easy way to 
fix it.
    To approve this treaty may undermine years of 
accomplishment in arms control and nonproliferation. Yet 
expectations about this treaty have been built up around the 
world and here at home. The case for this treaty is weak, but 
unfortunately, the explanations for why the conditions for this 
treaty do not exist have also not been made even to our allies. 
These explanations are only now finally being made to our own 
citizens. It is one thing to say we never should have gotten 
into this position. It is another thing to make a worse hash of 
it. The challenge to this committee and executive branch is to 
find a way to get American nonproliferation strategy back on a 
sound footing such that it earns bipartisan support and 
provides the U.S. leadership necessary in the global arena.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Lehman follows:]

              Prepared Statement of Hon. Ronald F. Lehman

    Mr. Chairman, Members of the Foreign Relations Committee:
    On numerous occasions, I have appeared before this distinguished 
panel to discuss the policy of the United States on arms control and 
nonproliferation. From the perspective of various positions I then held 
in government, I addressed the nuclear testing question. More recently, 
you have asked me to testify as a private citizen. It is in that 
personal capacity that I testify today, and only in that capacity. 
Thus, you should not assume that these are necessarily the views of any 
administration, organization, or institution with which I am now or 
have been associated. Please take that admonition to heart. The ability 
of individual citizens to keep their professional responsibilities and 
their private views in their proper place is the key to harnessing the 
diverse skills of this nation. I did not ask to testify, but I would 
never turn down your request. Given the burdens you shoulder, I 
recognize the importance of working together in a candid, nonpartisan 
way on behalf of the nation's greater good.
    The views I express today are entirely my own. At the same time, 
this committee will recognize a consistency in my presentations over 
the years, although some of the details have evolved with changes on 
the international scene. There is one important difference, however. 
The theme of my previous presentations has been to emphasize what we 
are accomplishing. Sadly, my theme today emphasizes what we are failing 
to do. And by ``we'' I mean the aggregate foreign policy community of 
the United States including both executive and legislative branches of 
governments as well as concerned individuals such as myself.
    Despite the best of intentions of talented people in and out of 
government, we as a nation have failed to articulate and implement a 
strategy that sustains the momentum toward a better, safer world 
achieved at the end of the Cold War. Indeed, many past accomplishments 
in arms control and nonproliferation have begun to unravel. In part, 
powerful trends such as globalization and technological advance have 
created new difficulties even as they offer new opportunities. In part, 
dealing with legacies of the past such as regional instabilities, 
ethnic conflicts, economic resentments, geopolitical ambitions, and 
domestic political divisions overseas and at home has been a larger 
challenge than expected.
    And in part, we have all forgotten some of the basic principles 
that brought success in the arms control revolution at the end of the 
'80s and into the early '90s. These basic principles placed an emphasis 
on high standards of military merit, pressing the verification 
envelope, and creating the geo-strategic conditions for progress. They 
put a premium on solving problems, not on declaring them solved. These 
sound negotiating principles led to the two START treaties, the INF 
Treaty, the Treaty on Conventional Forces in Europe (CFE), the Chemical 
Weapons Convention (CWC), the Joint Verification Experiment (JVE) at 
nuclear test sites, the Verification Protocols to the Threshold Test 
Ban Treaty (TTBT) and Peaceful Nuclear Explosions Treaty (PNET), and 
many other important agreements. These agreements were important and 
valuable, not because of signing ceremonies, but because they were part 
of a comprehensive national security strategy which very clearly served 
the interest of the United States and its friends and allies. Because 
these agreements were negotiated tenaciously, but directly and in 
detail with the relevant parties, they also had the effect of reducing 
tensions with potential adversaries. Because they were negotiated in 
the closest of bipartisan consultations, they were all approved by the 
Senate and supported by the Congress as appropriate.
    The current debate over the ``zero-yield'' Comprehensive Test Ban 
Treaty (CTBT) reflects all of these factors--new forces, painful 
legacies, and neglect of the basics. To put the current discussion in 
perspective, it might be useful to remember how we got to where we are. 
The history of nuclear testing arms control is complex, sometimes 
colorful, not always dignified, but always an important reflection of 
broader forces in play. This history is too lengthy even to summarize 
here. Yet, a clear American approach to the question of nuclear testing 
had emerged over the years.
    The primary contribution of nuclear testing limitations had been 
achieved by the 1963 Limited Test Ban Treaty which banned tests 
everywhere but underground and thus dealt with health and environmental 
dangers associated with large nuclear tests in the atmosphere. These 
dangers were reduced somewhat further by the 150 kiloton restraint on 
underground testing of the 1974 TTBT, although dissatisfaction with its 
verification provisions (and those of the PNET of 1976) delayed 
ratification for sixteen years.
    Concerns about compliance with the TTBT while the U.S. continued a 
moratorium, however, ultimately led to the ``fly-before-buy'' Joint 
Verification Experiment and subsequently the Verification Protocols to 
the TTBT and PNET. These Protocols were negotiated with the very 
closest consultation with this Committee and the rest of the Senate. 
The resulting process and protocols radically transformed on-site 
inspection, set a new standard of effective verification, and resulted 
in the Senate giving consent to ratification unanimously by a vote of 
98-0.
    Although the Eisenhower, Kennedy, and Carter Administrations had 
explored more comprehensive negotiated and codified limitations on 
nuclear testing, none was able to achieve them, even given the easier 
standards of verification and military merit which had been developed 
in those earlier periods. All ultimately were compelled to explore more 
limited approaches to test bans in terms of less binding moratoria, or 
reduced thresholds, or partial bans, or time limitations, or 
combinations of these.
    By the end of the Cold War, U.S. policy had evolved a step by step 
approach to nuclear limitations that was cautious, and for good reason. 
Nuclear testing limitations were of increasingly limited arms control 
value in the superpower context. More useful approaches to arms control 
than nuclear test limitations were now possible, and increasingly we 
were exploring ever more cooperative and intrusive threat reduction. 
And frankly, the nuclear testing issue also had a greater potential to 
be divisive at home and abroad, thus diverting resources from more 
valuable nonproliferation efforts such as regional peace processes, 
``loose nukes,'' a timely cut-off of unsafeguarded fissile material 
production, and the growing concern about biological weapons and 
terrorism.
    For a number of reasons, no next step after the TTBT was formalized 
at the end of the Cold War because at the substantive level, the 
nuclear testing issue had been overtaken by events. Implementation of 
the TTBT was to have provided technical experience for the next step, 
but this was overtaken by momentous events such as the breakup of the 
Soviet Union (including achieving START II and the adherence of 
Ukraine, Kazakhstan, and Belarus to the Nuclear NonProliferation Treaty 
(NPT) under the Lisbon Agreement), and by domestic legislation. The 
TTBT itself, however, with its lower inspection thresholds suggested 
that some ratcheting down of permitted yields might be explored 
cooperatively. The end of the Cold War and improvements in testing 
instrumentation and science offered the possibility also that the 
number of tests could be reduced. Some thought was given to limiting 
the number of tests above a verifiable threshold. The Executive Branch 
found no new subtantive reasons then to pursue immediately a near zero-
yield CTB, much less a zero yield CTB, because the conditions under 
which they would be in the interest of the U.S. and its allies were not 
seen on any horizon.
    Generally, arms control is best defined broadly to include 
nonproliferation, confidence building, and the like. But one can define 
arms control more narrowly, as is often done, as meaning the 
negotiation of limits on weapons and forces and as something distinct 
from nonproliferation. From the perspective of that more narrow 
definition, the arms control merit of nuclear testing limitations was 
seen as of decreasing utility and increasing danger to the U.S. the 
lower the limit. It was not a straight line, but generally that was the 
case. Why? Because the wrong nuclear testing limitations could put at 
risk the nuclear deterrent of the United States and undermine security 
guarantees and relationships under which other nations felt it possible 
to forgo nuclear options of their own.
    The impact of testing limitations on the U.S. nuclear deterrent is 
a lengthy discussion on its own. I am prepared to address these issues, 
but in the interest of brevity, let me simply highlight several points 
related to arms control. The United States has never been fond of 
qualitative arms control measures because so often they work against 
advanced industrial democracies. The democracies look to technology to 
compensate for manpower and to free resources for other public goods. 
Limits on science and technology are difficult to define and frequently 
harder to verify than quantitative limits, so qualitative constraints 
here again tend to favor closed, authoritarian societies, all other 
things being equal (which of course they never are). Often, an 
undesirable tension is created between quantitative arms control goals 
and qualitative measures. In the case of nuclear weapons reductions, 
the inability to test makes it more dangerous to reduce the size of the 
nuclear weapons stockpile. To hedge against uncertainty, larger 
numbers, greater variety, and more spares are required to maintain the 
same confidence.
    But more importantly, democracy as we practice it demands 
accountability. To maintain our nuclear deterrent we must be able to 
demonstrate to the American people and their elected officials that the 
weapons in the stockpile are safe, secure, reliable, and appropriate to 
their missions. When two physicists differ dramatically in their 
assessments, responsible officials want to know the truth. Nuclear 
testing has often been the only way certain disputes could be resolved 
with the necessary finality. Inherent in the debates over the ``spirit 
of the CTB'' are pressures to codify ignorance and police thinking in 
ways that create tensions with U.S. interests, democratic 
responsibility, and the scientific method.
    If, from a narrow arms control point of view, the CTBT has been so 
unattractive to the United States, why did the United States continue 
to refer to it as a long term goal to be pursued when necessary 
conditions were achieved? The answer has two parts. First, not everyone 
at home or abroad agreed with this assessment, and certainly the 
industrial democracies did not always lead in all areas of advanced 
weaponry. Second, some actually do put a premium on limiting the U.S. 
American technological prowess was a target not only of the Soviet 
Union during the Cold War, but also of some other states that feared or 
resented the United States and/or the other nuclear weapons states. In 
some other cases, states appeared to be exploiting American reluctance 
to finalize a CTB as pretext to justify their own lack of restraint, 
and one frequently hears the argument that a CTBT will call their 
bluff. Unfortunately, I fear these states can create pretexts faster 
than we can negotiate them away or buy them off. Still others do see 
American technological advances as the source of most arms races. I 
should note that all of the arguments against the American nuclear 
deterrent that one has heard over the years are now being made about 
American advanced conventional capability and even so-called non-lethal 
weapons.
    The more compelling reason that the United States never walked away 
from the CTBT as a long term goal, however, was nonproliferation. Yet, 
even here, there were serious concerns about the impact of the CTBT. 
All but a handful of states (Cuba, India, Israel, Pakistan primarily) 
are already parties to the Nonproliferation Treaty. Except for the five 
nuclear weapons states these parties are obligated not to have nuclear 
weapons programs and thus should not have nuclear weapons to test. The 
main thrust of the CTBT actually involves very few states. Often, the 
CTB was seen in the West as a half way house for those states into the 
NPT. The problem is that some in those states saw the CTBT as an 
alternative regime to the NPT, one based on a more egalitarian 
principle under which all parties would be free to have nuclear 
weapons. They just couldn't test them.
    The danger is that the CTBT then becomes a halfway house out of the 
NPT, or at least a less restrictive alternative approach to 
nonproliferation. This need not happen, but it could if we are not 
careful. Already it has become common in public discussion to speak of 
proliferation as having occurred only after a state has tested its 
nuclear weapons. This erosion of standards is very dangerous and again 
reflects the mistaken belief that proliferators must always test their 
weapons to have confidence in them. This involves more mirror imaging 
than is warranted. Their needs are not the same as ours. Also, as 
technology such as supercomputing advances and spreads, more and more 
states will be able to have confidence in more and more nuclear weapons 
capability without testing. To address these problems, the United 
States and like-minded states must work to address fundamental regional 
security concerns. Above all, it must avoid the neo-Kellogg-Briandism 
that would have us substitute grandiose, global pledges for the hard 
work of creating the conditions for a safer world by directly engaging 
states and regions of concern. Already we have seen in the context of 
the CTB, a worsening of the situation in South Asia.
    Still, it would be wrong to say that the CTBT only relates to a 
few. Many of the parties to the NPT have said that their commitment to 
remain in the treaty is related to the implementation by the nuclear 
weapons states of Article VI of the treaty. The NPT commits the nuclear 
weapons states to a cessation of the nuclear arms race and commits all 
parties to work toward general and complete disarmament. Most of these 
states have taken the position that achievement of a CTBT is required 
under Article VI, but most have said that Article VI also requires the 
ultimate elimination of all nuclear weapons themselves. And the 
official policy of the United States remains that this too is an 
ultimate goal.
    How does the United States reconcile this view with its view that 
the nuclear umbrella and security guarantee it provides to key allies 
also is necessary for nonproliferation. The answer always has been that 
the United States will not give up its nuclear weapons until the 
conditions have actually been created in which they are no longer 
necessary. To do otherwise, would result in powerful pressures for 
nuclear proliferation. Half the world's population lives in countries 
that have nuclear weapons, and if we do not deal the legitimate 
security concerns of the others, more states will seek their own WMD 
programs. If a CTBT were to shatter confidence in safety, security, or 
reliability of the American nuclear umbrella, they may do the same. Yet 
if we invoke Safeguard F, involving the supreme national interest 
clause, we may provoke or legitimize similar acts. This safeguard 
carries almost the entire weight of the argument for this CTBT, yet it 
puts the United States in a ``Damned if you do; damned if you don't'' 
situation with respect to nonproliferation, especially if there are 
states simply looking for a pretext.
    Mr. Chairman, it is my personal view that the arms control 
arguments for a zero-yield CTBT are not compelling, and that the 
nonproliferation impact of any CTBT can be very uncertain and involve 
foreseeable dangers as well as unintended consequences. A better way to 
proceed is a step by step process in which constraints are related to 
advances in verification, advances in a validated stockpile stewardship 
program, development of an appropriate weapons stockpile for a post-
Cold War and testing limited environment, and advances in global and 
regional security. All of this is about why we didn't want to be where 
we are now.
    But we are here now. What should be done now? With or without this 
treaty, we should continue to work with other nations, but most 
particularly with countries of concern to advance a more cooperative, 
but realistic security relationship. With or without this treaty, we 
should continue to address verification and compliance challenges, 
including those associated with nuclear testing restraints. With or 
without this treaty, we should exploit a vigorous stockpile stewardship 
program so that we can have confidence in our deterrent while also 
demonstrating the maximum restraint possible. With or without this 
treaty, we must continue to develop and implement a more coherent, 
bipartisan strategy for building a safer word.
    If this treaty were time limited, were not zero yield, provided 
restraints at more verifiable levels, provided more clearly for the 
legitimacy of further testing (if and when it is needed), were not so 
prone to ever more restrictive interpretation down the road, and if 
conditions were such that the stated nonproliferation objectives will 
actually be achieved, then the debate would not be so intense. 
Unfortunately, this treaty, signed already by the United States is none 
of these things, and there is no easy way to fix it.
    To approve this treaty may undermine years of accomplishments in 
arms control and nonproliferation. Yet, expectations about this very 
treaty have been built up around the world and here at home. The case 
for this treaty is weak, but, unfortunately, the explanations for why 
the conditions for this treaty do not exist have also not been made 
even to our allies. These explanations are only now finally being made 
to our own citizens. It is one thing to say we never should have gotten 
into this position. It is another thing to make a worse hash of it. The 
challenge to this Committee, and to the Executive Branch, is to find a 
way to get American nonproliferation strategy back on sound footing 
such that it earns bipartisan support and provides the U.S. leadership 
necessary in the global arena.

    Senator Brownback. Thank you. I just came in. Mr. Wade, are 
you up? Thank you very much, and thank you all for hanging in 
here through a long hearing. It is a very important hearing, 
and we want to hear your testimony. I would hope you would put 
it forward actually in a summary fashion and really get to the 
heart of what you are about on it. And we will have your full 
statement in the record. I just think that might be better for 
all of us. You have heard a lot of testimony here today. Just 
get right at what you think the key points are. Mr. Wade.

STATEMENT OF TROY E. WADE, U.S. DEPARTMENT OF ENERGY (RETIRED), 
NEVADA ALLIANCE FOR DEFENSE, ENERGY AND BUSINESS, LAS VEGAS, NV

    Mr. Wade. Thank you, Mr. Chairman. I will be pleased to 
summarize. By way of background, I have spent more than 30 
years directly involved in the nuclear weapons programs of this 
country, with most of my career associated with nuclear 
testing. My last official assignment was as the Assistant 
Secretary of Energy for Defense Programs at the end of the 
Reagan administration. Since my retirement in 1989, I have 
continued to support the defense interest of this country and 
have worked to assure that the issues with which I am familiar 
are properly considered.
    I am part of a rapidly diminishing number of people who 
have witnessed the awesome force of an atmospheric nuclear 
test. And therefore I can comfortably categorize myself as one 
who has spent his entire career working on a program that would 
bring strength to the U.S. deterrent, but at the same time I am 
a perfect example of the aging, not only of the nuclear weapons 
themselves, but much more importantly, the people who have 
designed and tested and manufactured them.
    Given my background in testing, I am particularly concerned 
about several things. For example, I know from firsthand 
experience that nuclear weapons are not like artillery shells. 
You can not store them in a Butler building and then get them 
whenever the exigencies of the situation prompt you to do so. 
Nuclear weapons are very complicated assemblies that require 
continued vigilance to assure reliability and safety. It is, 
therefore, a first order principle that nuclear weapons that 
are now expected to be available in the enduring stockpile for 
much longer than was contemplated by the designers will require 
enhanced vigilance to continue to ensure safety and 
reliability. I have been, and will continue to be, a supporter 
of stockpile stewardship, but I am a supporter only because I 
believe it is a way to develop the computational capability to 
assure the annual certification process for warheads that have 
not changed or for which there is no apparent change. For 
nuclear weapons that do not fit that category, stockpile 
stewardship is merely, as we say in Nevada, a crap shoot.
    Nuclear testing has always been the tool necessary to 
maintain with high confidence the reliability and safety of the 
stockpile. I believe this treaty would remove the principal 
tool from the toolchest of those responsible for assuring 
safety and reliability. We have heard many analogies today 
about the effects of this treaty on warhead safety and 
reliability. I would like, Mr. Chairman, to use my own analogy. 
Maintaining the nuclear deterrent of the United States without 
permitting needed testing is like requiring the local ambulance 
service to guarantee 99 percent reliability anytime the 
ambulance is requested, but with a provision that the ambulance 
is never to be started until the call comes. I believe this is 
a patently absurd premise.
    I believe there are at least three reasons that the U.S. 
might need to conduct a nuclear test. First, a requirement to 
do a test that would respond in a political sense to a test 
conducted by another country, and I do not believe this to be a 
high probability event at all. Second, a requirement to do a 
test, or two, or three, that would need to be conducted to 
respond to a new, clear, military requirement, such as deeply 
buried hard targets. I believe this to be likely over the next 
couple of decades. Third, a requirement to do a test, or two, 
or three, that would be necessary to assure that a problem 
discovered in the enduring stockpile had been successfully 
resolved, and that the safety and reliability of the subject 
warhead was again deemed satisfactory. I believe, based on my 
personal experience, that this is a very high probability 
event. Are we prepared to conduct a nuclear test should we 
develop a problem in the enduring stockpile? Are we prepared to 
comply with proposed safeguard F? I am distressed to have to 
report to this committee that in my opinion, our capability to 
conduct a test is eroding rapidly. Let me give you my views for 
the reasons.
    First, there is no agreement between Congress and the 
administration about what constitutes the capability to resume 
nuclear testing. Congress views the plans presented by the 
administration as if they were plans developed by a fire 
station waiting for a very low probability fire and, therefore, 
prohibitively expensive. The administration exacerbates this 
view by being unable to define the most basic requirements 
needed to conduct a nuclear test.
    The result is an impasse. Congress is seeking the cheapest 
option, while the administration and the national laboratories 
quibble over what must be done, and in what priority it must be 
done. As a result, we are losing the people, both weapons 
designers and field operations people, that are trained to 
safely conduct a nuclear test, and we are also losing the 
certification and maintenance of the instrumentation and 
equipment that is necessary to conduct a nuclear test.
    In summary, Mr. Chairman, my years of experience and 
dedication to this progran tell me that this treaty, as it is 
now presented to this committee, is dangerous. It is 
unverifiable, it may or may not further the nonproliferation 
goals of the U.S., and most important to me, it has an adverse 
effect on assuring the continued safety and reliability of the 
nuclear deterrent. Mr. Chairman, that concludes my remarks. My 
full statement will be submitted for the record.
    [The prepared statement of Mr. Wade follows:]

                   Prepared Statement of Troy E. Wade

    Mr. Chairman, members of the committee:
    Thank you for this opportunity to testify on behalf of my 
opposition to the ratification of the Comprehensive Test Ban Treaty as 
it is currently written. As submitted, it is my opinion that it 
presents to this committee and to the full body of the Senate a flawed 
set of logic.
    By way of background, I have spent more than thirty years directly 
involved in the nuclear weapons programs of this country, with most of 
my career associated with nuclear testing. Since my retirement in 1989, 
I have continued to support the defense interests of the country and 
have worked to assure that the issues with which I am familiar are 
properly considered.
    I am part of a rapidly diminishing number of people who have 
witnessed the awesome force of an atmospheric nuclear test and, 
therefore, I can comfortably categorize myself as one who has spent his 
entire career working on a program that would bring strength to the 
U.S. defense but, at the same time, one who has also prayed that a 
nuclear weapon would never need to be used again.
    Treaties have always been a part of the nuclear weapons program, 
and I have participated in all of them, noting that all have been 
driven by international pressures. Among the most important to the 
nation are the Limited Test Ban Treaty in 1963, followed in 1974 by the 
Threshold Test Ban Treaty.
    Both of those treaties were ratified because there was reasonable 
assurance that the treaties could be verified.
    As the national commitment to the Comprehensive Test Ban Treaty 
moved forward during the Reagan years, this nation participated in a 
joint program with the Soviet Union, called the Joint Verification 
Experiment (JVE), to determine each nation's capability to monitor a 
Comprehensive Test Ban Treaty. The JVE's were very successful in that 
they demonstrated to both nuclear powers that one could successfully 
instrument a test to assure that it did not exceed the nuclear yields 
specified by the treaty requirements. Lost in the rhetoric is the fact 
that the JVE's did nothing to assure anyone that low yield nuclear 
tests could be routinely and accurately detected. Given the technical 
facts known at the time, it is remarkable that the U.S. or any of its 
close allies would agree to a zero-yield provision in the proposed 
treaty. As the committee knows, recent reports from the CIA continue to 
highlight our inability to verify whether or not low-yield nuclear 
tests have been conducted by Russia.
    Given my background in testing, I am particularly concerned about 
several things. For example, I know from firsthand experience that 
nuclear weapons are not like artillery shells. You cannot store them in 
a Butler building on the back forty and go get them whenever the 
exigencies of the situation prompt you to do so. Nuclear weapons are 
very complicated assemblies that require continued vigilance to assure 
reliability and safety. It is a first order principal that nuclear 
weapons that are now expected to be available in the enduring stockpile 
for much longer than was contemplated by the designers will require 
enhanced vigilance to continue to assure safety and reliability. I have 
been, and will continue to be, a supporter of stockpile stewardship, 
but I am a supporter only because I believe it is a way to develop the 
computational capability to assure the annual certification process for 
warheads that have not changed, or for which there is no apparent 
change. For nuclear weapons that do not fit that category, stockpile 
stewardship is merely a crap shoot. Nuclear testing has always been the 
tool necessary to maintain, with high confidence, the reliability and 
safety of the stockpile. In fact, President George Bush must have 
believed as I do when he said, and I quote, ``the requirement to 
maintain and improve the safety of U.S. forces necessitates continued 
nuclear testing for these purposes, albeit at a modest level, for the 
foreseeable future.''
    This treaty would remove the principal ``tool'' from the tool chest 
of those responsible for assuring stockpile safety and reliability. To 
use a simple analogy, if the chair permits, maintaining the nuclear 
deterrent of the U.S. without permitting needed testing is like 
requiring the local ambulance service to guarantee 99% reliability 
anytime the ambulance is requested, but with a provision that the 
ambulance is never to be started until the call comes. This is a 
patently absurd premise.
    Allow me to get very specific about nuclear testing. When President 
Clinton forwarded the current CTBT to Congress, he assured the Congress 
that he had mandated that the capability to resume nuclear testing 
would be maintained. It is my opinion that is currently not the case.
    I believe that there are at least three reasons that the U.S. might 
need to conduct a nuclear test.

  <bullet> First, a requirement to do a test that would respond, in a 
        political sense, to a test conducted by another country. I do 
        not believe this is a high probability event at all.
  <bullet> Second, a requirement to do a test (or two or three) that 
        would need to be conducted to respond to a new, clear military 
        requirement, such as deeply-buried hard targets. I believe this 
        to be likely over the next couple of decades.
  <bullet> Third, a requirement to do a test (or two or three) that 
        would be necessary to assure that a problem discovered in the 
        enduring stockpile had been successfully resolved and that the 
        safety and reliability of the subject warhead was again deemed 
        satisfactory. I believe, based upon my personal experience, 
        that this is a very high probability event.

    Are we prepared to conduct a nuclear test should we develop a 
problem in the enduring stockpile, or for any other reason? I am 
distressed to have to report to this committee that our capability to 
conduct a test is eroding rapidly. Let me give you my view of the 
reasons that this is the case.
    First, there is no agreement between Congress and the 
administration about what constitutes the ``capability to resume 
nuclear testing.'' Congress views the plans presented by the 
administration as if they were plans developed by a fire station 
waiting for a very low probability fire and, therefore, are 
prohibitively expensive. The administration exacerbates this view by 
being unable to define the most basic requirements needed to conduct a 
nuclear test.
    The result is an impasse. Congress is seeking the cheapest option 
while the administration and the national laboratories quibble over 
what must be done and in what priority it must be done. As a result, we 
are losing the people (both weapons designers and field operations 
personnel) that are trained to safely conduct a nuclear test, and we 
are also losing the certification and maintenance of the 
instrumentation and equipment that is necessary to conduct a nuclear 
test.
    Until issues like these are resolved, ratification of a treaty that 
prevents nuclear testing puts our system and our nation at unnecessary 
risk.
    In summary, Mr. Chairman, my 31 years of service and dedication to 
this program tell me that this treaty, as it is now presented to this 
committee and to the Senate of the United States, is dangerous. It is 
unverifiable, it clearly does nothing concrete to further the non-
proliferation goals of the U.S., and most important to me, it has an 
adverse effect on assuring the continued safety and reliability of the 
nuclear deterrent.
    I urge this committee and the full body of the Senate to reject 
this treaty as it has been submitted and to require that the 
administration move expeditiously to develop a new Comprehensive Test 
Ban Treaty that will lead to the desired goals of verification while 
also protecting all of our options in the event of a national 
emergency.
    Mr. Chairman, that concludes my remarks. I appreciate the 
opportunity to testify before this prestigious committee and stand 
ready to respond to any questions you or the committee may deem 
appropriate.
    Thank you very much.

    Senator Biden. Thank you very much.
    Dr. Garwin, we will hear your statement now. And then we 
will have questions for all of you.

   STATEMENT OF RICHARD L. GARWIN, PH.D., SENIOR FELLOW FOR 
SCIENCE AND TECHNOLOGY, COUNCIL ON FOREIGN RELATIONS, NEW YORK, 
                               NY

    Dr. Garwin. Good evening. Thanks for the opportunity to 
testify in support of the Comprehensive Test Ban Treaty that 
has been before the Senate for 2 years.
    I will abbreviate and submit my full statement for the 
record.
    Since 1950, I have been involved in the Nation's nuclear 
weapons establishment, contributing to the development and 
testing of fission weapons and to the creation of the first 
thermonuclear weapons. I speak for myself alone.
    Last year I was a member of the Rumsfeld Commission to 
assess the ballistic missile threat to the United States. In 
1996, I received the Foreign Intelligence Community Award for 
Scientific Intelligence. And that same year, from the President 
and the Department of Energy, the Enrico Fermi Award for my 
work with nuclear weapons.
    Complex technical issues should not be allowed to obscure 
the important conclusions that I state here up front and that I 
believe follow from a balanced assessment. First, in assessing 
the merits of the CTBT, it is essential to bear the difference 
in mind between fission weapons of the Hiroshima/Nagasaki 
variety and thermonuclear weapons which are used on all 
deployed U.S., Russian and Chinese strategic nuclear weapons.
    The CTBT can be verified with sufficient confidence to 
prevent any proliferator from developing thermonuclear weapons, 
whether he already possesses fission weapons or develops such 
weapons clandestinely.
    Third, while tests with yields vastly smaller than 
Hiroshima may evade detection, such tests would be useless to 
Russia and China, and very difficult to use for confirming the 
validity of clandestinely developed fission weapons.
    Fourth, if secret information regarding thermonuclear 
weapons has been acquired by others or may be so acquired in 
the future, as has been alleged in regard to China, this 
information cannot be turned into a deployable weapon without 
tests forbidden by the CTBT.
    Fifth, the U.S. does not need tests banned by the CTBT to 
maintain full confidence in its weapons stockpile. The vast 
majority of components in a nuclear weapon can be examined and 
tested and upgraded without nuclear explosions. The nuclear, 
so-called, physics package itself can be remanufactured to 
original specifications should surveillance reveal 
deterioration. The stockpile stewardship program will further 
enhance our high confidence in our stockpile, which is now 
certified each year by the weapon builders, together with the 
military who will have to use the weapons.
    Sixth, given that nuclear proliferation is probably the 
most serious threat to the national security, and given the 
confidence that our own deterrent will be fully maintained 
under the CTBT, it is totally clear that the United States will 
run fewer dangers with the CTBT in force than without it.
    The costs to the United States of a CTBT include 
constraining the United States from testing nuclear weapons. We 
must frankly face that as a cost. The benefits come from 
constraining other countries from testing nuclear weapons. So 
let us first look at the benefits.
    The greatest benefit arises from the contribution to 
preventing proliferation of nuclear weapons, both directly, by 
preventing nuclear tests and indirectly, by keeping nations on 
board the nonproliferation treaty. The United States does not 
want additional states to have nuclear weapons, and the members 
of the NPT do not either. We will not have these nations 
enthusiastically supporting the NPT if we go on with testing.
    It is possible to build simple nuclear weapons without 
nuclear explosion tests. But there will always be a nagging 
doubt whether or how well they perform. The Hiroshima and 
Nagasaki bombs each weighed about 9,000 pounds, with a yield of 
15 to 20 kilotons. The Hiroshima bomb was not tested before its 
use. It used a gun assembly of 60 kilograms of enriched 
uranium. The Nagasaki bomb was tested 3 weeks beforehand in the 
New Mexico desert. It contained 6 kilograms of plutonium.
    But the point is that these must be compared with a two-
stage thermonuclear bomb, tested in 1957, 12 years later, that 
weighed some 400 pounds, with a yield of 74 kilotons. Its 
diameter was a mere 12 inches, with a length of some 42 inches. 
That is what you can do by testing. That is what other people 
cannot do without testing.
    A CTBT that was respected would make a big difference in 
the threat that could face the United States or our allies, 
even if nations overtly or clandestinely pursue nuclear 
weaponry without explosive tests. The two-stage 1957 weapons 
would greatly increase the destructive power that can be 
wielded by new nuclear states such as India and Pakistan. And I 
take Ambassadors Oakley's and Wisner's comments about the 
likelihood of testing and further expansion of the nuclear 
arsenals in India and Pakistan if a CTBT is not ratified.
    The CTBT bans a nuclear explosion of any size. It is a zero 
threshold agreement. Can we be certain that a nation has not 
tested in this vast range between zero and the magnitude of 
tests that would be required to gain a significant confidence 
in an approach to thermonuclear weaponry, say 10 kilotons? No, 
we cannot be sure. But the utility of such tests, the minimal 
tests, in a weapons program has been thoroughly explored and 
found to be just that--minimal.
    I recall the August 1995 report of the JASON group, chaired 
by Dr. Sidney Drell, of which I was a coauthor. Conclusion 6 of 
that study refers specifically to a nuclear weapon test that 
would involve full yield of a fission primary and some ignition 
of the thermonuclear secondary, and states that such tests, to 
be useful, would generate nuclear yields in excess of 
approximately 10 kilotons. That is clearly verifiable by the 
CTBT's International Monitoring System, with its seismic, 
hydroacoustic and infrasound sensors and its detectors of 
radioactive gases and particles.
    Those conclusions resulted from a detailed classified 
analysis of the more than 1,000 U.S. nuclear tests. And the 
conclusions were supported unanimously by the authors of the 
study, which included four experienced nuclear weapon designers 
from the nuclear weapon laboratories.
    Now, a proliferant country might well want to acquire 
fission weapons of 5 kiloton yields, a third the size of the 
Hiroshima bomb. But the chance of detonating such a weapon 
undetected is small. The IMS would have a good probability of 
detecting a nuclear explosion anywhere in the world at a level 
of 1 kiloton. And in many portions of the world, the 
detectability is much better. For example, on September 23, 
1999, the background noise in seismic arrays in the 
Scandinavian region were such that a test on the order of 1 
ton, not 1 kiloton, could have been detected at Novaya Zemlya.
    Hydronuclear tests are banned under the CTBT. The U.S. 
conducted dozens of them with an intended energy release less 
than 4 pounds of high explosives, not 1 ton, or 1 kiloton, but 
a thousandth of a ton--4 pounds. It is clearly impossible 
seismically to distinguish a test that may have had 200 pounds 
of high explosive from a test with 200 pounds of high explosive 
and 1 pound of nuclear yield.
    The 1995 JASON nuclear testing study judged that there was 
little to be learned from such a test of a yield 10 million 
times lower than that of the bombs that destroyed Hiroshima and 
Nagasaki. Such major changes would need to be made in a full-
scale nuclear explosive to produce such a small yield that 
information available from a hydronuclear test would be of 
minor value in the development of a substantial fission weapon. 
And that laid the basis for a zero yield, zero threshold, CTBT. 
We just found no utility for hydronuclear tests.
    Russian nuclear weapon experts have expressed interest in 
fission weapons with yields no bigger than a few tons, slightly 
bigger than the 2-ton bombs that we routinely dropped from our 
aircraft. These might be built without testing, or might be 
tested unobserved by U.S. sensors with or without a CTBT. In no 
case would the U.S. react by testing its own nuclear weapons. 
And the inhibition posed by a CTBT on a Russia that wishes to 
remain engaged with the rest of the world would be substantial. 
The possibility of Russian programs of this type is not a valid 
argument against the CTBT.
    Not having a CTBT would give a green light to Russia to 
develop those weapons and fully test them, and many others. In 
other words, one can cheat on the CTBT without being discovered 
by the International Monitoring System, but to what purpose? 
Useful national security information would not be acquired, and 
the bragging rights are not worth much if you cannot tell 
anyone.
    For instance, a clandestine test cannot be used to 
intimidate other states. Beyond the International Monitoring 
System, the United States maintains national means, ranging 
from human agents to communications intelligence to sensors 
other than those included in the IMS. I am confident that the 
CTBT can be adequately verified. This means that experimental 
validation by nuclear explosion testing cannot be accomplished 
by a state that is party to the CTBT.
    Now, can we maintain our nuclear weapons safe and reliable 
under a CTBT? Yes. Our review of U.S. nuclear tests and of 
defects developed in stockpiled weapons revealed many defects 
detected in the routine surveillance process--not by nuclear 
explosion tests. Defects observed by nuclear explosion tests 
were associated with weapons that have been put into the 
stockpile without the normal development testing and without a 
production verification test. Today we have no such weapons, 
and we will have none in the future.
    Senator Biden. None in the stockpile today?
    Dr. Garwin. None in the stockpile today have not been fully 
tested. They have all been fully tested. All weapons in the 
enduring stockpile have been fully tested.
    Some deficiencies identified by surveillance were actually 
eliminated by substituting a different warhead or design that 
required nuclear testing. But that was an option, not a 
necessity.
    At present, and for the foreseeable future, a reliable and 
safe U.S. nuclear weapons stockpile is essential to the 
security of the United States, its allies and to peaceful 
nations of the world. We need to understand whether U.S. 
nuclear weapons can be maintained reliable and safe for 10 
years or 20 years or 50 years without nuclear testing. That is 
the $45 billion 10-year program, to provide assessment and 
understanding of the state of the stockpile and to remedy 
deficiencies as they are detected.
    The analogy with the automobile is that of the 4,000 or so 
individual parts of a modern U.S. nuclear weapon. Most can be 
thoroughly tested without nuclear explosions, and many are not 
even involved in a test explosion. Thus, batteries, timing and 
fusing systems and most of the weapon itself can be assessed 
and improved to the state-of-the-art using modern technology 
when warranted by the reduction in cost in the long run to 
compensate the investment in the short run. That is no 
different from any other modernization program.
    But under a CTBT, the explosive-driven plutonium primary 
cannot be tested to nuclear yield, and neither can the 
secondary explosive that is ignited by the flood of x rays from 
the primary explosion. Instead, the United States has an 
assessment program in which each year 11 examples of each type 
of warhead in the inventory are dismantled and exhaustively 
monitored. Of the 11, one is totally disassembled, and the 
interior of the primary and secondary inspected for aging, 
corrosion and the like.
    Signs of aging may eventually force the remanufacture of 
these parts. If they are remanufactured to the same 
specifications as they were initially produced, they will be as 
good as the day they were first made. This can be done any 
number of times, and is the basis for my confidence in the 
future stockpile.
    We now have a much better understanding of the aging of 
plutonium than we did previously. It seems to be benign. And 
this knowledge has led to a belief that the plutonium pit will 
survive 50 years or more. But if it does not, remanufacture 
will make it good as new.
    We need not only reassessment, but the remanufacturing 
facility. The need for the facility has nothing to do with the 
CTBT. It is neither more nor less necessary under a CTBT than 
in a regime in which the United States will still test 
occasionally.
    It is interesting that whether we test or we do not test, 
no missile that will be fired in war, no nuclear weapon that 
would be used in extremis would have been tested. Its brother 
would have been tested. Its sister would have been tested. It 
would not have been tested.
    The U.S. laboratories, under the CTBT, will maintain 
weapons safe and reliable by the stockpile stewardship program, 
but they will also maintain and improve the capability to 
design and build nuclear weapons. It is clear that this 
capability could not be exercised in the form of newly produced 
weapons under a CTBT, but should the test ban regime ever 
collapse, it would avoid the delay of many years before new 
designed nuclear weapons could be produced.
    Now, let me give you what I believe is a balanced 
assessment, a summary. The nonproliferation arms control 
benefits to the U.S. of a Comprehensive Test Ban Treaty are 
substantial. The adherence of other nations to the NPT and to 
the CTBT is fundamentally influenced by U.S. ratification of 
the CTBT.
    A party could conduct tiny nuclear tests without being 
detected by the treaty monitoring system. But tests in the 
hydronuclear range, releasing a millionth of the energy of a 
Hiroshima bomb will provide little useful knowledge. Tests 
releasing 100 tons--that is, 1 percent of the Hiroshima yield--
might sometimes be missed by the monitoring system, but would 
often be detected and located by other means. They, too, would 
have little value in the development of nuclear weapons.
    U.S. nuclear weapons will be maintained reliable and safe 
under a CTBT thanks to the stockpile stewardship programs for 
assessment and remanufacture.
    Last but not least among the six safeguards the 
administration has announced is the explicit readiness to 
invoke the supreme national interest clause should the need 
arise as a result of unanticipated technical problems in the 
enduring stockpile of nuclear weapons that affect a key portion 
of that stockpile.
    On the basis of my experience in the nuclear weapons 
program, I agree with those U.S. military leaders who have 
reviewed the benefits and costs to U.S. security from a CTBT 
and strongly support the treaty. Our national security will be 
improved by ratification and impaired by further delay.
    These military leaders had access to all the facts, took 
the time, and used a formal process to ensure that all views 
were considered. I feel it is thus greatly in our national 
security interest to ratify the CTBT now. And I would be 
pleased to answer questions.
    [The prepared statement of Dr. Garwin follows:]

              Prepared Statement of Dr. Richard L. Garwin

                              introduction
    Good afternoon. Thank you for the opportunity to testify in support 
of the Comprehensive Test Ban Treaty.
    I am Richard L. Garwin, Philip D. Reed Senior Fellow for Science 
and Technology at the Council on Foreign Relations. I am also IBM 
Fellow Emeritus at the Thomas J. Watson Research Center of the IBM 
Corporation. I chair the Arms Control and Nonproliferation Advisory 
Board to the Secretary of State. In addition, I am a member of the 
JASON group of consultants to the U.S. government, and have 
participated in several of the JASON studies for the Department of 
Energy on stockpile stewardship. Since 1950 I have been involved with 
the nation's nuclear weapons establishment, having contributed to the 
development and testing of fission weapons and to the creation of the 
first thermonuclear weapons. Most of this involvement has been at the 
Los Alamos National Laboratory. I am currently a consultant to Sandia 
National Laboratories. Nevertheless, in my testimony I speak only for 
myself. In 1998 I was a member of the Rumsfeld Commission to Assess the 
Ballistic Missile Threat to the United States. In 1996 I received from 
the U.S. foreign intelligence community the R.V. Jones Award for 
Scientific Intelligence; and also in 1996 I received from the President 
and the Department of Energy the Enrico Fermi Award for my work with 
nuclear weapons.
                            the bottom line.
    Complex technical issues should not be allowed to obscure the 
important conclusions that I state here, up front, and that I believe 
follow from a balanced assessment:

1. In assessing the merits of the CTBT it is essential to bear the 
        difference in mind between fission weapons of the Hiroshima-
        Nagasaki variety and thermonuclear weapons which are used on 
        all deployed U.S., Russian and Chinese strategic nuclear 
        weapons.
2. The CTBT can be verified with sufficient confidence to prevent any 
        proliferator from developing thermonuclear weapons whether he 
        already possesses fission weapons or develops such weapons 
        clandestinely.
3. While tests with yields vastly smaller than Hiroshima may evade 
        detection, such tests would be useless to Russia and China, and 
        very difficult to use for confirming the validity of a 
        clandestinely devloped fission weapon.
4. If secret information regarding thermonuclear weapons has been 
        acquired by others, or may be so acquired in the future, as has 
        been alleged in regard to China, this information cannot be 
        turned into a deployable weapon without tests forbidden by the 
        CTBT.
5. The U.S. does not need tests banned by the CTBT to maintain full 
        confidence in its weapons stockpile. The vast majority of 
        components in a nuclear weapon can be examined and tested and 
        upgraded without nuclear explosions. The nuclear (or physics) 
        package itself can be remanufactured to original specifications 
        should surveillance reveal deterioration. The stockpile 
        stewardship program will further enhance our high confidence in 
        our stockpile, which is now certified each year by the weapon 
        builders, together with the military who will have to use the 
        weapons.
6. Given that nuclear proliferation is probably the most serious threat 
        to the national security, and given the confidence that our own 
        deterrent will be fully maintained under the CTBT, it is 
        clear--totally clear--that the United States will run fewer 
        dangers with the CTBT in force than without it.

                             why a treaty?
    We are better off with a test ban than without it. Of that there 
can be no doubt.
    Naturally, any treaty or contract will have both benefits and costs 
to any of the parties. Here we are concerned with the benefits and 
costs to the United States. If one looked only at the costs, and 
imagined them as the total effect of the Treaty, one would never 
consider such a deal.
    The costs to the United States include constraining the United 
States from testing nuclear weapons. The benefits come from 
constraining other countries from testing nuclear weapons. So let's 
look first at the benefits. The greatest benefit of the CTBT arises 
from its contribution to preventing the proliferation of nuclear 
weapons. It does this directly by preventing nuclear tests and 
indirectly by keeping nations on board the Nonproliferation Treaty 
(NPT). The United States does not want additional states to have 
nuclear weapons, and the members of the NPT don't either.
    It is possible to build simple nuclear weapons without nuclear 
explosion tests, but there will always be a nagging doubt whether or 
how well they will perform. The Hiroshima and Nagasaki bombs each 
weighed about 9000 pounds, with a yield of 15 to 20 kilotons. The 
Hiroshima bomb used artillery-gun assembly of 60 kilograms of enriched 
uranium, which was not tested before its use. The Nagasaki bomb, tested 
three weeks beforehand in the New Mexico desert, contained some 6 
kilograms of plutonium. Compare these weapons with a two-stage 
thermonuclear bomb tested in 1957 that weighed some 400 lbs with a 
yield of 74 kilotons; its diameter was a mere 12 inches, with a length 
of some 42 inches.
    Without nuclear tests of substantial yield, it is difficult to 
build compact and light fission weapons and essentially impossible to 
have any confidence in a large-yield two-stage thermonuclear weapon or 
hydrogen bomb, which can readily be made in the megaton class. 
Furthermore, even in the yield range accessible to fission weapons, 
thermonuclear weapons are attractive because of their economy of 
fissile material, their compact size, and their improved safety. Just 
for example, a pure fission weapon, which is the best a sophisticated 
proliferator could do without verifiable testing, of 200 kilotons yield 
would require some 60 kg of plutonium or U-235. And the chemical 
explosive might weigh 4000 to 8000 lbs. That amount of fissile material 
would suffice for 10 thermonuclear weapons, each of which could be in 
the megaton class and weigh less than 1000 lbs. However, such H-bomb 
type weapons would require testing that would be readily detected and 
would therefore be prevented by the CTBT. This limits greatly the 
destructive power that can be wielded by newly nuclear states such as 
India and Pakistan.
    So a CTBT that was respected would make a big difference in the 
threat that could face the United States or our allies, even if nations 
overtly or clandestinely pursue nuclear weaponry without explosive 
tests.
    The CTBT bans any nuclear explosion of any size--it is a ``zero 
threshold'' agreement. Can one be certain that a nation has not tested 
in the vast range between zero and the magnitude of test that would be 
required to gain significant confidence in an approach to thermonuclear 
weaponry--say, 10 kilotons? No, but the utility of such tests to a 
weapons program has been thoroughly explored and found to be minimal.
    First, I recall the August 3, 1995 report of JASON chaired by Dr. 
Sidney Drell, of which I was a co-author. Conclusion 6 of that study 
refers to a nuclear weapon test that would involve full yield of the 
fission primary and some ignition of the thermonuclear secondary, and 
that such tests, to be useful, would ``generate nuclear yields in 
excess of approximately 10 kilotons.'' That is clearly verifiable by 
the CTBT's International Monitoring System (IMS), with its seismic, 
hydroacoustic, and infrasound sensors, and its detectors of radioactive 
gases and particles.
    These Conclusions resulted from a detailed classified analysis of 
the more than 1000 nuclear tests, and they were supported unanimously 
by the authors of the study, including four experienced nuclear weapon 
designers from U.S. nuclear weapon laboratories.
    A proliferant country might well want to acquire fission weapons of 
5 kiloton yield, but the chance of detonating such a weapon undetected 
is small. The International Monitoring System (IMS) will have a good 
probability of detecting a nuclear explosion anywhere in the world--
underground, underwater, or in the atmosphere at a level of 1 kiloton. 
And in many portions of the world the detectability is much better. For 
example, on September 23, 1999, the background noise in seismic arrays 
in the Scandinavian region was such that a test on the order of 1 ton 
(not 1 kiloton) could have been detected at Novaya Zemlya.
    The CTBT bans explosive tests that release any amount of nuclear 
energy. The United States conducted some scores of so-called 
hydronuclear tests with an intended energy release less than 4 lbs. of 
high explosive equivalent. These are banned under the CTBT; they would 
very likely not be detected by the International Monitoring System. It 
is clearly impossible seismically to distinguish a test that may have 
had 200 lbs. of high explosive from a test with 200 lbs. of high 
explosive and 1 lb. of nuclear yield. The 1995 JASON Nuclear Testing 
study judged that there was little to be learned from such a test of 
yield 10 million times lower than that of the bombs that destroyed 
Hiroshima and Nagasaki. Such major changes would need to be made in a 
full-scale nuclear explosive to produce such a small yield that 
information available from the hydronuclear test would be of minor 
value in the development of a substantial fission weapon.
    Russian nuclear weapons experts have expressed interest in fission 
weapons with yields no bigger than a few tons. These might be built 
without testing, or might be tested unobserved by U.S. sensors, with or 
without a CTBT. In no case would the U.S. react by testing its own 
nuclear weapons, and the inhibition posed by a CTBT on a Russia that 
wishes to remain engaged with the rest of the world would be 
substantial. The possibility of Russian programs of this type is not a 
valid argument against the CTBT.
    In other words, one can cheat on the CTBT without being discovered 
by the International Monitoring System, but to what end? Useful 
national security information would not be acquired, and the bragging 
rights are not worth much if one can't tell anyone. For instance, a 
clandestine test cannot be used to intimidate other states.
                 additional means to detect violations
    In addition to the International Monitoring System, the United 
States will maintain national means ranging from human agents to 
communications intelligence to sensors other than those included in the 
IMS. Furthermore, there are completely open and unclassified sensors 
such as research seismometers that can augment and in many cases 
greatly improve the sensitivity of the IMS.
    I am confident that the CTBT can be adequately verified; this means 
that experimental validation by nuclear explosion testing cannot be 
accomplished by a state that is party to the CTBT.
  can the u.s. maintain its nuclear weapons safe and reliable under a 
                                 ctbt?
    Our review of the U.S. nuclear tests and of defects discovered in 
stockpile weapons revealed many defects that were detected in the 
routine surveillance process--i.e., not by nuclear explosion tests. 
Defects observed by nuclear explosion tests were associated with 
weapons that had been put into the stockpile without the normal 
development testing and a production verification test. Today we have 
no such weapons; and we will have none in the future. All weapons in 
the enduring stockpile have been fully tested.
    Some deficiencies identified by surveillance were eliminated by 
substituting a different warhead or design that required nuclear 
testing, but that was an option--not a necessity.
    This analysis of our own stockpile and test record underscores the 
importance of explosive testing at an assuredly detectable level to a 
proliferator.
    At present and for the foreseeable future, a reliable and safe U.S. 
nuclear weapons stockpile is essential to the security of the United 
States, its allies, and to peaceful nations of the world. It is 
important to understand whether U.S. nuclear weapons can be maintained 
reliable and safe for 10 years or 20 years or 50 years, without nuclear 
testing. To this end, the Department of Energy is spending $4.5 billion 
annually on the Stockpile Stewardship Program, to provide assessment 
and understanding of the state of the stockpile and to remedy 
deficiencies as they are detected. Of the 4000 or so individual parts 
of a modern U.S. nuclear weapon, most can be thoroughly tested without 
nuclear explosions and many are not even involved in a test explosion. 
Thus, batteries, timing and fuzing systems, and most of the weapon 
itself can be assessed and improved to the state-of-the-art, using 
modern technology when it is warranted by the reduction in cost in the 
long run to compensate the investment in the short run. This is no 
different from any other modernization program. But under a CTBT, the 
explosive-driven plutonium primary cannot be tested to nuclear yield, 
and neither can the secondary explosive that is ignited by the flood of 
x rays from the primary explosion.
    Instead, the United States has an assessment program, in which each 
year 11 examples of each type of warhead in the inventory are 
dismantled and exhaustively monitored. Of the 11, one is totally 
disassembled and the interior of the primary and secondary inspected 
for aging, corrosion, and the like.
    Eventually, signs of aging may force the remanufacture of these 
parts; if they are remanufactured to the same specifications as they 
were initially produced, they will be as good as the day they were 
first made. This can be done any number of times, and is the basis for 
my confidence in the future stockpile. As a result of the Stockpile 
Stewardship Program over the last four years or so, we have a much 
better understanding of the aging of plutonium than we did previously. 
It seems to be benign, and this knowledge has led to a belief that the 
plutonium pit will survive for 50 years or more. But if it doesn't, 
remanufacture will make it ``good as new.''
    We need to have not only the assessment but the remanufacturing 
facility; the need for that facility has nothing to do with the CTBT. 
It is neither more nor less necessary under a CTBT than in a regime in 
which the United States might still test occasionally.
    The U.S. laboratories under the CTBT will maintain weapons safe and 
reliable by the Stockpile Stewardship Program, but they will also 
maintain and improve the capability to design and build nuclear 
weapons. It is clear that this capability could not be exercised under 
a CTBT in the form of newly produced weapons, but should the CTBT 
regime ever collapse, it would avoid a delay of many years before new-
design nuclear weapons could be produced.
                         a balanced assessment
    The nonproliferation and arms control benefits to the U.S. of a 
CTBT are substantial; the adherence of other nations to the 
Nonproliferation Treaty and to the CTBT is fundamentally influenced by 
U.S. ratification of the CTBT. A Party could conduct tiny nuclear tests 
without being detected by the Treaty's monitoring system, but tests in 
the hydronuclear range releasing a millionth of the energy of a 
Hiroshima bomb will provide little useful knowledge; tests releasing 
100 tons--that is, 1% of the Hiroshima yield--might sometimes be missed 
by the monitoring system, but would often be detected and located by 
other means. They, too, would have little value in the development of 
nuclear weapons. U.S. nuclear weapons will be maintained reliable and 
safe under a CTBT, thanks to the Stockpile Stewardship programs for 
assessment and remanufacture. Last but not least among the six 
safeguards that the Administration has announced is the explicit 
readiness to invoke the supreme national interest clause should the 
need arise as a result of unanticipated technical problems in the 
enduring stockpile of nuclear weapons, that affect a key portion of 
that stockpile.
    On the basis of my experience in the nuclear weapons program, I 
agree with those U.S. military leaders who have reviewed the benefits 
and costs to U.S. security from a CTBT and strongly support the Treaty. 
Our national security will be improved by ratification and impaired by 
further delay.
    It is thus greatly in our interest to ratify the CTBT now.

    Senator Brownback. Thank you, Dr. Garwin, for your 
testimony. I thank the entire panel for its testimony.
    Due to the hour being late, I want to just ask really one 
quick line of questioning, and then turn it over to Senator 
Biden to ask a question or two. And then we will probably all 
move on.
    The key area that I have been concerned about has been this 
issue of entering into a treaty, ratifying it on behalf of the 
United States, and then something changes and we decide we want 
to test, or some of the other parties do not get into the 
treaty. And I look at this as being a big step if we enter into 
this and we ratify this treaty, if the United States does that. 
And I really question if other countries would follow.
    Director Lehman, specifically, I would like to ask you 
this. President Clinton has said, in his safeguard F, that he 
would be prepared to withdraw from the CTBT to conduct 
underground testing if a high level of confidence in a weapon 
type critical to the U.S. nuclear deterrent could not otherwise 
be maintained. He said, we will do it, pull out.
    When was the last time the United States withdrew from an 
arms control treaty using the supreme national interest clause?
    Mr. Lehman. I am not sure that we ever had, but I would 
check that for the record.
    But I think there are several bigger issues here that I 
think are very important, not just for the CTBT debate, but for 
the whole future of arms control and international law, and the 
question of the dynamics of how this plays out in years when 
this Congress is going to have a lot of new Members and there 
will definitely be new Presidents. And that is the following:
    The supreme national interest clause is something that we 
have never taken lightly. To invoke it is a major step. And to 
invoke it sends a major signal to other nations around the 
world. We have already had a country like Iran state that if 
the United States or others were to invoke the supreme national 
interest clause for the purpose of testing, that they would 
then feel free to invoke it for their own purposes, as well.
    We run into a danger here, because, first of all, Iran is 
already a party to the NPT and should not have nuclear weapons 
and should not be sitting around planning to test in case we 
use the safeguard F. But in the history of arms control, we 
really sought other measures. If you had a problem that you 
thought you were going to face, you tried to negotiate a 
provision.
    This administration also sought that. They were not able to 
get it, but they saw the wisdom of something other than using 
the supreme national interest clause. When I was Director of 
ACDA, there was a tremendous interest among neutral and 
nonaligned diplomats for some movement on nuclear testing. And 
I worked something called the VOTA mandate, to help move that 
along.
    But many of them would come to me and say, well, look, on 
the CTBT, all right, we hear you have got a problem that you 
might need to test for safety. Well, maybe we could negotiate 
something where you could test for safety if you needed to. It 
would be OK. We could understand that. Well, of course, the 
climate changed, the negotiating positions changed.
    Now, we did not like that either, because we are not 
exactly anxious to signal we have got a problem in the 
stockpile by having to invoke an extraordinary measure. But we 
certainly would have preferred to have a measure that 
legitimized doing that better than having to invoke this 
supreme national interest clause.
    Senator Brownback. Is not that the case, Secretary Wade, 
that if you did withdraw from the CTBT, it advertises to the 
world that there is a problem with the U.S. deterrence, really 
thus undermining some of the real value of the U.S. nuclear 
deterrence?
    Mr. Wade. Yes, Senator Brownback, I think that is a very 
serious consideration that the Senate must visit in the next 
several days, and that is, assuming that there is a problem in 
the enduring stockpile, and history will demonstrate that that 
certainly is possible, one way to announce to your enemies that 
you have developed a major problem is by invoking the national 
interest clause. I think that requires very serious 
consideration.
    I would like to go one step further by saying that 
safeguards such as safeguard F have also not ever proven to be 
a satisfactory way to deal with the treaty. A perfect example 
of that is safeguard C of the Limited Test Ban Treaty, which 
said that the United States would maintain the ability to 
return to atmospheric testing should it be in the national 
interest. Maintaining that capability is a very expensive 
thing, and it does not take very many years for this body or 
the administration to decide that that is no longer necessary 
and the safeguard disappears.
    Senator Brownback. I appreciate the comments each of you 
made, and Mr. Lehman, I would say we have done the check on 
this, and the United States has never withdrawn from an arms 
control treaty using the supreme national interest, and some 
would say, well, we are not quite at that point in entering 
into this at this point.
    My point with that is that when the United States takes 
these sort of steps, we mean it. When the U.S. Senate ratifies 
a treaty, it sets it in stone. This is what we mean, and with 
the flux that is around the world today, and the back-and-forth 
testimony we have had from key people at very high and senior 
levels who have been in on these negotiations, I think that is 
not something that one, we want to take and set in stone at 
this point in time.
    Dr. Garwin. Excuse me. You asked all three of us that 
question.
    Senator Brownback. Well, Mr. Secretary, you can answer. I 
am going to pitch it to Senator Biden.
    Senator Biden. I would ask the question you want to answer.
    Dr. Garwin. Thank you. I think, Mr. Chairman, your question 
had two parts, and one was, you are not sure that the other 
states will ratify, and that we will be bound by our 
ratification, and they will not. Well, we are no more bound. 
The treaty will not have entered into force. We already have a 
moratorium and a treaty we have already signed. We are not 
about to test, except for good reason.
    The second is the supreme national interest. Well, this is 
not the only condition under which the United States supreme 
national interest would be involved. We could give supreme 
national interest for any good reason which involved our 
supreme national interest.
    Senator Brownback. We have just never used it before, Dr. 
Garwin.
    Dr. Garwin. The supreme national interest does not seem to 
have been jeopardized thus far.
    Senator Brownback. But I would also submit we just are not 
going to do that.
    Dr. Garwin. We would not be shy with regards to our supreme 
national interest in this treaty, and I would suggest the 
President would exercise that right.
    Senator Biden. I am fascinated by this non sequitur we have 
imposed the supreme national interest. Name me a time we should 
have imposed our supreme national interest that we did not. 
Have you got one for me? And you ought to be able to come up 
with one, Mr. Secretary.
    Mr. Lehman. I think we are headed in that direction on the 
ABM Treaty.
    Senator Biden. Have we gotten there yet, and would you, if 
you were the Secretary of State or Defense, would you say to 
the President, a Republican President, invoke the supreme 
national interest now to get out of the ABM Treaty?
    Mr. Lehman. Do you know what the consequences are of 
invoking the supreme national interest?
    Senator Biden. I sure as hell do, better than you do. But 
would you recommend it? Your job is not to make a policy 
judgment about the consequences. Your job is to determine 
whether our supreme national interest--this is crazy. Nobody 
has suggested to me, ever, including any Senator, where we 
should have invoked our supreme national interest in any 
treaty.
    Mr. Lehman. Then, Senator, I think you have gotten to the 
heart of the matter, and if I could have just a second to raise 
an issue that is related to this.
    Senator Biden. The chairman is going to tell me my time is 
up, but hold the thought, and I would like to hear, because I 
think we should keep going on, because you guys are the most 
important witnesses we have had here, because we have got you 
all together.
    Now, one of the things I have heard repeatedly, which I 
find to be--and I will not say what I find it to be. Yesterday, 
the former Secretary of everything, Mr. Schlesinger, indicated 
that there is no way to take a physics package, Dr. Garwin, and 
replace it. It was not possible to do that.
    Do any of you take issue with what Dr. Garwin said, that 
there is an ability to remanufacture the physics package and 
replace an entire physics package without testing? Do any of 
you doubt that?
    Mr. Wade. I would like to comment, Senator Biden, if I may. 
I think that first of all you have to remember that the weapons 
to which Dr. Garwin referred were not designed to be 
remanufactured. They were designed to be replaced at the end of 
what was then predicted to be their useful life.
    Senator Biden. That is not the question.
    Mr. Wade. Manufacturing techniques and materials have 
certainly changed in the last 20 or 25 years, and I submit it 
would be very difficult to remanufacture something to 25 or 20-
year-old, or 15-year-old standards.
    Senator Biden. Doctor, what is your response to that?
    Dr. Garwin. Well, we have looked at that thoroughly, and 
the laboratories are pretty confident that they can do it. I 
would be happier had we already built a pit manufacturing 
capability and were turning out 200 pits a year. I think we 
have been too slow. That is true whether we have a CTBT or not.
    But I have no doubt that we could make the plutonium. We 
have the stock of high explosives. We test the high explosive, 
there is no problem with that, until we get it right, and the 
secondary is much more forgiving than is the primary, so it is 
the primary.
    We could test these things, incidentally, at half-scale, 
where there is no nuclear yield at all, very little discussed, 
but everything behaves the same, we have the flash radiography, 
which we have used in the past. No, it is too soon to say that 
our stockpile stewardship and remanufacturing effort is a 
failure when those in charge of doing it and those depending on 
its success, the military, say it can be done.
    Senator Biden. We are going to learn more by you all 
debating. Tell me why he is wrong.
    Mr. Lehman. Let me make a couple of general comments.
    Senator Biden. I do not want you to make general comments. 
I really want this to be a little like a debate. Tell me if he 
is wrong.
    Mr. Lehman. The statement that it is too early to say that 
it will not work is not the same thing as saying that it is 
time to say it will work. That is the problem. But yes, I think 
we ought to be very optimistic on what can be done in a number 
of these areas.
    The problem is that in the end, if we are faced with a 
failure, with a debate, with a problem, when we have had this 
before, the political system wants answers and it wants bold 
action to be taken. Pit remanufacture requires infrastructure, 
it requires funding over a period of time.
    When the debate over this treaty is over, is that going to 
be there?
    Senator Biden. I think the question is this: Does anybody--
and you obviously are well-versed in the politics of this 
place. Ask anyone. Does anyone believe that if we defeat this 
treaty the U.S. Congress for the next 4 years is going to spend 
$4.5 billion per year on a stockpile stewardship program that 
relies upon computers to do the job which you say, Mr. Wade, 
can be done by testing?
    Do you honestly think you are going to convince any 
Congress? Get a life, as my daughter would say. Not a 
possibility. I will stake my career on that one, zero, and you 
know it. Zero. We cannot even get the Republican House, as Pete 
Domenici says, to fund it fully now, the Republican House. Ask 
Pete Domenici, who has been begging for the dollars, and you 
think we are going to get that, or we are going to get the 
remanufacture--what is the term of art for the pits?
    Dr. Garwin. Remanufacture.
    Senator Biden. Come on, guys. There is no possibility, so 
you will have your ability to test, and then answer the 
question. Does anybody think there is a political will of the 
next President of the United States to engage in the kind of 
testing that I am told--unless you disagree, now. Dr. Garwin 
says the only test that will have any real relevance for us are 
tests that are in a megatonnage that will provide, that will be 
detectable by the whole world. Now, do you think anybody is 
going to go out there?
    And the third question I would ask, and respond to all 
three, if all three of you would do this, does anybody truly 
believe that any nation in the world in the foreseeable future 
with a total of nine separate systems we have, eight deployed, 
is going to believe that with 6,000 of these armed and aimed, 
that we are not capable of inflicting annihilation on anyone, 
that the deterrent does not work?
    Do you honestly--and I wish you all were under oath. Do you 
honestly believe any nation in the world would doubt, not our 
use of them, because they doubt that now, or not, but doubt 
their reliability as a deterrent? And I would like you to 
respond.
    Mr. Wade. Well, let me try, Senator Biden. No, I do not 
believe any nation, or any other nation would be concerned 
about whether or not one of our--pick a number, 6,000 weapons 
did not work.
    Senator Biden. What if half of them did not work?
    Mr. Wade. I submit you have to state the question the other 
way. If you are the Commander in Chief of this country, are you 
comfortable if some number, or any portion of some number may 
not work? I submit the answer is probably you would not be very 
comfortable.
    Senator Biden. I submit to you, sir, that is not what 
deterrence is. Deterrence is what he thinks I am capable of 
doing, and if he thinks I am capable of blowing him into next 
Wednesday, and he believes that, and I know he believes that, 
then my deterrence is in place. That is what deterrence means. 
Let us not redefine deterrence.
    Now, you may talk about whether we believe there is a 
sufficient capability to do everything we think we would like 
to do in terms of first strike capability, in terms of hard 
target kill, et cetera. That is a different deal. That is a 
different deal.
    But gentlemen, I have been hearing for the last 2 days from 
people otherwise very, very, very well-informed, that they 
believe that the stockpile stewardship program will throw into 
question in the minds of the Japanese, specifically named, the 
Germans, the Russians, the Chinese, our deterrent capability. 
Now, do any of you want to go on the record and say you believe 
that to be true?
    Mr. Lehman. Senator, I do not think you have got the 
question right.
    Senator Biden. I am asking the question. You may not like 
it.
    Mr. Lehman. I understand. Let me try to address it. First 
of all, the question of the deterrent depends upon the ability 
to deploy the forces.
    Senator Biden. No, the question of a deterrent depends upon 
the ability of the other side to conclude whether or not you 
can do them great harm.
    Mr. Lehman. If nuclear forces that were committed to an 
alliance or to an ally would have to be withdrawn because we 
had an uncertainty, for example, about the safety, or they did 
not need our----
    Senator Biden. Do you think that is a realistic possibility 
any time in your lifetime?
    Mr. Lehman. I have already faced it. It is important that 
when we plan with our allies and deploy forces on the high 
seas, overseas, or even in our own country, that those 
commitments can be maintained, and if problems emerge we have a 
way to address them, and with confidence. The failure to do 
that could have very adverse implications on the long-term 
security relationship.
    Let me give you an analogy that I can talk about. It is a 
little different, but it was the question of what happened in 
the INF negotiations when we were trying for the goal of zero, 
and then because that seemed so hard to get, we floated the 
idea of zero in Europe but some deployments east of the Urals. 
Despite all of the assurances from our interactions with the 
Japanese Government at an official level that that was good 
because they supported getting a treaty, once it became public, 
the backlash in Japan was severe.
    Now, the antinuclear allergy in Japan is still very strong, 
but it is a society that can get polarized over issues like 
this. I mean, this was once and still is to some degree a 
Samurai society. It was amazing to see the public articles 
calling for increased Japanese military, the prospect of 
nuclearization. It was important that we went back and got 
global zero.
    The ability for these things to become unraveled over 
issues that seem small to us because we think we have got a lot 
of nuclear weapons should not be underestimated.
    Senator Brownback. Can we wrap this on up?
    Senator Biden. I do not know why we should wrap it up.
    Senator Brownback. Well then, let us run the time clock so 
we can bounce back and forth. Why don't you let me get in a 
couple of questions here if I could. We will let you rest for a 
little bit.
    Senator Biden. I have been waiting 2 years for this.
    Senator Brownback. Let us put the clock on 5 minutes so we 
can bounce back and forth. I mean, I appreciate, Joe, you 
raising this, because I think you crystallized for me the 
reason I have real problems with the treaty, is that you have 
got a stockpile there that apparently, then, we are just going 
to be willing to kind of go off into the future, never testing 
and just presume it will always work.
    Senator Biden. That is not true. We have tested 
extensively.
    Senator Brownback. But you are saying we are not going to 
have the will to do it, and this treaty is going to enter us 
into a position that we are going to further erode any sort of 
will to do that.
    Senator Biden. I am saying the exact opposite.
    Senator Brownback. But the argument you make leads this 
way, and that is why I look at it and say we probably are going 
to further deteriorate our will to test something. We are going 
to get down the road 5 years, 10 years--it will have been since 
1992 that we will have tested, so we have got 7, now we are 12 
years down the road, and my kids are getting a little bit older 
now, and I have got more of them, at that point in time, and 
now we are all of a sudden we are feeling like we need to have 
this deterrent, and we need to have the rest of the world 
believe it is going to work, and we are now 12 years on out.
    I appreciate Dr. Garwin's statement about, we are pretty 
confident they could do it after testing the different parts 
but not the whole. I do not want it to be pretty confident. I 
want it to be sure that we are going to be able to make it at 
that point in time, when we are 12 years out, and having not 
done the complete testing, but we are going to test each 
individual part.
    You are asking me to go on pretty confident, and you are 
asking me to go against my own senses on this as well, which 
say to me that any machine not tested for a long period of time 
in total is going to work, and I have got to have the rest of 
the world believing it is going to work as well for it to be an 
effective deterrent at that point in time.
    So we are 12 years out, we have tested the parts 
individually, they all seem to work, and I have got to now be 
sure that the Russians and the Chinese and the Iraqis and the 
Iranians believe this is going to work for it to be an 
effective deterrent. I think you are stretching us on that 
point.
    Now, correct me where I am wrong, Dr. Garwin.
    Dr. Garwin. I think it would be useful for you to look at 
some of the testimony of the Department of Energy over the 
years on the joint test vehicles, the joint verification 
vehicles. We have these precision devices where you test not 
parts, you test the whole thing, but the ultimate nuclear 
explosive you do not have. You have uranium instead of 
plutonium. It goes through the flight, it fires, you have 
telemetry, you see the whole thing works or it does not, and I 
can assure you that we conduct these flights and we learn a lot 
from them.
    Senator Brownback. Not the whole thing. The end of the test 
does not happen.
    Dr. Garwin. When you do that you find problems, but the 
problems are not going to be from the lighting of the high 
explosive to the carrying out of the nuclear explosion; and if 
you don't believe that, you need to get a whole new set of 
people not only in the Department of Energy, but in the 
Department of Defense and in the military services.
    Senator Brownback. Dr. Garwin, how far down the road can we 
run that type of operation and have our people who seek to do 
us harm around the world believe our deterrent is still there, 
and it works? How many years can we go?
    Dr. Garwin. We can go 30, 50, 100 years, because every year 
you have----
    Senator Brownback. Being pretty confident?
    Dr. Garwin. Every year you have these people in the 
business put their reputations, their lives and our lives on 
the line in their certification process.
    Senator Brownback. Well then, here are some of the people, 
the laboratory directors--these are former ones. Roger Batzel, 
do you know him?
    Dr. Garwin. I know him well, sure.
    Senator Brownback. ``I urge you to oppose the Comprehensive 
Test Ban Treaty. No previous administration, either Democrat or 
Republican, ever supported the unverifiable zero yield, 
indefinite duration CTBT now before the Senate. The reason for 
this is simple. Under a long duration test ban, confidence in 
the nuclear stockpile will erode for a variety of reasons.''
    Now, I presume you think he is a pretty good guy, pretty 
sharp.
    Dr. Garwin. I have argued with Roger Batzel on exactly this 
point long ago.
    Senator Brownback. You can argue with him again.
    Dr. Garwin. I do not know how current he is. I would like 
to have him here where we could discuss it, but I do not 
believe it, and the current people who have the responsibility 
and who have the knowledge are not of that view.
    Senator Brownback. What about John Nuckolls?
    Dr. Garwin. I know him well, too.
    Senator Brownback. Is he a good guy?
    Dr. Garwin. He is OK. I could go into details, plus and 
minus. On balance, like the CTBT, he is a good guy.
    Senator Brownback. ``Without nuclear testing, confidence in 
the stockpile will decline. The U.S. capability to develop 
weapons will be degraded by the eventual loss of all nuclear 
tests, experienced weapons experts who develop the stockpile.'' 
That is what he says about it. How about Edward Teller? Is he 
OK?
    Dr. Garwin. In my testimony, I address that. That is 
looking at the bad side, the down side of the CTBT. If you look 
at the upside, it much outweighs that.
    Senator Brownback. Is there a downside, then, to this?
    Dr. Garwin. Absolutely.
    Senator Biden. Explain what you mean by the downside.
    Senator Brownback. You get your questions quickly. I am 
getting off here, Joe. We are going to have fun here. Let us 
share.
    Dr. Garwin. In my testimony I list it. It is our inability 
to test. It is the inability to bring in people and have them 
verify things by test. But we have work-arounds, and I am 
confident these will be good, and we have the benefit.
    You know there is nobody--Tom Watson, Sr., who founded the 
IBM Company, for which I worked for 40 years, used to say that 
there is nobody who is so good that if you have a piece of 
paper with all of his advantages and all of his bad points, and 
you just pick the bad points, that person ought to go straight 
to hell, and there is nobody who is so bad that if you just put 
the paper with his good points on the table that he ought to go 
to Heaven, and any of these contracts or treaties is like that. 
You have to look at the balanced assessment, and not just at 
the downside.
    Senator Brownback. I think Joe and I both think we all need 
grace to get to Heaven, because we have all got problems here. 
Joe.
    Senator Biden. By the way, I am confident of that and if my 
mother is listening, she would look at the three of you and say 
no purgatory for you, straight to Heaven, for enduring this, 
this long. But let me suggest that I would like to followup on 
a few other points here.
    I have heard, and this has been stated, that this notion 
that, and maybe you can explain this to me, Dr. Garwin, in a 
tri-lab study of stockpile surveillance done in 1996 by the 
three laboratories, they said since 1958 through 1993, 830 
recorded findings of defects in the stockpile. They said that 
less than 1 percent were determined as a consequence of a 
nuclear test. And they said all but one of these nuclear tests 
involved items that were in the inventory before 1970. What 
does that mean?
    Dr. Garwin. Well several of those bombs had not been 
thoroughly tested. They were put into the stockpile during the 
moratorium from 1958 to 1961, whenever that was. And I have 
always opposed doing that. I opposed modifying our nuclear 
weapons under the moratorium or under the CTBT.
    The one case which was discovered, as I recall, by testing, 
was an end-of-life tritium condition. We tested something 
beyond where it had previously been tested. And we propose in 
our JASON study, which looked at all of these things, that the 
margins of the existing nuclear weapons should be improved. 
They are believed by the establishment to be adequate, but they 
should be improved by putting in more tritium or changing the 
tritium gas more frequently. That is a cheap thing to do and 
something that can be readily done without any downside. So we 
ought to do that. But perhaps my colleages know of some other 
points.
    Mr. Wade. Well, Senator Biden, thank goodness we have the 
surveillance programs to which you referred. And, yes, you are 
correct in that all of those defects were discovered as part of 
the surveillance program and not by a test. But there certainly 
are circumstances in which I have personally participated where 
a defect that was discovered could only be resolved by a test. 
Now we may get to a point through stockpile stewardship where 
we will not have to do that, where we can assure that the 
resolution of the problem is satisfactory by three-dimensional 
computational codes. I hope we get there. But my point is I do 
not think we are there yet and, therefore, I think we are at 
risk.
    Dr. Garwin. Let me be very specific in addressing that 
point. You find something. A beam--in a building--that has a 
crack in it. You do a lot of analysis because it might be 
costly to replace that beam and you say it is OK. We can wait 
until the crack goes a little bit further. But this is serious. 
This is the national deterrent. I do not want to do that. I 
want to replace it before I get to the point where there is any 
uncertainty. I find a crack; it is beyond the level of cracks, 
or crevices, or whatever, in the newly manufactured item; I 
want to replace that piece. That is what I would do. That is 
why I do not need to push this surveillance program and 
analysis program as far as people hope it will go.
    What will happen as the years go on, Mr. Chairman, is that 
we will be able to tolerate bigger cracks and less frequent 
manufacturing. We will not save any significant amount of money 
beacuse we do not have all that many weapons in the inventory 
anymore. In fact, it might be cheaper to go on with frequent 
remanufacture, rather than push the surveillance program, the 
stockpile stewardship program. But I am willing to go with what 
the labs and the military think are the best.
    Senator Biden. Now, Mr. Wade, you have indicated that we 
may get to the point, and we have not yet, where through very 
sophisticated stockpile testing techniques we might be able to 
have confidence not to test, but we are not there yet.
    Mr. Wade. I do not believe we are.
    Senator Biden. I am not suggesting we are either. But, now 
the chairman and many others say even if you get there, that 
will not matter because unless you can actually test it and 
watch it blow up, and see it work, it is not reliable. So we 
are kind of in a little bit of a Catch-22 here. The people who 
were arguing about the stockpile testing not being sufficient. 
If you take off the second layer of the onion here, they say 
even if--well, I should not say the chairman said, but the 
chairman of the Armed Services Committee said, even if you can 
get to that point, it is still not good enough because the only 
way you can test is to watch it blow up. That is the only way 
you have any certainty. Do you agree with that? Even 
theoretically, if you get to the point----
    Mr. Wade. Being an experimentalist I always like to watch 
things blow up, because that is, in fact, the final proof that 
it works. But I do believe that we will get to the kinds of 
computational techniques where you will not have to do that? I 
hope we do.
    Senator Biden. If we were there now, and we are not, I 
acknowledge. My time is up. I am sorry, go ahead.
    Senator Brownback. I appreciate the honesty of all of you 
and I do hope we get to that point in time, too. The point that 
I would have here is that we are not there yet, according to 
this list of witnesses. And according to Dr. Garwin, we are not 
there yet either. You were on the JASON report group that 
issued a report on nuclear testing, August 4, 1995?
    Dr. Garwin. Right. That is what I was referring to. You can 
find it. It's unclassified, summary and conclusions. I have 
them with me.
    Senator Brownback. You have a quote in there. Maybe you 
disagree with it now. ``In order to contribute to long-term 
confidence in the U.S. stockpile, testing of nuclear weapons 
under a 500-ton yield limit would have to be done on a 
continuing basis. Such ongoing testing can add to long-term 
stockpile's confidence.''
    Dr. Garwin. I think that is a misreading of the statement. 
I have not changed my mind. It really means that if any testing 
at 500-tons were to contribute to the confidence then it would 
have to be continued. It is saying that testing at 500-tons for 
a few years would not be of any help. And it does not contribue 
much anyhow. But that statement does not mean that a CTBT would 
lead to lack of confidence in the stockpile.
    Senator Brownback. It seems to read pretty clear to me. 
What you were saying, or what your report was in 1995----
    Dr. Garwin. It was addressing the proposal. It says, for 
the U.S. stockpile testing under a 500-ton yield limit would 
allow studies of boost and ignition and initial burn and so on. 
The primary argument that we heard was this and that and so on. 
And it follows from this argument, so that is not saying we 
believe it, that this utility depends on such tests being 
performed on a continuing basis and yielding reproducible 
results. If you will read the whole couple of paragraphs I 
think it will say quite the opposite of what you imply.
    Senator Brownback. Well, let us get that and we will have 
that there as well.
    [The correct quotation from the report follows:]

Conclusion 4:
    In order to contribute to long term confidence in the U.S. 
stockpile, testing of nuclear weapons under a 500 ton yield limit would 
have to be done on a continuing basis, which is tantamount to remaking 
a CTBT into a threshold test ban treaty. While such ongoing testing can 
add to long term stockpile confidence, it does not have the same 
priority as the essential stockpile stewardship program endorsed in 
Conclusion 2, nor does it merit the same priority as the measures to 
enhance performance margins in Conclusion 3. In the last analysis the 
technical contribution of such a testing program must be weighed 
against its costs and its political impact on the non-proliferation 
goals of the United States.

    Dr. Garwin. I would like to put into the record this 
nuclear testing summary.
    Senator Brownback. So ordered. Without objection.
    [The information referred to follows:]

 Nuclear Testing--Summary and Conclusions--JASON--August 4, 1995 (JSR-
                                95-320)

(Sidney Drell, Chairman, John Cornwall, Freeman Dyson, Douglas Eardley, 
Richard Garwin, David Hammer, John Kammerdiener, Robert LeLevier, 
Robert Puerifoy, John Richter, Marshall Rosenbluth, Seymour Sack, 
Jeremiah Sullivan, and Fredrik Zachariasen)
                        summary and conclusions
    (U) We have examined the experimental and analytic bases for 
understanding the performance of each of the weapon types that are 
currently planned to remain in the U.S. enduring nuclear stockpile. We 
have also examined whether continued underground tests at various 
nuclear yield thresholds would add significantly to our confidence in 
this stockpile in the years ahead.
    (U) Our starting point for this examination was a detailed review 
of past experience in developing and testing modern nuclear weapons, 
their certification and recertification processes, their performance 
margins,\1\ and evidence of aging or other trends overtime for each 
weapon type in the enduring stockpile.
---------------------------------------------------------------------------
    \1\ Defined as the difference between the minimum expected and the 
minimum needed yields of the primary.
---------------------------------------------------------------------------
Conclusion 1:
          (U) The United States can, today, have high confidence in the 
        safety, reliability, and performance margins of the nuclear 
        weapons that are designated to remain in the enduring 
        stockpile. This confidence is based on understanding gained 
        from 50 years experience and analysis of more than 1000 nuclear 
        tests, including the results of approximately 150 nuclear tests 
        of modern weapon types in the past 20 years.

    (U) Looking to future prospects of achieving a Comprehensive Test 
Ban Treaty (CTBT), a stated goal of the United States Government, we 
have studied a range of activities that could be of importance to 
extending our present confidence in the stockpile into the future. We 
include among these activities underground experiments producing sub-
kiloton levels of nuclear yield that might be permitted among the 
treaty-consistent activities under a CTBT.
    (U) Three key assumptions underlie our study:

    1. (U) The U.S. intends to maintain a credible nuclear deterrent.
    2. (U) The U.S. remains committed to the support of world-wide 
nonproliferation efforts.
    3. (U) The U.S. will not encounter new military or political 
circumstances in the future that cause it to abandon the current 
policy--first announced by President Bush in 1992--of not developing 
any new nuclear weapon designs.
Conclusion 2:
          (U) In order to maintain high confidence in the safety, 
        reliability, and performance of the individual types of weapons 
        in the enduring stockpile for several decades under a CTBT, 
        whether or not sub-kiloton tests are permitted, the United 
        States must provide continuing and steady support for a 
        focused, multifaceted program to increase understanding of the 
        enduring stockpile; to detect, anticipate and evaluate 
        potential aging problems; and to plan for refurbishment and 
        remanufacture, as required. In addition the U.S. must maintain 
        a significant industrial infrastructure in the nuclear program 
        to do the required replenishing, refurbishing, or 
        remanufacturing of age-affected components, and to evaluate the 
        resulting product; for example the high explosive, the boost 
        gas system, the tritium loading, etc. Important activities in a 
        stockpile stewardship program that will sustain a strong 
        scientific and technical base, including an experienced cadre 
        of capable scientists and engineers, are described in the body 
        of this study.

    (U) The proposed program will generate a large body of technically 
valuable new data and challenging opportunities capable of attracting 
and retaining experienced nuclear weapons scientists and engineers in 
the program. This is the intent of DOE's currently planned stockpile 
stewardship program.\2\ For the success of this program, the management 
of the three weapons laboratories (LANL, LLNL, SNL) must motivate, 
support, and reward effort in an area that has lost some of its glamor 
and excitement in the absence of new nuclear design and test 
opportunities.
---------------------------------------------------------------------------
    \2\ See the 1994 JASON Report JSR-94-345 on ``Science Based 
Stockpile Stewardship.''
---------------------------------------------------------------------------
    (U) Nevertheless, over the longer term, we may face concerns about 
whether accumulated changes in age-affected weapons components, whose 
replacements might have to be manufactured by changed processes, could 
lead to inadequate performance margins and reduced confidence in the 
stockpile.
    (U) Enhancements of performance margins will add substantially to 
long-term stockpile confidence with or without underground tests. To 
cite one example, we can adjust the boost gas fill or shorten the time 
interval between fills. (This is discussed more fully in the classified 
text.)
Conclusion 3:
          (U) The individual weapon types in the enduring stockpile 
        have a range of performance margins, all of which we judge to 
        be adequate at this time. In each case we have identified 
        opportunities for further enhancing their performance margins 
        by means that are straightforward and can be incorporated with 
        deliberate speed during scheduled maintenance or 
        remanufacturing activities. However greatest care in the form 
        of self-discipline will be required to avoid system 
        modifications, even if aimed at ``improvements,'' which may 
        compromise reliability.

    (U) This brings us to the issue of the usefulness, importance, or 
necessity of reduced yield (less than 1 kiloton) underground tests for 
maintaining confidence in the weapon types in the U.S. stockpile over a 
long period of time.
    (U) For the U.S. stockpile, testing under a 500 ton yield limit 
would allow studies of boost gas ignition and initial burn, which is a 
critical step in achieving full primary design yield. The primary 
argument that we heard in support of the importance of such testing by 
the U.S. is the following: the evidence in several cases and 
theoretical analyses indicate that results of a sub-kiloton 
(<difference> 500 tons) test of a given primary that achieves boost gas 
ignition and initial burn can be extrapolated to give some confidence 
in the yield of an identical primary with full boosting. Therefore, if 
a modified or remanufactured primary is introduced into the stockpile 
in the future to correct some aging problem, such tests on the modified 
system would add to confidence that the performance of the new primary 
is still adequate.
    (U) It follows from this argument that the utility to the U.S. of 
testing at yields of up to approximately 500 tons depends on such tests 
being performed on a continuing basis and yielding reproducible 
results. If they are permitted only for a few years, such tests could 
add to the theoretical understanding of the boosting process and the 
reliability of the computer codes that attempt to describe it, but 
would not contribute directly to the reliability of the weapon in the 
enduring stockpile in view of the possible manufacturing changes made 
at a later date. To gain evidence as to whether long-term changes in 
age-affected weapons components have any impact on boost-performance 
the tests would have to be made with the remanufactured weapons 
themselves.
Conclusion 4:
    (U) In order to contribute to long term confidence in the U.S. 
stockpile, testing of nuclear weapons under a 500 ton yield limit would 
have to be done on a continuing basis, which is tantamount to remaking 
a CTBT into a threshold test ban treaty. While such ongoing testing can 
add to long term stockpile confidence, it does not have the same 
priority as the essential stockpile stewardship program endorsed in 
Conclusion 2, nor does it merit the same priority as the measures to 
enhance performance margins in Conclusion 3. In the last analysis the 
technical contribution of such a testing program must be weighed 
against its costs and its political impact on the non-proliferation 
goals of the United States.
Conclusion 5:
    (U) Underground testing of nuclear weapons at any yield level below 
that required to initiate boosting is of limited value to the United 
States. However experiments involving high explosives and fissionable 
material that do not reach criticality are useful in improving our 
understanding of the behavior of weapons materials under relevant 
physical conditions. They should be included among treaty consistent 
activities that are discussed more fully in the text.
    (U) This conclusion is based on the following two observations.

  <bullet> (U) [a)] So-called hydronuclear tests, defined as limited to 
        a nuclear yield of less than 4 lbs TNT equivalent, can be 
        performed only after making changes that drastically alter the 
        primary implosion. A persuasive case has not been made for the 
        utility of hydronuclear tests for detecting small changes in 
        the performance margins for current U.S. weapons. At best, such 
        tests could confirm the safety of a device against producing 
        detectable nuclear yield if its high explosive is detonated 
        accidentally at one point. We find that the U.S. arsenal has 
        neither a present nor anticipated need for such re-
        confirmation. The existing large nuclear test data base can 
        serve to validate two- and three-dimensional computational 
        techniques for evaluating any new one-point safety scenarios, 
        and it should be fully exploited for this purpose.

  <bullet> (U) [b)] Testing with nominal yields up to a 100-ton limit 
        permits examination of aspects of the pre-boost fission 
        process. However, this is at best a partial and possibly 
        misleading performance indicator.

    (U) As agreement to limit testing to very low yields raises the 
issue of monitoring compliance. We have not made a detailed study of 
this issue, but note the following: Cooperative, on-site monitoring 
would be necessary, and relevant measurements, including for example 
neutron yields, could be made without compromising classified 
information on bomb designs.
    (U) We have reviewed the device problems which occurred in the past 
and which either relied on, or required, nuclear yield tests to 
resolve.
Conclusion 6:
          (U) For the weapon types planned to remain in the enduring 
        stockpile we find that the device problems which occurred in 
        the past, and, which either relied on, or required, nuclear 
        yield tests to resolve, were primarily the result of incomplete 
        or inadequate design activities. In part, these were due to the 
        more limited knowledge and computational capabilities of a 
        decade, or more, ago. We are persuaded that those problems have 
        been corrected and that the weapon types in the enduring 
        stockpile are safe and reliable in the context of explicit 
        military requirements.

    (U) Should the U.S., in the future, encounter problems in an 
existing stockpile design (which we do not anticipate at present) that 
are so serious as to lead to unacceptable of confidence in the safety, 
effectiveness, or reliability of a weapon type, it is possible that 
testing of the primary at full yield, and ignition of the secondary, 
would be required to certify a specified fix. Useful tests to address 
such problems generate nuclear yields in excess of approximately 10 kT. 
DOE's currently planned enhanced surveillance and maintenance program 
is intended to alert us to any such need that may arise. A ``supreme 
national interest'' withdrawal clause that is standard in any treaty to 
which this nation is a signatory would permit the U.S. to respond 
appropriately should a need arise.
Conclusion 7:
          (U) The above findings, as summarized in Conclusions 1 
        through 6, are consistent with U.S. agreement to enter into a 
        Comprehensive Test Ban Treaty (CTBT) of unending duration, that 
        includes a standard ``supreme national interest'' clause. 
        Recognizing that the challenge of maintaining an effective 
        nuclear stockpile for an indefinite period without benefit of 
        underground tests is an important and also a new one, the U.S. 
        should affirm its readiness to invoke the supreme national 
        interest clause should the need arise as a result of 
        unanticipated technical problems in the enduring stockpile.

    Senator Brownback. But it adds to my question when I look 
at this, when I think of the Secretary of Defense, Secretary 
Cohen's statements earlier in his career, when he was a 
Senator. Questions and shift now and maybe people just grow in 
their difference of opinion, but I appreciate your candor. I 
appreciate Dr. Wade's comments about ``he hopes we get there.'' 
But that we are not there yet. Do you have a parting comment, 
Joe? Then let us shut it down.
    Senator Biden. I think when you put the whole summary in, 
you will see on page eight, it says, ``We have reviewed the 
device problems which occurred in the past and which either 
relied on, or required, nuclear yield tests to resolve. 
Conclusion 6. For the weapon types planned to remain in the 
enduring stockpile we find that the device problems which 
occurred in the past and which either relied on, or required, 
nuclear yield tests to resolve, were primarily the result of 
incomplete or inadequate design activities. In part, these were 
due to the more limited knowledge and computational 
capabilities of a decade, or more, ago. We are persuaded that 
these problems have been corrected and that the weapons types 
in the enduring stockpile are safe and reliable in the context 
of explicit military requirements.''
    And, Secretary Cohen, I ask unanimous consent that his 
response to that question in the Armed Services Committee 
hearing be able to be entered into the record, if I may, Mr. 
Chairman, so that nothing is left--well, I know his arguments. 
I don't want to take the time now. But if we could have 
Secretary Cohen's response because the same issue was raised in 
the Armed Services Committee in my presence and he gave an 
answer that explained why he said what he said then and why he 
is where he is now, and it related to safety issues. But if we 
could put that in the record.
    Senator Brownback. His statement to the Armed Services 
Committee on that section.
    Senator Biden. Yes, not my characterization but his 
statement.
    Senator Brownback. Without objection. That will be put in 
the record.
    [The information referred to follows:]

Response of Secretary Cohen to Question Asked Before the Armed Services 
                      Committee on October 6, 1999

    Secretary Cohen. Mr. Chairman, I would like to conclude with just a 
couple of comments. You pointed this fact out. And some of the members 
who are sitting here today also were sitting here back in 1992. There 
are some new members who were not here.
    And you may recall, and I am sure that several on the committee 
will recall, that as a Senator, I had considerable doubts about the 
wisdom of prematurely halting nuclear testing, because many of the 
weapons in the stockpile lacked modern safety features. But a lot has 
changed in the last 7 years, much more so than my simply moving my desk 
over to the Pentagon.
    As we have reduced our arsenal, these older weapons in the 
stockpile have been retired. And they have eased my concerns. The 
threat of nuclear missile proliferation is more significant today than 
it was in 1992. There was no CTBT in 1992. And today there is.
    You have 154 nations who have signed the Treaty. You have 47 who 
have ratified it, including a majority of the 44 required before it can 
enter into force. And, finally, all five nuclear powers who were 
testing in 1992 today, all five have declared testing moratoriums.

    Senator Biden. Mr. Chairman, you have been very gracious. I 
will not take any more of your time beyond saying that, 
gentlemen, I really do think you have been the best witnesses 
in the last 4 days I have heard, even though you disagree.
    Senator Brownback. Certainly the most fun.
    Senator Biden. Well, because for the first time you have 
been the ones given a chance to actually have an exchange here. 
I love this new process. I wish this man were running all the 
hearings I have been involved in. You know, it used to be when 
we were trying to figure out what a Supreme Court Justice 
thought and I was chairman of a committee, I gave every 
Republican a half hour of questioning, because the best of all 
things to do when you want to defeat something, if I do not 
want the press to know what is on my mind, I invite 50 of them 
to show up. All 50. Then I am guaranteed they all come with the 
one question they want to know, and none of them will followup 
on the other guy's question, out of ego, which means I never 
have to give a complete answer. And that is exactly what 
happens in these hearings when we limit things to 6 minutes.
    How any intelligent person, let alone uninformed people 
like us, relative to your collective, intellectual, and 
professional capability can in 6 minutes question you in a way 
that can elicit any intelligent response or enter into a debate 
and dialog is nonexistent, in my humble opinion. And I do not 
think I am particularly slow. I am at least no slower than the 
average Senator, I do not think. I am pretty good at this stuff 
and to get 6 minutes with you guys who have been doing this all 
your life, that is why I want to thank you, Mr. Chairman.
    Senator Brownback. Gentlemen, thank you very much. You have 
been good and patient with us and we deeply appreciate that and 
we appreciate also your thoughtfulness because I know none of 
you come at your opinions, however we may disagree, lightly. 
Nor do any of you come at them with a malevolence toward this 
country or a will for anything ill to come to the United 
States. We have just got a serious issue and we need serious 
thought, and you have provided that. With that the hearing is 
adjourned.
    [Whereupon, at 7 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
